No. 21"

THE SUPREME COURT OF THE UNITED STATES
Elizabeth Shaw,
Petitioner,
vs.
Derek Shaw,
Respondent.

PETITIONER’S APPENDIX

PETITION FOR A WRIT OF CERTIORARI, MANDAMUS, AND PROHIBITION
i

Elizabeth Shaw
Pro Se
3314 Ash Drive
Apt. 11201
Orion, MI 48359
(810) 662-5475
annjoelou54@gmail.com

i

V

APPENDIX
TABLE OF CONTENTS

1-6
Appendix A
December 10, 2020 Decision of the Michigan State Court of Appeals

7
Appendix B
February 3, 2020 Decision of the Sanilac County Circuit Court in the divorce case

8
Appendix C
March 30, 2021 unsigned Decision of the Michigan Supreme Court Denying Review

9-16

Appendix D
The Indian Child Welfare Act of 1978

17-19

Appendix E
The Indian Civil Rights Act

20-32

Appendix F
Michigan’s Child Custody Act

33-43

Appendix G
The Michigan Indian Child Preservation Act

44-71

Appendix H
Miami Tribe of Oklahoma Children’s Code

72-84

Appendix I
Miami Tribe of Oklahoma Constitution

85-131

Appendix J
Detailed Statement of the Case

i

Appendix K.

132-133
Affidavit of Marsha Wetzel

Appendix L

134
February 17, 20l[8] Donna Greenhaw letter

Appendix M

135-142
April 13, 2018 Tribal Court Order of Adjudication

Appendix N

143-144
September 20, 2016 counselor report; Sarah Shelton

Appendix 0

145
ICW Update to the Tribal Court

Appendix P
146
June 28, 2017 Tribal Court Protection Order Against ICW & GAL

Appendix Q

147-154
March 18, 2015 MCPP order

Appendix R

155
March 24, 2015 Order of Transfer

Appendix S

156
August 12, 2020 MCOA Peremptory Reversal denial order

Appendix T

157
October 16, 2020 MSC denial order
'j

Appendix U

158
April 30, 2020 MCOA dismissal order in MCPP appeal
u

159
Appendix V
May 12, 2020 MCOA order denying reconsideration in MCPP appeal

160-162

Appendix W
March 26, 2021 Trial court termination order

163

Appendix X
November 26, 2014 custody modification order

164
Appendix Y
Donna Greenhaw custodial/reunification proposed agreements

165-174

Appendix Z
June 9, 2015 Tribe’s Petition against Derek

175-178

Appendix AA
Petition & Order Accepting Jurisdiction in Tribal Court

in

Ifthis opinion indicates that it is “FOR PUBLICATION, ’’ it is subject to
revision untilfinal publication in the Michigan Appeals Reports.

STATE OF MICHIGAN
COURT OF APPEALS

DEREK SHAW,

UNPUBLISHED
December 10,2020

PIaintifi7Counterdefendant-Appellee,
No. 352851
Sanilac Circuit Court
Family Division
LC No. 14-035535-DM

ELIZABETH SHAW,
Defendant/Counterplaintiff-Appellant.
Before: Murray. C.J., and K. F. Kelly and Stephens, JJ.
Per Curjam.

Defendant, appearing in propria persona, appeals as of right an order denying her motion
for relief from judgment and denying her a declaratory judgment in the divorce proceedings.
Finding no errors warranting reversal, we affirm.
1. BASIC FACTS AND PROCEDURAL HISTORY
Plaintiff and defendant had two children during their marriage. The circuit court presiding
over the divorce proceedings (the state court) granted the parties a divorce by consent judgment
entered on September 12, 2014. The consent judgment granted the parties joint legal and physical
custody of the couple’s children. It established a “Custodial Time” schedule for the parties, with
significant parenting time granted to defendant. On September 30,2014, defendant filed a motion
for full custody, arguing that plaintiff had abused one of the children. In response, plaintiff stated
that defendant had made “multiple vexatious complaints” of abuse. Subsequently, a Michigan
child-protective-proceedings (MCPP) case was initiated in the family division of the state court,
LC No. 15-035887-NA, but it was transferred on March 24,2015, to the Miami Tribe of Oklahoma
District Court (the tribal court). It is not disputed that plaintiff is a Native American and a member
of the Miami Tribe of Oklahoma and that the couple’s children are “Indian” children for purposes
of the Indian Child Welfare Act of 1978 (ICWA),25 USC 1901 et seg., see 25 USC 1903(4), and
the Michigan Indian Family Preservation Act, MCL 712B.1 et seg., see MCL 7J2B.3(k). The
children, on March 24, 2015, were made wards of the tribal court.

A

1

Defendant attempted, many years later, to file a claim of appeal in this Court regarding the
transfer of the MCPP case to the tribal court, but the appeal was dismissed by this Court as
delineated in the following order:
The claim of appeal is DISMISSED for lack ofjurisdiction because it was
not filed within 21 days of the March 24,2015 order transferringjurisdiction ofthe
case to the Miami Tribe of Oklahoma'District Court. MCR 7204(X)(l)(aj.
Although appellant claims that the appeal was timely filed from the Sanilac Circuit
Court’s February 27,2020 order denying appellant’s motion to rescind the transfer,
appellant cannot claim an appeal of right from such an order. See MCR
3.993(A)(6). Dismissal is without prejudice to the filing of a late appeal under
MCR 7.205(G), provided such a filing meets all requirements under the court rules
and is not time-barred. [Shaw v Shaw, unpublished order of the Court of Appeals,
entered April 30, 2020 (Docket No. 353213).]1
In a letter dated October 6, 2015, the children’s guardian ad litem (GAL) stated that, the
tribal court had “deferred jurisdiction” on ruling about where the children should attend school to
the state court. Defendant wanted, among other things, to transfer the children to the Port Huron
Michigamme School, and the GAL stated, “If the Sanilac County ... Court sees fit to allow the
children to transfer to the Michigamme Public School, I agree and the children agree as well.”
Plaintiff filed a document indicating that the tribal court had deferred jurisdiction to Sanilac
County for only the single issue regarding a change of schools. The state court granted the changeof-schooJs motion.
Years later, in 2019 and 2020, defendant filed numerous motions in the state court, arguing,
among other things, that the children had been unlawfully taken from her by the tribal court, that
the order transferring the MCPP case to the tribal court was invalid, and that the custody
arrangement in the consent judgment of divorce must be enforced. However, documents filed by
defendant demonstrate that the tribal court suspended her visitations with the children in light of
her behavior, stating that she was harassing counselors, causing public scenes in front of the
children, and making no genuine effort to comply with her service plan. In fact, the tribal court
approved plaintiffs request to move the children to Oregon in August 2019. The tribal court stated
that it had allowed the state court to decide the years-earlier issue of a change of schools because

In a court transcript filed by defendant in Docket No. 353213, defendant’s attorney, while the
transfer ruling was being discussed, stated on the record that defendant agreed with the transfer to
the tribal court. 25 USC 1911(b) states:
In any State court proceeding for the foster care placement of, or termination
of parental rights to, an Indian child not domiciled or residing within the reservation
of the Indian child’s tribe, the court, in the absence of good cause to the contrary,
shall transfer such proceeding to the jurisdiction of the tribe, absent objection by
either parent, upon the petition of either parent or the Indian custodian or the Indian
child’s tribe: Provided, That such transfer shall be subject to declination by the
tribal court of such tribe.

-2-

2

that court, at the time, was more familiar with the proceedings. The tribal court went on to explain,
“Today, this [tribal] court is in the position to have the most information with regard to the family
and whether a move is appropriate.”
In ruling on the various motions filed by defendant, the state court opined that because a
child-protective-proceedings case was pending, the authority of the. state court to decide custody
matters was'suspended. The state court acknowledged that the tribal court had granted the state
court the authority to decide'a custody matter in October 2015, but it concluded that the tribal court
was not divested of all jurisdiction over custody matters. The state court opined that defendant
was requesting a modification of orders over which it, in presiding over the divorce case, did not
have jurisdiction. From these rulings, defendant appeals.
II. STANDARD OF REVIEW
The resolution of this appeal involves determining whether the state court was correct in
concluding that it lacked the authority to grant the various forms of relief requested by defendant.
This is a question of law, and questions of law are reviewed de novo. In re Fried, 266 Mich App
535, 538; 702 NW2d 192 (2005).
III. ANALYSIS
Essentially, defendant contends that the consent judgment of divorce addressed child
custody, and therefore, the state court erred in failing to rule on custody issues and in deferring to
the decisions of the tribal court when defendant was not a respondent in that litigation. We
disagree.
Defendant’s attempt in the present appeal to challenge the order of transfer of the MCPP
case to the tribal court is easily resolved. The state court was not involved in that decision and had
no authority to vacate that order. The proper place to challenge that was in the MCPP court—i.e.,
in LC No. 15-035887-NA—or in the tribal court, to the extent defendant is challenging the
acceptance of the transfer by the tribal court. As noted, defendant did file an untimely claim of
appeal in this Court from a decision of the MCPP court, but this Court dismissed the appeal.
Defendant’s argument in the present case addressing the transfer order is without merit because
the state court had no authority to void an order entered in a different case.2 Her arguments that
the order was not properly effectuated under the court rules are arguments to be directed to a
different court.
- Defendant’s contention that the so-called “one-parent doctrine,” as discussed in In re
Sanders, 495 Mich 394; 852 NW2d 524 (2014), entitles her to appellate relief is also unavailing.'
Although defendant claims that she was a non-respondent in the tribal court and that the tribal
court’s decisions denying her custody of the children were unconstitutional under In re Sanders,
it is not apparent that this allegation is true in light of the tribal court’s statement that the children

2 While issues ofjurisdiction can be collaterally attacked, see In re Ferranti, 504 Mich 1,22; 934
NW2d 610 (2019), the MCPP had jurisdiction to order the transfer, as set forth infra. Thereafter,
as also set forth infra, the tribal court acquired jurisdiction over the child-protective proceedings.
-3-

1

3

had been “adjudicate[ed]... deprived as to their Mother.” More importantly, however, it simply
was not the state court's role to determine whether the one-parent doctrine had been improperly
applied by the tribal court. The state court was not empowered to correct errors by the tribal court
that occurred in the course of the child-protective proceedings once the tribal court acquired
jurisdiction over those proceedings.
•

•

•

r

i

Defendant contends that the divorce proceedings must take precedence over the
proceedings in the tribal court, but this is not correct. In In reAP, 283 Mich App 574, 593-594;
770 NW2d 403 (2009), this Court stated:
[0]nce a juvenile court assumes jurisdiction over a child and the child becomes a
ward of the court under the juvenile code, thejuvenile court’s orders supersede all
previous orders, including custody orders entered by another court, even if
inconsistent or contradictory. In other words, the previous custody orders affecting
the minor become dormant, in a metaphoric sense, during the pendency of the
juvenile proceedings, but when the juvenile court dismisses its jurisdiction.over the
child, all those previous custody orders continue to remain in fiill force and effect.
... In addition, the juvenile court’s orders junction to supersede, rather than
modify or terminate, the custody orders while the juvenile matter is pending
because the juvenile orders are enteredpursuant to a distinct statutory scheme that
takes precedence over the Child Custody Act[, MCL 722.21 et seq]P^ We note that
during the duration of the juvenile proceedings, while the parties subject to the
custody order can move to modify the custody order, any modification would
remain superseded by the juvenile court’s orders. [Citations omitted; emphasis
added.]
The In re AP Court cited Krajewski v Krajewski, 420 Mich 729, 734-735; 362 NW2d 230
(1984), in stating that orders in child-protective proceedings take precedence over orders under the
Child Custody Act. In re AP, 283 Mich App at 594. In Krajewski, 420 Mich at 734-735, the Court
stated:
The observation in GCR 1963, 724.1(5) that “no waiver or transfer of
jurisdiction is required for the fiill and valid exercise of jurisdiction of the
subsequent court” evinces our conviction that the children intended to be protected
by the constitution and the Juvenile Code can best be served by a procedure which,
having provided for appropriate notice and opportunity for die prior court to
exercise its responsibility under its jurisdiction to further the child’s best interests,
nonetheless gives unrestricted freedom to.,the juvenile court to carry, out its
mandate. [Emphasis added.]
The Krajewski Court also noted that the court rules in effect at the time allowed for the entry of an
order by a subsequent court if such subsequent order was necessary for justice and the welfare of
the child. Id. at 734. MCR 3.205(A) states, “If an order or judgment has provided for continuing
3 The Child Custody Act applies to custody matters arising out of divorce proceedings. Sirovey v
Campell, 223 Mich App 59, 68; 565 NW2d 857 (1997).
*)
-4-

4
v

jurisdiction of a minor and proceedings are commenced in another Michigan court having separate
jurisdictional grounds for an action affecting that minor, a waiver or transfer ofjurisdiction is not
required for the full and valid exercise ofjurisdiction by the subsequent court.-” MCR 3.205(C)(2)
states, “A subsequent court must give due consideration to prior continuing orders of other courts,
and may not enter orders contrary to or inconsistent with such orders, except a?provided by law?
(Emphasis added.) Accordingly, the operative language from Krqjewski remains in effect in the
present-day court rules; when the child-protective proceedings were commenced in Michigan, they
took precedence over the divorce proceedings; and the MCPP court was, therefore, empowered to
transfer the case to the tribal court, contrary to defendant’s argument on appeal. In reAP, 283
Mich App at 593; MCR 3.205(A); see also In re DaBaja, 191 Mich App 281,290; 477 NW2d 148
(1991) (“The probate court had the ability to exercise its jurisdiction over the minor child in this
case, despite the Wayne Circuit Court’s continuing jurisdiction over the child as a result of the
prior divorce proceedings.”).
In this case, the tribal court acquired jurisdiction after being petitioned to do so, stated that
the transfer seryed,the best .interests of the children, stated that the children were thereby made
. wards of the tribal court, and stated that custody decisions would be made by the tribe’s foster­
care division. The MCPP court stated in the order of transfer that the Oklahoma Department of
Human Services had custody of the children and that the tribe had the authority to place the
children. When one reads In re AP, Krajewski, In re DaBaja, the Michigan Court Rules, 25 USC
1911 (b), the order of transfer, and the order accepting transfer together, it is apparent that the state
court properly concluded that it was not empowered to enter an order reinstating the custody
provisions of the divorce judgment. The MCPP court took precedence, and it transferred the
custody issue to the tribal court.
Defendant makes many misguided arguments that any orders of the tribal court were
unenforceable because they were foreign judgments and that, therefore, the GAL, the tribe, the
children’s school, and police officers kidnapped the children. But this argument is not being raised
before the proper court. It was not the state court presiding over the divorce proceedings that
directed the enforcement of the tribal court’s orders. Defendant takes issue with various actions
by the judge presiding in the tribal court, but again, the state court overseeing the divorce
proceedings was not empowered to correct alleged errors made by the tribal court. Defendant also
complains about the sequence of proceedings in the MCPP case, but once again she is not directing
these arguments at the proper court. Although the state court was, at times, involved in the MCPP
proceedings, it was presiding over a different lower court case at those times; the present appeal
encompasses its actions in the divorce case.
Defendant contends that the tribal court did not have jurisdiction over parenting-time issues
because it had previously allowed those issues to be determined by the state court. As noted,
however, the tribal court gave reasons for why, early in the case, it had allowed the state court to
decide certain custody issues. Defendant contends that equal protection requires that plaintiff be
subject to the authority of the state court for any school-change issue because defendant was
subject to the state court’s authority when she sought a change of schools. This argument is not
developed, is not supported by any legal authorities, and is clearly without merit. As stated in Ross
v Stokely, 258 Mich App 283, 296; 673 NW2d 413 (2003), “the essence of the equal protection
clauses is that the government not treat persons differently on account of characteristics that do
not justify such disparate treatment.” Once again, the tribe explained why it had, early in the case,
-5-

5
V.„.

deferred resolution of the school-change issue to the state court, but later decided to exercise its
jurisdiction over custody issues.
Defendant also argues that various statutes and court rules do not allow for divorce cases
to be transferred to tribal courts, but a divorce case was not, in fact, transferred to a tribal court.
Finally, defendant appears to be arguing that because a court had once suspended plaintiffs
parenting time, this suspension remains effective under principles of res judicata. This argument
is patently without merit given the nature of child-protective proceedings, during which a court
continually reassesses a parent’s ability to care for his or her children.
In sum, the state court presiding over die divorce proceedings properly concluded that it
did not have the authority to grant the relief requested by defendant because custody issues were
in the hands of the courts presiding over the child-protective proceedings. Moreover, the
additional issues raised or mentioned by defendant on appeal .are either without merit or are being
raised in the wrong case.
Affirmed.
/s/ Christopher M. Murray
/s/ Kirsten Frank Kelly
Is/ Cynthia Diane Stephens

-6-

6

STATE OF MICHIGAN
IN THE 24th CIRCUIT COURT FOR THE COUNTY OF SANILAC
FAMILY DIVISION
DEREK SHAW,
Plaintiff,
File No.: 14-35535-DM
Hon.Gregory S. Ross, P31377

v

ct;

ELIZABETH SHAW,
Defendant.

&
ri—

b*

s

'"3 V—.

I

W

rv CO

ORDER DENYING MOTION FOR RELIEF FROM*
JUDGMENT UNDER MCR 2.612 AND DECLARA TORY =
JUDGMENT UNDER MCR 2,605
o
At a session of said Court held in the City of Sandusky,
said County and State, on the S day oUfrsC? IAr 3Ct

1

•<r
m

----- A

, 2020.

Present: HONORABLE GREGORY S. ROSS, JUDGE
Defendant filed a Motion for Relief from Judgment under MCR 2.612 and Declaratory
Judgment under MCR 2.605 on January 2020. The Court reviewed the motion and the
brief in support thereof. On January .22,2020, Defendant appeared self-represented for
the hearing on the matter; Plaintiff failed to appear. The court listened to oral argument
of Defendant, and, now being hilly advised in the premises,
ORDERS that Defendant's Motion for Relief ft#mJudpnent under MCRand
Declaratory Judgment under MCR 2.605 is hereby denied >
1

l-di'te&S Ho options

Raesiv&d _____

y-

GREGO^ty^. ROSS, P31377
Judge
1/

PROOF OF SERVICE
I do hereby certify that 1 served a copy of the above Order Denying Motion upon each aftomey/party of
record as appearing
ve by placing a copy of said Order in a sealed en\-elope addressed to each, with full
^and placing said envelope in the United States Mail at Sandusky, Michigan, on the
postage prepaid thg
day of
2020.

V/M&

Christina Baldwin
Assignment Clerk

*'■1

1
i

-■c

j >; O

<

7

i
*A Supreme
Michigan
Court
Lansing, Michigan

Order

Bridget M. McCormack,
ChiefJustice

March 30, 2021

Brian K. Zahra
David F. Viviano
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Elizabeth M. Welch,

162505 & (65)

DEREK SHAW,
Plaintiff-Appellee,

Justices

SC: 162505
COA: 352851
Sanilac CC: 14-035535-DM

v

ELIZABETH SHAW,
Defendant-Appellant.

On order of the Court, the motion for immediate consideration is GRANTED. The
application for leave to appeal the December 10, 2020 judgment of the Court of Appeals
is considered, and it is DENIED, because we are not persuaded that the questions presented
should be reviewed by this Court.

1. Larry S. Royster, Clerk of the Michigan'Supreme CourLcertity that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
March 30, 2021
b0322

8

Clerk

\

I) NICWA

lodun Qi W V>Vtfuf A.<<ectMioft

:}

The Indian Child Welfare Act of 1978

25 U.S.C.§§ 1901-63

§ 1903. Definitions

§ 1901. Congressional findings

For the purposes of this chapter, except as may be
specifically provided otherwise, the term-

Recognizing the special relationship between the United
States and the Indian tribes and their members and the
Federal responsibility to Indian people, the Congress
finds—
(1) that clause 3, section 8, article I of the United States
Constitution provides that "The Congress shall have
Power * * * To regulate Commerce * * * with Indian
tribesl. and, through this and other constitutional
authority. Congress has plenary power over Indian
affairs;
(2) that Congress, through statutes, treaties, and the
general course of dealing with Indian tribes, has
assumed the responsibility for the protection and
preservation of Indian tribes and their resources;
(3) that there is no resource that is more vital to the
continued existence and integrity of Indian tribes than
their children and that the United States has a direct
interest, as trustee, in protecting Indian children who
are members of or are eligible for membership in an
Indian tribe;
(4) that an alarmingly high percentage of Indian families
are broken up by the removal, often unwarranted, of
their children from them by nontribal public and
private agencies and that an alarmingly high
percentage of such children are placed in non-Indian
foster and adoptive homes and institutions; and
(5) that the States, exercising their recognized
jurisdiction over Indian child custody proceedings
through administrative and judicial bodies, have often
failed to recognize the essential tribal relations of
Indian people and the cultural and social standards
prevailing in Indian communities and families. (Pub.
L. 95-608, § 2, Nov. 8, 1976,92 Stat. 3069.) Short
Title Section 1 of Pub. L. 95-608 provided: "That this
Act [enacting this chapter] may be cited as the 'Indian
Child Welfare Act of 1978’."

m

§ 1902. Congressional declaration of policy
The Congress hereby declares that it is the policy of this
Nation to protect the best interests of Indian children and
to promote the stability and security of Indian tribes and
families by the establishment of minimum Federal
standards for the removal of Indian children from their
families and the placement of such children in foster or
adoptive homes which will reflect the unique values of
Indian culture, and by providing for assistance to Indian
tribes in the operation of child and family sen/ice
programs. (Pub. L. 95-608, § 3, Nov. 8,197,8, 92 Stat.
3069.)

(1) "child custody proceeding" shall mean and
include0) "foster care placement" which shall mean
any action removing an Indian child from
its parent or Indian custodian for
temporary placement in a foster home or
institution or the home of a guardian or
conservator where the parent or Indian
custodian cannot have the child returned
upon demand, but where parental rights
have not been terminated;
"termination of parental rights" which
shall mean any action resulting in the
termination of the parent-child
relationship;
(iii)
"preadoptive placement" which shall
mean the temporary placement of an
Indian child in a foster home or institution
after the termination of parental rights,
but prior to or in lieu of adoptive
placement; and
Cv) "adoptive placement" which shall mean
the permanent placement of an Indian
child for adoption, including any action
resulting in a final decree of adoption.
Such term or terms shall not include a
placement based upon an act which, if
committed by an adult, would be deemed a
crime or upon an award, in a divorce
proceeding, of custody to one of the parents.
(2) "extended family member" shall be as defined by
the law or custom of the Indian child’s tribe or. in
the absence of such law or custom, shall be a
person who has reached the age of eighteen and
who is the Indian child’s grandparent, aunt or
uncle, brother or sister, brother-in-law or sister-inlaw, niece or nephew, first or second cousin, or
stepparent;
(3) "Indian" means any person who is a member of
an Indian tribe, or who is an Alaska Native and a
member of a Regional Corporation as defined in
1606 of title 43;
(4) "Indian child" means any unmarried person who
is under age eighteen and is either (a) a member
of an Indian tribe or (b) is eligible for membership
in an Indian tribe and is the biological child of a
member of an Indian tribe;
(5) "Indian child's tribe" means (a) the Indian tribe in
. which an Indian child is a member or;eligib!e for
membership of (b), in the case'of an Indian child
who is a member of or eligible for membership in

: i

9
V.

more than.one.tribe^thejndiantribe with which .
the Indian' child has the more significant contacts;
(6) “Indian custodian" means any Indian person who
has legal custody of an Indian child under tribal
law or custom or under State law or to whom
temporary physical care, custody, and control has
been transferred by the parent of such child;
(7) "Indian organization” means any group,
association, partnership, corporation, or other
legal entity owned or controlled by Indians, or a
majority of whose members are Indians;
(8) "Indian tribe" means any Indian tribe, band,
nation, or other organized group or community of
Indians recognized as eligible for the services
provided to Indians by the Secretary because of
their status as Indians, including any Alaska
Native village as defined in section 1602(c) of title
43;
(9) "parent" means any biological parent or parents
of an Indian child or any Indian person who has
lawfully adopted an Indian child, including
adoptions.under tribal law or custom. It does not
include the unwed father where paternity has not
been acknowledged or established;
(10) "reservation" means Indian country as defined in
section 1151 of title 18 and any lands, not
covered under such section, title to which is
either held by the United States in trust for the
benefit of any Indian tribe or individual or held by
any Indian tribe or individual subject to a
restriction by the United States against alienation;
(11) "Secretary" means the Secretary of the Interior;
and
(12) "tribal court" means a court with jurisdiction
over child custody proceedings and which is
either a Court of Indian Offenses, a court
established and operated under the code or
custom of an Indian tribe, or any other
administrative body of a tribe which is vested
with authority over child custody proceedings.
(Pub. L. 95-608, § 4, Nov. 8,1978,92 Stat.
3069.) Section Referred to in Other Sections
This section is referred to in sections 1727,
3202, 3653,4302 of this title; title 12 section
4702; title 26 section 168.
Subchapter 1
Child Cu&todv Proceedings
§ 1911. Indian tribe jurisdiction over Indian child
custody proceedings
(a) Exclusive jurisdiction
An Indian tribe shall have jurisdiction exclusive as to any
State over any child custody proceeding involving an
Indian child who resides or is domiciled within the
reservation of such tribe, except where such jurisdiction is
otherwise vested in the State by existing Federal law.
Where an Indian child is a ward of a tribal court, the

Indian tribe shall retain exclusive jurisdiction, .
., f4,
notwithstanding the residence or domicile of die child.'
(b) Transfer of proceedings; declination by tribal
court
In any State court proceeding for the foster care
placement of, or termination of parental rights to. an
Indian child not domiciled or residing within the
reservation of the Indian child's tribe, the court, in the
absence of good cause to the.contrary, shall transfer
such proceeding to the jurisdiction of the tribe, absent
objection by either parent, upon the petition of either
parent or the Indian custodian or the Indian child’s tribe:
Provided, That such transfer shall be subject to
declination by the tribal court of such tribe.
(c) State court proceedings; intervention
In any State court proceeding for the foster care
placement of, or termination of parental rights to, an
Indian child, the Indian custodian of the child and the
Indian child's tribe shall have a right to intervene at any
, point in the proceeding.
(d) Full faith and credit to public acts, records, and
judicial proceedings of Indian tribes
The United States, every State, every territory or
possession of the United States, and every Indian tribe
shall give full faith and credit to the public acts, records,
and judicial proceedings of any Indian tribe applicable to
Indian child custody proceedings to the same extent that
such entities give full faith and credit to the public acts,
records, and judicial proceedings of any other entity.
(Pub. L. 95-608, title I, § 101, Nov. 8,1978,92 Stat.
3071.) Section Referred to in Other Sections This section
is referred to in sections 1914,1918,1923 of this title.
§ 1912. Pending court proceedings
(a) Notice; time for commencement of proceedings;
additional time for preparation
In any involuntary proceeding in a State court, where the
court knows or has reason to know that an Indian child is
involved, the party seeking the foster care placement of,
or termination of parental rights to, an Indian child shall
notify the parent or Indian custodian and the Indian child's
tribe, by registered mail with return receipt requested, of
the pending proceedings and of their right of intervention.
. If the identity or location of the parent or Indian custodian
and the tribe cannot be determined, such notice shall be
given to the Secretary in like manner, who shall have
fifteen days after receipt to provide the requisite notice to
the parent or Indian custodian and the tribe. No foster
care placement or termination of parental rights
proceeding shall be held until at least ten days after
receipt of notice by the parent or Indian custodian and the
tribe or the Secretary: Provided, That the parent or Indian
custodian or the tribe shall, upon request, be granted up
to twenty additional days to prepare for such proceeding.

i

4

(b) Appointment.ofcounsel
"
In any case in which the court ’determines indigency, the
parent or Indian custodian shall have the right to courtappointed counsel in any removal, placement, or
termination proceeding. The court may, in its discretion,
appoint counsel ter the child upon a finding that such
appointment is in the best interest of the child. Where
State law makes no provision ter appointment of counsel
in such proceedings, the court shall promptly notify the
Secretary upon appointment of counsel, and the
Secretary, upon certification of the presiding judge, shall
pay reasonable tees and expenses out of tends which
may be appropriated pursuant to section 13 of this title.
(c) Examination of reports or other documents
Each party to a tester care placement or termination of
parental rights proceeding under State law involving an
Indian child shall have the right to examine all reports or
other documents filed with the court upon which any
decision with respect to such action may be based.
(d) Remedial services and rehabilitative programs; * <
preventive measures
Any party seeking to effect a tester care placement of. or
termination of parental rights to, an Indian child under
State law shall satisfy the court that active efforts have
been made to provide remedial services and rehabilitative
programs designed to prevent the breakup of tee Indian
family and teat these efforts have proved unsuccessful.
(e) Foster care placement orders; evidence;
determination of damage to child
No tester care placement may be ordered in such
proceeding in the absence of a determination, supported
by clear and convincing evidence, including testimony of
qualified expert witnesses, that the continued custody of
the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the
child.
(f)Parental rights termination orders; evidence;
determination of damage to child
No termination of parental rights may be ordered in such
proceeding in tee absence of a determination, supported
by evidence beyond a reasonable doubt, including
testimony of qualified expert witnesses, that tee continued
custody of tee child by tee parent or Indian custodian is
likely to result in serious emotional or physical damage to *
the child. (Pub. L. 95-608, title I, § 102, Nov^ 8,1978, 92
Stat. 3071.) Section Referred to in Other Sections This
section is referred to in sections 1914,1916 of this title.
§ 1913. Parental rights; voluntary termination
(a)Consent; record; certification matters; invalid
consents
Where any parent or Indian custodian voluntarily
consents to a foster care placement or to termination of
parental rights, such consent shall not be valid unless
executed in writing and recorded before a judge of a court

of competent jurisdiction and accompanied by the
presiding judge's certificate that the terms and
consequences of the consent were fully explained in
detail and were fully understood by the parent or Indian
custodian. The court shall also certify that either the
parent or Indian custodian fully understood the
explanation in English or that it was interpreted into a
language that the parent or Indian custodian understood.
Any consent given prior to, or within ten days after, birth
of the Indian child shall not be valid.
*

**

^

’

i•

(b)Foster care placement; withdrawal of consent
Any parent or Indian custodian may withdraw consent to
a foster care placement under State law at any time and,
upon such withdrawal, the child shall be returned to the
parent or Indian custodian.
(c)Voluntary termination of parental rights or
adoptive placement; withdrawal of consent; return of
custody
In any voluntary proceeding ter termination of parental
rights to, or adoptive placement of, an Indian child, the*
consent of the parent may be withdrawn ter any reason at
any time prior to the entry of a final decree of termination
or adoption, as the case may be, and the child shall be
returned to tee parent.
(d)Coliateral attack; vacation of decree and return of
custody; limitations
After the entry of a final decree of adoption of an Indian
child in any State court, the parent may withdraw consent
thereto upon tee grounds that consent was obtained
through fraud or duress and may petition tee court to
vacate such decree. Upon a finding that such consent
was obtained through fraud or duress, the court shall
vacate such decree and return the child to the parent. No
adoption which has been effective for at least two years
may be invalidated under the provisions of this subsection
unless otherwise permitted under State law. (Pub. L. 95608, title I, § 103, Nov. 8,1978, 92 Stat. 3072.) Section
Referred to in Other Sections This section is referred to in
section 1914 of this title.
§ 1914. Petition to court of competent jurisdiction to
invalidate action upon showing of certain violations
Any Indian child who is tee subject of any action ter tester
care placement or termination of parental rights under
State law, any parent or Indian custodian from whose
custody such child was removed, and the Indian child's
tribe may petition any court of competent jurisdiction to
invalidate such action upon a showing that such action
violated any provision of sections 1911,1912, and 1913
of this title. (Pub. L. 95-608, title I, § 104, Nov. 8,1978, 92
Stat. 3072.)

V-3__ .

§ 1915. Placement of Indian children .

vif'

(a)Adoptive placements; preferences
In any adoptive placement of an Indian child under State
law, a preference shall be given, in foe absence of good
cause to the contrary, to a placement with (1) a member
of the child's extended family; (2) other members of the
Indian child's tribe; or (3) other Indian families.
(b)Foster care or preadoptive placements; criteria;
preferences
Any child accepted for foster care or preadoptive
placement shall be placed in the least restrictive setting
which most approximates a family and in which his
special needs, if any, may be met. The child shall also be
placed within reasonable proximity to his or her home,
taking into account any special needs of the child. In any
foster care or preadoptive placement, a preference shall
be given, in the absence of good cause to foe contrary, to
a placement wifo(i)
a member of the Indian child's extended family;
(ii)
a foster home licensed, approved, or specified by
the Indian child's tribe;
(iii)
an Indian foster home licensed or approved by an
authorized non-Indian licensing authority; or
(iv)
an institution for children approved by an Indian
tribe or operated by an Indian organization which
has a program suitable to meet the Indian child's
needs.
(c)Tribal resolution for different order of preference;
personal preference considered; anonymity in
application of preferences
In foe case of a placement under subsection (a) or (b) of
this section, if the Indian child's tribe shall establish a
different order of preference by resolution, the agency or
court effecting the placement shall follow such order so
long as the placement is the least restrictive setting
appropriate to foe particular needs of the child, as
provided in subsection (b) of this section. Where
appropriate, foe preference of foe Indian child or parent
shall be considered: Provided, That where a consenting
parent evidences a desire for anonymity, the court or
agency shall give weight to such desire in applying foe
preferences.
(d)Social and cultural standards applicable
The standards to be applied in meeting the preference ,
requirements of this section shall be the prevailing social
and cultural standards of foe Indian community in which
foe parent or extended family resides or with which foe
parent or extended family members maintain social and
cultural ties.
(e)Record of placement; availability
A record of each such placement, under State law, of an
Indian child shall be maintained by foe State in which the
placement was made, evidencing the efforts to comply
with the order of preference specified in this section. Such
record shall be made available at any time upon the

request of the Secretary or the Indian child's tribe. (Pub.
L. 95-608, title I, § 105, Nov.' 8/1978, 92 Stat. 3073.)
§ 1916. Return of custody
(a)Petition; best interests of child
Notwithstanding State law to the contrary, whenever a
final decree of adoption of an Indian child has been
vacated or set aside or the adoptive parents voluntarily
consent to the termination of their parental rights to the
child, a biological parent or prior Indian custodian may
petition for return of custody and the court shall grant
such petition unless there is a showing, in a proceeding
subject to the provisions of section 1912 of this title, that
such return of custody is not in the best interests of the
child.
(b)Removal from foster care home; placement
procedure
Whenever an Indian child is removed from a foster care
home or institution for foe purpose of further foster care,
preadoptive, or adoptive placement, such placement shall
be in accordance with foe provisions of this chapter,
except in the case where an Indian child is being returned
to the parent or Indian custodian from whose custody the
child was originally removed. (Pub. L. 95-608, title I, §
106, Nov. 8,1978, 92 Stat. 3073.)
§ 1917. Tribal affiliation information and other
information for protection of rights from tribal
relationship; application of subject of adoptive
placement; disclosure by court
Upon application by an Indian individual who has reached
the age of eighteen and who was the subject of an
adoptive placement, the court which entered the final
decree shall inform such individual of the tribal affiliation,
if any, of the individual's biological parents and provide
such other information as may be necessary to protect
any rights flowing from the individual's tribal relationship.
(Pub. L. 95-608, title I, § 107, Nov. 8,1978, 92 Stat.
3073.)
$ 1918. Reassumption of jurisdiction over child
custody proceedings
(a)Petition; suitable plan; approval by Secretary
Any Indian tribe which became subject to State
jurisdiction pursuant to foe provisions of the Act of August
15,1953 (67 Stat. 588), as amended by title IV of the Act
of April 11,1968 (82 Stat. 73, 78), or pursuant to any
other Federal law, may reassume jurisdiction over child
custody proceedings. Before any Indian tribe may
reassume jurisdiction over Indian child custody
proceedings, such tribe shall present to the Secretary for
approval a petition to reassume such jurisdiction which
includes a suitable plan to exercise such jurisdiction.

I

v S* ;

(b)Criteria applicable to consideratiorvby Secretary; .
partial retrocession
(1) In considering the petition and feasibility of the
plan of a tribe under subsection (a) of this
section, the Secretary may consider, among
other things:
i.
whether or not the tribe maintains a
membership roll or alternative provision for
clearly identifying the persons who will be
affected by the reassumption of jurisdiction
by the tribe;
ii.
the size of the reservation or former
reservation area which will be affected by
retrocession and reassumption of jurisdiction
by the tribe;
iii.
the population base of the tribe, or
distribution of die population in homogeneous
communities or geographic areas; and (iv)
the feasibility of the plan in cases of
multitribal occupation of a single reservation
or geographic area.
(2) In those cases where the Secretary determines
that the jurisdictional provisions of section
1911 (a) of this tide are not feasible, he is
authorized to accept partial retrocession which
will enable tribes to exercise referral jurisdiction
as provided in section 1911(b) of this title, or,
where appropriate, will allow them to exercise
exclusive jurisdiction as provided in section
1911(a) of this title over limited community or
geographic areas without regard for the
reservation status of the area affected.
(c)Approval of petition; publication In Federal
Register; notice; reassumption period; correction of
causes for disapproval
If the Secretary approves any petition under subsection
(a) of this section, the Secretary shall publish notice of
such approval in foe Federal Register and shall notify the
affected State or States of such approval. The Indian tribe
concerned shall reassume jurisdiction sixty days after
publication in foe Federal Register of notice of approval, if
foe Secretary disapproves any petition under subsection
(a) of this section, foe Secretary shall provide such
technical assistance as may be necessary to enable foe
tribe to correct any deficiency which the Secretary
identified as a cause for disapproval.
(d)Pending actions or proceedings unaffected
Assumption of jurisdiction under this section shall not
affect any action or proceeding over which a court has
already assumed jurisdiction, except as may be provided
pursuant to any agreement under section 1919 of this
title. (Pub. L. 95-608, title i, § 108, Nov. 8,1978, 92 Stat.
3074.)

§ 1919. Agreements between'States and Indian tribes' ..
(a)Subject coverage
States and Indian tribes are authorized to enter into
agreements with each other respecting care and custody
of Indian children and jurisdiction over child custody
proceedings, including agreements which may provide for
orderly transfer of jurisdiction on a case-by-case basis
and agreements which provide for concurrent jurisdiction
between States and Indian tribes.
•e.\

(b)Revocation; notice; actions or proceedings
unaffected
Such agreements may be revoked by either party upon
one hundred and eighty days' written notice to the other
party. Such revocation shall not affect any action or
proceeding over which a court has already assumed
jurisdiction, unless the agreement provides otherwise.
(Pub. L. 95-608, title I, § 109, Nov. 8,1978,92 Stat.
3074.)
Section Referred to in Other Sections
This section is referred to in sections-1918, 1923 of this

title.
§ 1920. Improper removal of child from custody;
declination of jurisdiction; forthwith return of child:
danger exception
Where any petitioner in an Indian child custody
proceeding before a State court has improperly removed
the child from custody of the parent or Indian custodian or
has improperly retained custody after a visit or other
temporary relinquishment of custody, the court shall
decline jurisdiction over such petition and shall forthwith
return the child to his parent or Indian custodian unless
returning the child to his parent or custodian would
subject the child to a substantial and immediate danger or
threat of such danger.
§ 1921. Higher State or Federal standard applicable to
protect rights of parent or Indian custodian of Indian
child
In any case where State or Federal law applicable to a
child custody proceeding under State cm* Federal law
provides a higher standard of protection to foe rights of
the parent or Indian custodian of an Indian child than the
rights provided under this subchapter, foe State or
Federal court shall apply the State or Federal standard.
§ 1922. Emergency removal or placement of child;
termination; appropriate action
Nothing in this subchapter shall be construed to prevent
foe emergency removal of an Indian child who is a
resident of or is domiciled on a reservation, but
temporarily located off foe reservation, from his parent or
Indian custodian or foe emergency placement of such
child in a foster home or institution, under applicable - j
State law, in order to prevent imminent physical damage

V-

or harm to the child, the. State authority, iOfficial, or
agency involved shall insure that the emergency removal
or placement terminates immediately when such removal
or placement is no longer necessary to prevent imminent
physical damage or harm to the child and shall
expeditiously initiate a child custody proceeding subject to
the provisions of this subchapter, transfer the child to the
jurisdiction of the appropriate Indian tribe, or restore the
child to the parent or Indian custodian, as may be
appropriate.
§ 1923. Effective date
None of the provisions of this subchapter, except sections
1911(a), 1918, and 1919 of this title, shall affect a
proceeding under State law for foster care placement,
termination of parental rights, preadoptive placement, or
adoptive placement which was initiated or completed prior
to one hundred and eighty days after November 8,1978,
but shall apply to any subsequent proceeding in the same
matter or subsequent proceedings affecting the custody
or placement of the same child.
Subchapter II
Indian Child and Family Programs
§ 1931. Grants for on or near reservation programs
and child welfare codes
(a)Stetement of purpose; scope of programs
The Secretary is authorized to make grants to Indian
tribes and organizations in the establishment and
operation of Indian child and family service programs on
or near reservations and in the preparation and
implementation of child welfare codes. The objective of
every Indian child and family service program shall be to
prevent the breakup of Indian families and, in particular,
to insure that the permanent removal of an Indian child
from the custody of his parent or Indian custodian shall be
a last resort. Such child and family service programs may
include, but are not limited to(1) a system for licensing or otherwise regulating
Indian foster and adoptive homes;
(2) the operation and maintenance of facilities for the
counseling and treatment of Indian families and
for the temporary custody of Indian children;
(3) family assistance, including homemaker and
home counselors, day care, afterschool care, and
employment, recreational activities, and respite
care;
(4) home improvement programs;
(5) the employment of professional and other trained
personnel to assist the tribal court in the
disposition of domestic relations and child welfare
matters;
(6) education and training of Indians, including tribal
court judges and staff, in skills relating to child
and family assistance and service programs;
(7) a subsidy program under which Indian adoptive
children may be provided support comparable to

that for which they would be.eligibleas foster ,
children, taking into account the appropriate State
standards of support for maintenance and
medical needs; and
(8) guidance, legal representation, and advice to
Indian families involved in tribal, State, or Federal
child custody proceedings.

‘

(b)Non-Federal matching funds for related Social
Security or other Federal financial assistance
t:7
programs; assistance for such programs unaffected;
State licensing or approval for qualification for
assistance under federally assisted program
Funds appropriated for use by die Secretary in
accordance with this section may be utilized as nonFederal matching share in connection with funds provided
under titles !V*B and XX of the Social Security Act [42
U.S.C. 620 et seq., 1397 et seq.] or under any other
Federal financial assistance programs which contribute to
die purpose for which such funds are authorized to be
appropriated for use under this chapter. The provision or
possibility of assistance under this chapter shall not be a
basis for the denial or reduction of any assistance
otherwise authorized under tides IV-B and XX of die
Social Security Act or any other federally assisted
program. For purposes of qualifying for assistance under
a federally assisted program, licensing or approval of
foster or adoptive homes or institutions by an Indian tribe
shall be deemed equivalent to licensing or approval by a
State.
§ 1932. Grants for off-reservation programs for
additional services
The Secretary is also authorized to make grants to Indian
organizations to establish and operate off-reservation
Indian child and family service programs which may
include, but are not limited to~
(1) a system for regulating, maintaining, and
supporting Indian foster and adoptive homes,
including a subsidy program under which Indian
adoptive children may be provided support
comparable to that for which they would be
eligible as Indian foster children, taking into
account the appropriate State standards of
support for maintenance and medical needs;
(2) foe operation and maintenance of facilities and
services for counseling and treatment of Indian
families and Indian foster and adoptive children;
(3) family assistance, including homemaker and
home counselors, day care, afterschool care, and
employment, recreational activities, and respite
care; and
(4) guidance, legal representation, and advice to
Indian families involved in child custody
proceedings. (Pub. L. 95-608, title II, § 202, Nov.
8, 1978, 92 Stat. 3076.)
Section Referred to in Other Sections
This sectipn is referred to in section 1934 of this title.

V

/ .

§ 1933. Funds for on and off reservation programs

shall not be subject to the Freedom of Information
i .
Act‘(5’U.S.C. 552); as ’amended.

(a)Appropriated funds for similar programs of
(b)Disclosure of information for enrollment of Indian
Department of Health and Human Services;
child in tribe or for determination of member rights or
appropriation in advance for payments
benefits; certification of entitlement to enrollment
In the establishment, operation, and funding of Indian
Upon the request of the adopted Indian child over the age
child and family service programs, both on and off
of eighteen, the adoptive or foster parents of an Indian
reservation, the Secretary may enter into agreements
child, or an Indian tribe, the Secretary shall disclose such
with the Secretary of Health and Human Services, and
information as may be necessary for the enrollment of an
the latter Secretary is hereby authorized for such
purposes to use funds appropriated for similar programs ‘' • ’Indian child in the tribe in which the child may be eligible
of the Department of Health and Human Services:
for enrollment or for determining any rights or benefits
Provided, That authority to make payments pursuant to
associated with that membership. Where the documents
such agreements shall be effective only to the extent and
relating to such child contain an affidavit from the
in such amounts as may be provided in advance by
biological parent or parents requesting anonymity, the
appropriation Acts.
Secretary shall certify to the Indian child's tribe, where the
information warrants, that the child’s parentage and other
circumstances of birth entitle the child to enrollment under
(b)Appropriation authorization under section 13 of
the criteria established by such tribe.
this title
Funds far the purposes of this chapter may be
§ 1952. Rules and regulations
appropriated pursuant to the provisions of section 13 of
this title. (Pub. L. 95-608, title II, § 203, Nov. 8,1978, 92 •
•
Wrthin one hundred and eighty days after November 8,
Stat. 3076; Pub. L. 96-88, title V, § 509(b), Oct. 17,1979,
1978, the Secretary shall promulgate such rules and
93 Stat. 695.)
regulations as may be necessary to carry out the
provisions of this chapter.
§ 1934. "Indian" defined for certain purposes
For the purposes of sections 1932 and 1933 of this title,
the term "Indian" shall include persons defined in section
1603(c) of this title.
Subchapter III
Recordkeepino. Information Availability, and
Timetables
$ 1951. Information availability to and disclosure by
Secretary
(a)Copy of final decree or order; other information;
anonymity affidavit; exemption from Freedom of
Information Act
Any State court entering a final decree or order in any
Indian child adoptive placement after November 8,1978,
shall provide the Secretary with a copy of such decree or
order together with such other information as may be
necessary to show—
(1) the name and tribal affiliation of the child;
(2) the names and addresses of the biological
parents;
(3) the names and addresses of the adoptive
parents; and
(4) the identity of any agency having files or
information relating to such adoptive placement.
Where the court records contain an affidavit of
ttie biological parent or parents that their identity
remain confidential, the court shall include such
affidavit with the other information. The Secretary
shall insure that the confidentiality of such
information is maintained and such information

Subchapter IV
Miscellaneous Provisions
§ 1962. Locally convenient day schools
(a)Sense of Congress
It is the sense of Congress that the absence of locally
convenient day schools may contribute to the breakup of
Indian families.
(b)Report to Congress; contents, etc.
The Secretary is authorized and directed to prepare, in
consultation with appropriate agencies in the Department
of Health and Human Services, a report on the feasibility
of providing Indian children with schools located near
their homes, and to submit such report to the Select
Committee on Indian Affairs of the United States Senate
and the Committee on Interior and Insular Affairs of the
United States House of Representatives within two years
from November 8,1978. In developing this report the
Secretary shall give particular consideration to the
provision of educational facilities for children in the
elementary grades. (Pub. L. 95-608, title IV. § 401, Nov.
8, 1978, 92 Stat. 3078; Pub. L. 96-88, title V, § 509(b),
Oct. 17,1979, 93 Stat. 695.)
§ 1962. Copies to the States
Within sixty days after November 8,1978, the Secretary
shall send to the Governor, chief justice of the highest
court of appeal, and the attorney general of each State a
copy of this chapter, together with committee reports and
an explanation of the provisions of this chapter. r ’’

t

§ 1963. Severability
If any provision of this chapter or the applicability thereof
is held invalid, the remaining provisions of this chapter
shall not be affected thereby.

V.

Complete Text of Indian Civil Rights Act

6/3/2021

Trioal Court Clearinghouse

Si

i

:.=*v.

Text of Indian Civil Rights Act
T*. M.n CM »*« At of 1968 (KM) (« E«ttI>LUI»). B U.S.C.§i 1301-1304 (ICRA), prc.MO >t»

s,t rr.™ r,c ”-—-*««»■—> - «——which that section applies.
§ 1102. Constitution*! fWgfifs: No Indian trlba in «*ereJslng powers or*«ff-flovwvne«l Shall:

(•) In general
No Indian tribe In exerdsing powers of self-government shall

■:=srs=s£=S""=-=.-s---

x make or enforce any law prohibiting the free exercise of religion, or abridging the freedom of speech, or of the press,

describing the place to bt searched and the person or thing to be seized,
3. subject any person for the same offense to be twice put In J«op«thN
4. compel any person in any criminal case to be a witness against himself,

witnesses
7.
(A) require excessive ball, impose excessive fines, or Inflict cruel and unusual punishments;
(B) except as provided In subparagraph <C). Impose tor conviction of any 1 offense any penalty or punishment
greater man imprisonment for a term of l year or a fine of <5,000, or both,
(C) subject to subsection (b), impose for conviction of any l offense any penalty or punishment greater than
imprisonment for a term of 3 years or a fine of $15,000, or both; or
(D) impose on a person in a criminal proceeding a total penalty or punishment greater men imprisonment for a
- ■” term of 9 years;
a. deny to any person within Its jurisdiction me equal protection of Its laws or deprive any person of liberty or property
without due process of law;
10! deny toany Alison’scooxd of an offense punishable by imprisonment the right, upon request, to a trial by jury of not
less than six persons.
(b) Offenses subject to greater than 1-year imprisonment or a fine greater than $5,000
A tribal court may subject a defendant to a term of Imprisonment greater than 1 year but not to exceed 3 yea*J°r anVf .
offense, or a fmegreater than $5,000 but not to exceed $15,000, or bom, If me defendant is a person accused of a criminal
offense who—
1. Has been previously convicted of the seme or a comparable offense by any Jurisdiction in me United States; or
2. Is being prosecuted for any offense comparable to an offense that would be punishable by more man 1 year of
imprisonment if prosecuted by me United States or any of the States.
(e) Rights of defendants
In a criminal proceeding in which an Indian tribe, in exercising powers of self-government, imposes a total term of
imprisonment of more than 1 year on a defendant, me Indian tribe shall—
1. provide to me defendant the right to effective assistance of counsel at least equal to mat guaranteed by me United
States Constitution; and
,
,
__
.,
.
2. at the expense of the tribal government, provide an indigent defendant the assistance of a defense attorney licensed
to practice law by any jurisdiction In me United States that applies appropriate professional licensing standards and
effectively ensures me competence and professional responsibility of Its licensed attorneys;
3. require mat me Judge presiding over the criminal proceeding—
(A) has sufficient legal training to preside over criminal proceedings; and
(B) Is licensed to practice law by any Jurisdiction in the United States;
4. prior to charging me defendant, make publicly available the criminal laws (including regulations and Interpretative
documents), rules of evidence, and rules of criminal procedure (Including rules governing the recusal of judges In
appropriate circumstances) of me tribal government; end
5. maintain a record of me criminal proceeding, including an audio or other recording of me trial proceeding.
(d) Sentences
In the case of a defendant sentenced In accordance with subsections (b) and (c), a trtbBl court may require me defendant—
1. to serve the sentence-

https://www.tribalHnstltut6.or3/lists/lcra1968.htrn

QUICK LINKS
Tribal Law and PoiicvJns&Hte

LHfltuWLeuWiaBfln*
iDiEiMe-.y/sfiiMM
Csnfacuti&institute
Institute pniiosophieiiABPraach-Ss-Iiainicig

AteuuhftJCtesdiBJaflusft
BMLeeurLMtDteaiusifi
federal Agencies
AdministretionjprJaiilreiiA«ie.Fj»miiiei (acf)
^SmjnisLtefipJLf^N^tiyfij^ericanj (ana)
Amen^nJn^n.Enylimmeritel_gfIice

eiA^mssjOusfl&titEyJsfi*
fiyrgap of Indian Affairs (BIA)

auatsu.cfJn0.isiLiSii£fiMsn
gi)reauj2U)i8!fieJ^5j.aance (BJA)
(ONAP)
lQfli?.0-U>fL60SJ^.C-Cfl®iI^StP-CI nuoq
(COPS)
Office of juvenile justice and Delinquency.
Prevention (OIJDP)
Office................................ ..
Apprehending. Registering ,_anflj>a£king .
(SMART Office)
Office of Tribal Justice (OTJ)

0.ffij».o«!..Vio!fi0fifi-&Mtott.WflEa6n
Substance Abuse-andJieniaLdgemiSQdSgs
Administration (SAMHSA)
Tribal Justice andSafetyjnJ.ofljail.CP.Ufliry
Tribal Youth Program
mgIS-9-j-x

Native Organizations
ga.ijfb.aiiaJnijia-n-yiig&U^.cxises
National AmerlcanJiMUJiLCemUidigg
Association (NAIOA)
National American Indian Housing Council
(NAIHC)

NatififlaJj!^Bimslftffi£rifipBJfl.dJans (ncai)
National. Indian Child Welfare Association
(NtCWA)
Sexual Assault (NICCSA)
Tribes (NRC4TMbes)
Native American Children's Alliance (NACA)
Native American Rights Fund (NARF)
Native ewer Heaim..br&i^.Qurce..Cenig.r
Dias3i)Qj^ti9n..Bar*ts2ciaiign
Seu«iw.i?t-Cent§r-For_yiy<.Andialtey
Walking.on .Co.mmon.GfQynd
Native Law Blog*
Tribal Law Updates
AlfiSkSJMgsnsu?
Falmoutn Institute/American Indian Repot

!

’!

Complete Text of Indian Civil Rights Act

6/3/2021

(A) In a tribal correctional center that ha* been approved by the Bureau of tndian /Affalrai for 'opa-term
incarceration, in accordance with guidelines to be developed by the Bureau of Indian Affairs (In consultation
with Indian tribes) not later than 180 days after July 29, 2010;

LegimLsMry.-Blsg
legsLSctxQiaamp-BlflB
NABOJfIB*
N»WftoaUfsd!asA«MLyjttaJlft9
N^y.eJrD^^-m«ay£is.fl.2ngj^ngusrifl
N»tiy&Am£DSSn_Leg^I!Bd2lg
TudiftJftlX.

local government-approved detention or correctional center pursuant to an agreement between
(C) in a State or
the Indian tribe and the State or local government; or
(D) in an alternative rehabilitation center of an Indian tribe; or

*

2. to serve another alternative form of punishment, as determined by the tribal court Judge pursuant to tribal law.
i

(e) Definition of offense

■;

% np r*m

In this section, the term "offense" means a violation of a criminal law.
(f) Effect of section

Share

Like Page

Nothing l» M. section .Ken. the Mllgrton o, the MM Ste.es, or ,ny
'*« “* “»
by the United States, to investigate and prosecute any criminal violation in Indian country.
The0pri”te|^ ofttTwrit of habeas corpus shell be available to any person, In a court of the United states, to test the legality
of his detention by order of an Indian tribe.'
s 1304. Tribal Jurisdiction over Crimes of Domestic Violence
(a) Oeflnitfons.—In this section:
•The term 'dating violence' means violence committed by a person who is or has been In a social
l. Oaring violence
reaoonsn.0 of a
a romantic
w -......
I------ : nature with the Victim, as determined bytheler^oftherelat'onship, the type
relationship
or intimate
of relationship, and the frequency of interaction
2. Domestic Vio/eftce.-The term
of the victim under the domestic- or family-violence laws of an Indian tribe that has Jurisdiction over the Indian
3.

country' has the meaning given the term in section 1151 of rife 18, United States

4 fSSdpaUng Wbe.-The term -participating tribe' means an Indian tribe that elects to exercise special domestic
violence criminal jurisdiction over the Indian country of that Indian tribe.

5. Protection order.—The term 'protection order'—
(A) means any injunction, restraining order, or other order Issued by a civil or criminal
preventing violent or threatening arts or harassment against, sexual violence against, contact or communication
with, or physical proximity to, another person; and

response to a complaint, petition, or motion filed by or on behalf of the person seeking protection.
6 Special domestic violence criminal jurisdiction.-The term 'special domestic violence criminal jurisdiction: rnMns the
criminal jurisdiction that a participating tribe may exercise under this section b^ “u'd ,l°‘^!^ e^^’2266 *
7. Spouse or intimate pertner.-Tht term 'spouse or Intimate partner' has the meaning given the term In section 2266 of
title 18, United States Code.

(b) Nature of Criminal Jurisdiction.—

'■

z»

domestic violence criminal Jurisdiction over ail persons.
_ . ..^
2 Concurrent jurisdirtlon.-The exercise of special domestic violence criminal Jurisdiction by a participating tnbe shall be
concurrent with the Jurisdiction of the United States, of a State, or of both.
3. Applicability.—Nothing in this section(A) creates or eliminates any Federal or State criminal Jurisdiction over Indian country; or
(B) affects the authority of the United States or any State government that has been delegated authority by the
united States to Investigate and prosecute a criminal violation in Indian country.
4. Exceptions.—
(A) Victim and defendant are both non-Indians.(i) in general.—A participating tribe may not exercise special domestic violence criminal
Jurisdiction over an alleged offense If neither the defendant nor the alleged victim Is an Indian.
(ii) Definition of victim.—In this subparagraph and with respect to a criminal proceeding in which a
participating tribe exercises special domestic violence criminal Jurisdiction based an a violation of a
protection order, the term 'victim' means a person specifically protected by a protection order that
the defendant allegedly violated.(B) Defendant lacks ties to the Indian tribe —A participating tribe may exercise special domestic violence
criminal Jurisdiction over a defendant only tf the defendant—
(I) resides in the Indian country of the participating tribe;
(II) Is employed in the Indian country of the participating tribe; or
(Hi) is a spouse, intimate partner, or dating partner of—
(I) a member of the participating tribe; or
(II) an Indian who resides In the Indian country of the participating vibe.
(e) Criminal Conduct.—A participating tribe may exorcise special domestic violence criminal jurisdiction over a
defendant for criminal conduct that falls Into one or more of the following categories:

https://www.tribal-institute.orQ/1ists/icra1968.htm

\

Complete Text of Indian Civil Rights Act

6/3/2021

and dating vlolence.-An act of domestic violence or dating violence that occurs In the Indian

1. Domestic violence
country of the participating tribe.
2- Violations of protection orders.—An act that—

.

»

•

■

■

-i

(A) occurs In the Indian country of the participating tribe; and

•

5'

....

I.

vi

(B) violates the portion of a protection order that—

(II) was Issued against the defendant;
(III) Is enforceable by the participating tribe; and
(iv) is consistent with section 2265(b) of title IB, United States Code.
(d) W, of Dof.od.nu.-.n . crindn.l f.f~^y Idw»ld. 0 pM*n. .rt»o^orcf- dfC1
violence criminal jurisdiction, the participating tribe .hall provide to the defendant
S:

*

™v «inwod. Oil right* desert bed in sertion 202(0 [2= USC 1302, C;

3. the right to a trial by an impartial Jury that Is drawn from sources that
(A) reflect a fair cross section of the community; and
(B) do not systematically exclude any distinctive group In the community. Including non-Indians; and

Jurisdiction over the defendant.
(•) Petitions to Stay Detention.—
1 in general -A person who has filed a petition for a writ of habeas corpus In a court of me United S«t« under section
’ 203 [25 USC §P1303] may petition that court to stay further detention of that person by the participating tribe.
2. Grant of stay.—A court shall grant a stay described in paragraph (l) if the court t
- *
•

-• : •

(A) finds that there is a substantial likelihood that the habeas corpus petition will be granted ; and

person or the community if released.
3. Notice.—An Indian tribe that has ordered the detention of any person hasadutyto timely notify such person of his
rights and privileges under this subsection end under section 203 125 USC 5

ft .a>S*V.;:.

\u- " 1 l.)' '• -i'

’■U '.-ViC'.'

httpsiAvwvir.tribal-institute.org/li8ts/icra1968.hlm

V.

CHILD CUSTODY ACT OF 1970
Act 91 of 1970
AN ACT to declare the inherent rights of minor children; to establish rights and duties to their custody,
support, and parenting time in disputed actions; to establish rights and duties to provide support for a child
after the child reaches the age of majority under certain circumstances; to provide for certain procedure and
appeals; and to repeal certain acts and parts of acts.
History: 1970, Act 91, Eff. Apr. 1,1971;—Am. 1990, Act245, Imd. Eff Oct 10,1990;—Am. 1996, Act 19, Eff. June 1,1996.

The People of ike State of Michigan enact:

722.21 Child custody act; short title.
Sec. I. This act shall be known and may be cited as the "child custody act of 1970 .
History: 1970, Act9l, Eff. Apr. 1,1971.

722.22 Definitions.
(a) "Active duty” means that term as defined in section 101 of the servicemembers civil relief act, 50 USC
511, except that "active duty" includes full-time national guard duty.
.
(b) "Agency" means a legally authorized public or private organization, or governmental unit or official,
whether of this state or of another state or country, concerned in the welfare of minor children, including a
licensed child placement agency.
.
(c) "Attorney" means, if appointed to represent a child under this act, an attorney serving as the child s
legal advocate in a traditional attorney-client relationship with the child, as governed by the Michigan rules of
professional conduct. An attorney defined under this subdivision owes the same duties of undivided loyalty,
confidentiality, and zealous representation of the child's expressed wishes as the attorney would to an adult
CU™t) "Child” means minor child and children. Subject to section 5b of the support and parenting time
enforcement act, 1982 PA 295, MCL 552.605b, for purposes of providing support, child includes a child and
children who have reached 18 years of age.
.
.
(e) "Deployment" means the movement or mobilization of a servicemember to a location for a period ot
longer than 60 days and not longer than 540 days under temporary or permanent official orders as follows;
(i) That are designated as unaccompanied.
(//) For which dependent travel is not authorized.
(Hi) That otherwise do not permit the movement of family members to that location.
(iv) The servicemember is restricted from travel.
(f) "Grandparent" means a natural or adoptive parent of a child's natural or adoptive parent.
(g) "Guardian ad litem” means an individual whom the court appoints to assist the court in determining the
child's best interests. A guardian ad litem does not need to be an attorney.
(h) "Lawyer-guardian ad litem" means an attorney appointed under section 4. A lawyer-guardian ad litem
represents the child, and has the powers and duties, as set forth in section 4.
(i) "Parent" means the natural or adoptive parent of a child.
(j) "State disbursement unit" or "SDU" means the entity established in section 6 of the office of child
support act, 1971 PA 174, MCL 400.236.
(k) "Third person" means an individual other than a parent.
History: 1970, Aci 91, Eff. Apr. I, I971;-^\m..1990, Act 245, Imd. Eff. Oct. 10,1990;—Am. 1998, Act 482. Eff. Mar. 1, 1999;—
Am. 1999, Act 156. Imd. Eff. Nov. 3,1999;—Am. 2002. Act 9, Imd Eff. Feb. 14,2002;—Am. 2004, Act 542. Imd. Eff. Jan. 3,2005;—
Am. 2005, Act 327, Imd. Eff. Dec. 28,2005;—Am. 2015, Act 51, Eff. Sept. 7,2015.

722.23 "Best interests of the child" defined.
Sec. 3. As used in this act, "best interests of the child" means the sum total of the following factors to be
considered, evaluated, and determined by the court;
(a) The love, affection, and other emotional ties existing between the parties involved and the child.
(b) The capacity and disposition of the parties involved to give the child love, affection, and guidance and
to continue the education and raising of the child in his or her religion or creed, if any.
(c) The capacity and disposition of the parties involved to provide the child with food, clothing, medical
care or other remedial care recognized and permitted under the laws of this state in place of medical care, and
other material needs.
Mtcfegan Compiled Laws Complete Through PA 8 cri 2021
Pagel
Rendered Wednesday, April 28,2021
Courtesy o!'uwav/ ‘egisiutvru.nv guv

© Legislative Council, State of Michigan

F
V.

(d) The length of time the child has lived in a stable, satisfactory environment, and the desirability of
maintaining continuity.
(e) The permanence, as a family unit, of the existing or proposed custodial home or homes.
(0 The moral fitness of the parties involved.
(g) The mental and physical health of the parties involved.
(h) The home, school, and community record of the child.
(i) The reasonable preference of the child, if the court considers the child to be of sufficient age to express
preference.
’
(j) The willingness and ability of each of the parties to facilitate and encourage a close and continuing
parent-child relationship between the child and the other parent or the child and the parents. A court may not
consider negatively for the purposes of this factor any reasonable action taken by a parent to protect a child or
that parent from sexual assault or domestic violence by the child’s other parent
(k) Domestic violence, regardless of whether the violence was directed against or witnessed by the child.
(/) Any other factor considered by the court to be relevant to a particular child custody dispute.
History: 1970, Act 91, Efif. Apr I, 1971;—Am. 1980, Act 434, Imd. EfT. Jan. 14. 1981;—Am. 1993, Act 259, Imd. Eff. Nov, 29,
1993;—Am. 2016, Act 95. EfT. Aug. 1,2016.

722.24 Child custody disputes; powers of court; appointment of lawyer-guardian ad litem.
Sec. 4. (1). In alt actions involving dispute of a minor child's custody, the court shall declare the child's
inherent rights and establish the rights and duties as to the child's custody, support, and parenting time in '
accordance with this act.
(2) If, at any time in the proceeding, the court determines that the child’s best interests are inadequately
represented, the court may appoint a lawyer-guardian ad litem to represent the child. A lawyer-guardian ad
litem represents the child and has powers and duties in relation to that representation as set forth in section
17d of chapter XILA of 1939 PA 288, MCL 7l2A.17d. All provisions of section 17d of chapter X1IA of 1939
PA 288, MCL 712A.17d, apply to a lawyer-guardian ad litem appointed under this act.
(3) In a proceeding in which a lawyer-guardian ad litem represents a child, he or she may file a written
report and recommendation. The court may read the report and recommendation. The court shall not.
however, admit die report and recommendation into evidence unless all parties stipulate the admission. The
parties may make use of the report and recommendation for purposes of a settlement conference.
(4) After a determination of ability to pay, the court may assess all or part of the costs and reasonable fees
of the lawyer-guardian ad litem against I or more of the parties involved in the proceedings or against the
money allocated from marriage license fees for family counseling services under section 3 of 1887 PA 128,
MCL 551.103. A lawyer-guardian ad litem appointed under this section shall not be paid a fee unless the
court first receives and approves the fee.
History: 1970, Act91, Eff. Apr. 1.1971;—Am. 1996, Act 19, Eff. June l, 1996;—Am. 1998, Act482, EfT. Mar. 1,1999.

722.24a Repealed. 2001, Act 108, Eff. Sept 30,2001.
Compiler’s note: The repealed section pertained to support of child alter child reaches 18 years of age.

722.25 Child custody dispute; controlling interests, presumption; award of custody to parent
convicted of criminal sexual conduct or acts of nonconsensual sexual penetration;
prohibition; support or maintenance obligation; defense; "offending parent" defined.
Sec. 5. (1) If a child custody dispute is between the parents, between agencies, or between third persons,
the best interests of the child control. If the child custody dispute is between the parent or parents and an
agency or a third person, the court shall presume that the best interests of the child are served by awarding
custody to die parent or parents, unless the contrary is established byclear and convincing evidence.
(2) Notwithstanding other provisions of this act, if a child custody dispute involves a child who is
conceived as the result of acts for which 1 of the child's biological parents is convicted of criminal sexual
conduct as provided in sections 520a to 520c and 520g of the Michigan penal code, 1931 PA 328, MCL
750.520a to 750.520e and 750.520g, or a substantially similar statute of another slate or the federal
government, or is found by clear and convincing evidence in a fact-finding hearing to have committed acts of
nonconsensual sexual penetration, the court shall not award custody to that biological parent. This subsection
does not apply to a conviction under section 520d(l)(a) of the Michigan penal code, 1931 PA 328, MCL
750.520d. This subsection does not apply if, after the date of the conviction, or the date of the finding in a
fact-finding hearing described in this subsection, the biological parents cohabit and establish a mutual
custodial environment for the child.
(3) An offending parent is not entitled to custody of a child described in subsection (2) without the consent
Rendered Wednesday. Aprfl 28.2021

© Legislative Council, State of Michigan

Page 2

Michigan Compiled Laws Complete Through PA 8 of 2021
Gr,Lines-/ ofmw/.kigis'nhire.nv.gq'

of that child's other parent or guardian.
(4) Notwithstanding other provisions of this act, subsection (2) does not relieve an offending parent of any
support or maintenance obligation to the child. The other parent or the guardian of the child may decline
support or maintenance from the offending parent.
(5) A parent may assert an affirmative defense of the provisions of subsection (2) in a proceeding brought
by the offending parent regarding a child described in subsection (2).
(6) Notwithstanding other provisions of this act, if an individual is convicted of criminal sexual conduct as
provided in sections 520a to 520e and 520g of the Michigan penal code, 1931 PA 328, MCL 750.520a to
750.520e and 750.520g, and the victim is the individual's child, the court shall not award custody of that child
or a sibling of that child to that individual, unless both the child’s other parent and, if the court considers the
child or sibling to be of sufficient age to express his or her desires, the child or sibling consent to the custody.
(7) As used in this section, "offending parent" means a parent who has been convicted of criminal sexual
conduct as described in subsection (2) or who has been found by clear and convincing evidence in a
fact-finding hearing to have committed acts of nonconsensual sexual penetration as described in subsection
(2).
History: 1970, Act9i,EfT Apr 1,1971

-Am. 1993, Act 259, Imd. Eff. Nov. 29,1993.—Am. 2016, Act 96, Eff. Aug. 1,2016.

722.26 Liberal construction and application of act; purpose; provisions applicable to child
custody disputes and actions; precedence of other actions; submission of action; habeas
corpus or warrant
Sec. 6. (1) This act is equitable in nature and shall be liberally construed and applied to establish promptly
the rights of the child and the rights and duties of the parties involved. This act applies to all circuit court
child custody disputes and actions, whether original or incidental to other actions. Those disputes and actions
shall have precedence for hearing and assignment for trial over other civil actions.
(2) Except as otherwise provided in section 6b or 6e, if the circuit court of this state does not have prior
continuing jurisdiction over a child, the action shall be submitted to the circuit court of the county where the
child resides or may be found by complaint or complaint and motion for order to show cause. An application
for a writ of habeas corpus or for a warrant in its place to obtain custody of a child shall not be granted unless
it appears that this act is inadequate and ineffective to resolve the particular child custody dispute.
History: 1970. Act'91, Eff. Apr. 1, 1971;—Am. 1990, Act 315, Imd. Eff Dec. 20. 1990.—Am. 1993, Act 259. Imd. Eff. Nov. 29,
1993.

722.26a Joint custody.
Sec. 6a. (1) In custody disputes between parents, the parents shall be advised of joint custody. At the
request of either parent, the court shall consider an award of joint custody, and shall state on the record the
reasons for granting or denying a request In other cases joint custody may be considered by the court. The
court shall determine whether joint custody is in the best interest of the child by considering the following
factors:
(a) The factors enumerated in section 3.
(b) Whether the parents will be able to cooperate and generally agree concerning important decisions
affecting the welfare of the child.
(2) If the parents agree on joint custody, the court shall award joint custody unless the court determines on
the record, based upon clear and convincing evidence, that joint custody is not in the best interests of the
child.
(3) If the court awards joint custody, the court may include in its award a statement regarding when the
child shall reside with each parent, or may provide that physical custody be shared by the parents in a manner
to assure the child continuing contact with both parents.
(4) During the time a child resides with a parent, that parent shall decide all routine matters concerning the
child.
(5) If there is a dispute regarding residency, the court shall state the basis for a residency award on the
record or in writing.
(6) Joint custody shall not eliminate die responsibility for child support. Each parent shall be responsible
for child support based on the needs of the child and the actual resources of each parent. If a parent would
otherwise be unable to maintain adequate housing for the child and the other parent has sufficient resources,
the court may order modified support payments for a portion of housing expenses even during a period when
the child is not residing in the home of the parent receiving support. An order of joint custody, in and of itself,
shall not constitute grounds for modifying a support order.
(7) As used in this section, "joint custody" means an order of the court in which 1 or both of the following
Rendered Wednesday, April 28,202 f

© Legislative Council, State of Michigan

Page 3

Michigan Compiled Laws Complete Through PA 8 of 2021

Coirtiesy of&ww.fcgis&ture.nv.go:

is specified:
(a) That the child shall reside alternately for specific periods with each of the parents.
(b) That the parents shall share decision-making authority as to the important decisions affecting the
welfare of the child.
History: Add. I960, Act434, Imd. Eff. Jan. 14,1981.

722.26b Standing of guardian or limited guardian of child to bring action for custody of child;
filing' of abtion; stay of proceedings; continuation of order in force;' copy of judgment or
order of disposition; assignment of judge.
Sec. 6b. (1) Except as otherwise provided in subsection (2). a guardian or limited guardian of a child has
standing to bring an action for custody of the child as provided in this act.
(2) A limited guardian of a child does not have standing to bring an action for custody of the child if the
parent or parents of the child have substantially complied with a limited guardianship placement plan
regarding the child entered into as required by section 5205 of the estates and protected individuals code,
1998 PA 386, MCL 700.5205, or section 424a of former 1978 PA 642.
(3) If the circuit court does not have prior continuing jurisdiction over the child, a child custody action
brought by a guardian or limited guardian of the child shall be filed in the circuit court in the county in which
the probate court appointed the guardian.
(4) Upon the filing of a child custody action brought by a child’s guardian or limited guardian,
guardianship proceedings concerning that child in die probate court arc stayed until disposition'of the child
custody action. A probate court order concerning the guardianship of the child continues in force until
superseded by a circuit court order. If the circuit court awards custody of the child, it shall send a copy of the
judgment or order of disposition to the probate court in the county that appointed die child's guardian or
limited guardian.
(5) If a child’s guardian or limited guardian brings a child custody action, the circuit court shall request the
supreme court in accordance with section 225 of the revised judicature act of 1961, 1961 PA 236, MCL
600.225, to assign the probate court judge who appointed that guardian or limited guardian to serve as the
circuit court judge mid hear the child custody action.
History: Add. 1990, Act 315, Imd. Eff. Dec. 20,1990;—Am. 1993. Act 259, Imd. Eff, Nov. 29,1993;—Am. 2000, Act 60, Eff. Apr
1,2000.

722.26c Custody action by third person; conditions.
Sec. 6c. (1) A third person may bring an action for custody of a child if the court finds either of the
following:
(a) Both of the following:
(/) The child was placed for adoption with the third person under the adoption laws of this or another state,
and die placement order is still in effect at the time the action is filed.
(i7) After the placement, the child has resided with the third person for a minimum of 6 months.
(b) Alt of the following:
(0 The child's biological parents have never been married to one another.
(/V) The child’s parent who has custody of the child dies or is missing and the other parent has not been
granted legal custody under court order.
(iii) The third person is related to the child within the fifth degree by marriage, blood, or adoption.
(2) A third person shall include with an action filed under this section both of the following:
(a) An affidavit setting forth facts relative to the existence of the prerequisites required by subsection (1 )(a)
or (b).
(b) Notice that a defense or objection to a third person's right to' bring an action for custody'may be raised
as an affirmative defense or by a motion for summary disposition based on lack of standing as provided in the
Michigan court rules.
History: Add. 1993, Act 259, Imd. Eff. Nov. 29,1993.
Compiler’s note: Section 2 of Act No. 259 of the Public Acts of 1993 provided:
“Sections 6c to 6e as added by this amendatory act are remedial in nature and apply retroactively ."

722.26d Custody action by third person; jurisdiction.
Sec. 6d. A third person filing an action under section 6c shall proceed as follows:
(a) If the circuit court has continuing jurisdiction over the child, the action shall be filed in the circuit court
that has continuing jurisdiction over the child.
(b) If the circuit court does not have continuing jurisdiction over the child, the action,shall be filed in the
Rendered Wednesday. April 2S, 2021

© Legislative Council, State of Michigan

Pape 4

Michigan Compiled Laws Complete Through PA 8 of 2021

Ccurtssy of t-mw feglsfature. mi. go ; -

circuit court in the county where the child has resided for the 6 months immediately preceding the filing of the
action or. if the child has not resided in any county for the 6 months immediately preceding the filing of the
action, the action shall be filed in the circuit ’court in the county having the most significant connection with
the child.
j
History: Add. 1993, Act 259, Imd. EfF. Nov. 29,1993.

Compiler's note: Section 2 of Act No. 259 of the Public Acte of 1993 provided.
“Sections 6c to 6e as added by this amcndatoiy art arc remedial in nature and apply retroactively ”

722.26o Custody action by third person; notice; powers of court
Sec. 6e. (1) A third person filing an action under section 6c shall send notice of the action to each party
who has legal custody oflhe child and to eacfi parent whose parental rights have not been terminated.
(2) In addition to other powers of the court, in an action under section 6c, the court may do any of the
following:
(a) Appoint an attorney for a parent.
(b) Order that a necessary and reasonable amount of money be paid to the court for reimbursement of a
party's attorney. A party may request an order under this subdivision. The moving party shall allege facts
showing that the party is otherwise unable to bear the expense of the action. The court shall require the
disclosure of attorney fees or other expenses paid.
(c) The court may award costs and fees as provided in section 2591 of the revised judicature act of 1961,
Act No. 236 of the Public Acts of 1961, being section 600.2591 of foe Michigan Compiled Laws.
History: Add. 1993, Act 259, Imd. EfT Nov. 29.1993.
Compiler's note: Section 2 of Act No. 259 of the Public Acte of 1993 provided.
“Sections 6c to 6e as added by this amendatory ate are remedial in nature and apply retroactively ”
722.27 Child custody disputes; powers of court; support order; enforcement of judgment or
order; child custody while parent on deployment
Sec. 7. (1) If a child custody dispute has been submitted to the circuit court as an original action under this
act or has arisen incidentally from another action in foe circuit court or an order or judgment of foe circuit
court, for the best interests of the child foe court may do 1 or more of the following:
(a) Award the custody of foe child to 1 or more of foe parties involved or to others and provide for
payment of support for foe child, until the child reaches 18 years of age. Subject to section 5b of foe support
and parenting time enforcement act, 1982 PA 295, MCL 552.605b, foe court may also order support as
provided in this section for a child after he or she reaches 18 years of age. The court may require that support
payments shall be made through the friend of the court, court clerk, or state disbursement unit.
(b) Provide for reasonable parenting time of the child by the parties involved, by the maternal or paternal
grandparents, or by others, by general or specific terms and conditions. Parenting time of foe child by foe
parents is governed by section 7a.
(c) Subject to subsection (3), modify or amend Us previous judgments or orders for proper cause shown or
because of change of circumstances until the child reaches 18 years of age and, subject to section 5b of the
support and parenting time enforcement act, 1982 PA 295, MCL 552.605b, until foe child reaches 19 years
and 6 months of age. The court shall not modify or amend its previous judgments or orders or issue a new
order so as to change the established custodial environment of a child unless there is presented clear and
convincing evidence that it is in foe best interest of the child. The custodial environment of a child is
established if over an appreciable time the child naturally looks to the custodian in that environment for
guidance, discipline, foe necessities of life, and parental comfort. The age of foe child, the physical
environment, and the inclination of foe custodian and the child as to permanency of foe relationship shall also
be considered. If a motion for change of custody is filed while a parent is active duty, the court shall not
consider a parent's absence due to that active duty status in a best interest of the child determination.
(d) Utilize a guardian ad litem or foe community resources in behavioral sciences and other professions in
the investigation and study of custody disputes and consider their recommendations for the resolution of the
disputes.
(e) Take any other action considered to be necessary in a particular child custody dispute.
(f) Upon petition consider the reasonable grandparenting time of maternal or paternal grandparents as
provided in section 7b and, if denied, make a record of the denial.
(2) A judgment of order entered under this act providing for foe support of a child is governed by and is
enforceable as provided in the support and parenting time enforcement act, 1982 PA 295, MCL 552.601 to
552.650. If this act contains a specific provision regarding the contents or enforcement of a support order that
conflicts with a provision in the support and parenting time enforcement act, 1982 PA 295, MCL 552.601 to
Rendered Wednesday. April 28,2021

© Legislative Council, State of Michigan

Pages

Michigan Compiled Laws Complete Through PA 8 of 2021

Courtesy ofvmw. iegisiubjm.vM gov

V...

552.650, this act controls in regard to that provision.
(3) As provided in the scrvicemembers civil relief act, 50 USC 501 to 597b, if a motion for change of
custody’ is filed during the time a parent is on deployment, a parent may file and the court shall entertain an
application for stay. The court shall not enter an order modifying or amending a previous judgment or order,
or issue a new order, that changes the child's placement that existed on the date the parent was called to
deployment, except that the court may enter a temporary custody order if there is clear and convincing
evidence that it is in the best interests of the child. When a temporary custody order is issued under this
subsection, the court may include a limit on die period of time that the temporary custody order remains in
effect. At any stage before final judgment in the proceeding, the parent may file an application for stay or
otherwise request a stay of the proceedings or file an application for an extension of a stay. The parent and the
custodial child are not required to be present to consider the application for stay or extension of a stay. The
application for stay or extension of a stay is sufficient if it is a signed, written statement, certified to be true
under penalty of perjury. The same conditions for the initial stay apply to an application for an extension of a
stay. The parent's duration of deployment shall not be considered in making a best interest of the child
determination.
(4) The parent shall inform the court of the deployment end date before or within 30 days after that
deployment end date. Upon notification of a parent's deployment end date, the court shall reinstate the
custody order in effect immediately preceding that period of deployment. If a motion for change of custody is
filed after a parent returns from deployment, the court shall not consider a parent's absence due to that
deployment in making a best interest of the child determination. Futtire deployments shall not be considered
in making a best interest of die child determination.
(5) If the deploying parent and the other parent share custody, the deploying parent must notify the other
parent of an upcoming deployment within a reasonable period of time.
History: 1970, Act 91, Eff. Apr. 1,1971;—Am. 1980, Act 161, Imd. EfT. June 18, 1980;—Am. 1985, Act 215, Eff Mar. 1,1986:—
Am. 1988, Act377, EfT. Mar. 30,1989;—Am. 1989,Act275, Imd. Eff. Dec. 26,1989:—Am. 1990, Act245. Imd. EfT. Oct. 10,1990;—
Am. 1990, Act 293, Imd. Eff Dec. 14, 1990:—Am. 1996, Act 19, Eff June 1. 1996;—Am. 1998, Act 482, EfT. Mar. 1, 1999;—Am.
1999, Act 156, Imd. Eff. Nov. 3,1999;—Am. 2001, Act 108, Eff. Sept 30, 2001;—Am. 2005, Act 328, Imd. Eff. Doc. 28. 2005;—Am.
2015, Act 52. Eff. Sept 7,2015.

722.27a Parenting time.
Sec. 7a. (1) Parenting time shall be granted in accordance with the best interests of the child. It is presumed
to be in the best interests of a child for the child to have a strong relationship with both of his or her parents.
Except as otherwise provided in this section, parenting time shall be granted to a parent in a frequency,
duration, and type reasonably calculated to promote a strong relationship between the child mid the parent
granted parenting time.
(2) If the parents of a child agree on parenting time terms, the court shall order the parenting time terms
unless the court determines on the record by clear and convincing evidence that the parenting time taros are
not in the best interests of the child.
(3) A child has a right to parenting time with a parent unless it is shown on the record by clear and
convincing evidence that it would endanger the child's physical, mental, or emotional health.
(4) Notwithstanding other provisions of this act, if a proceeding regarding parenting time involves a child
who is conceived as the result of acts for which 1 of the child's biological parents is convicted of criminal
sexual conduct as provided in sections 520a to 520e and 520g of die Michigan penal code, 1931 PA 328,
MCL 750.520a to 7S0.520e and 750.520g, or a substantially similar statute of another state or the federal
government, or is found by clear and convincing evidence in a fact-finding hearing to have committed acts of
nonconsensual sexual penetration, the court shall not grant parenting time to that biological parent. This
subsection does not apply to a conviction under section 520d(lXa) of the Michigan penal code, 1931 PA 328, ‘
MCL 750.520d. This subsection does not apply if, after the date of the conviction, or the date of the finding in
a fact-finding hearing described in this subsection, the biological parents cohabit and establish a mutual
custodial environment for die child.
(5) A parent may assert an affirmative defense of the provisions of subsection (4) in a proceeding brought
by die offending {went regarding a child described in subsection (4).
(6) Notwithstanding other provisions of this act, if an individual is convicted of criminal sexual conduct as
provided in sections 520a to 520e and 520g of the Michigan penal code, 1931 PA 328, MCL 750.520a to
750.520e and 750.520g, and the victim is the individual's child, the court shall not grant parenting time with
that child or a sibling of that child to that individual, unless both the child's other parent and, if the court
considers the child or sibling to be of sufficient age to express his or her desires, the child or sibling consent
to the parenting time.
Rendered Wednesday, April 26.2021

© Legislative Council, State of Michigan

Page 6

Michigan Compiled Laws Complete Through PA 8 of 2021

Cmirt&sy of www. legislature. muic- •

!

(7) The court may consider the following factors when determining the frequency, duration, and type of
parenting time to be granted:
(a) The existence of any special circumstances or needs of the child.
(b) Whether the child is a nursing child less than 6 months of age, or less than l year of age if the child
receives substantial nutrition through nursing.
(c) The reasonable likelihood of abuse or neglect of the child during parenting time.
(d) The reasonable likelihood of abuse of a parent resulting from the exercise of parenting time.
(e) The inconvenience to, and burdensome impact or effect on, the child of traveling for purposes of
parenting lime.
(f) Whether a parent can reasonably be expected to exercise parenting time in accordance with the court
order.
(g) Whether a parent has frequently failed to exercise reasonable parenting time.
(h) The threatened or actual detention of the child with the intent to retain or conceal the child from the
other parent or from a third person who has legal custody. A custodial parent's temporary residence with the
child in a domestic violence shelter shall not be construed as evidence of the custodial parent’s intent to retain
or conceal the child from the other parent.
(i) Any other relevant factors.
(8) Parenting time shall be granted in specific terms if requested by either party at any time.
(9) A parenting time order may contain any reasonable terms or conditions that facilitate the orderly and
meaningful exercise of parenting time by a parent, including I or more of the following:
(a) Division of the responsibility to transport the child.
(b) Division of the cost of transporting the child.
(c) Restrictions on the presence of third persons during parenting time.
(d) Requirements that die child be ready for parenting time at a specific time.
(e) Requirements that the parent arrive for parenting time and return the child from parenting time at
specific times.
(0 Requirements that parenting time occur in the presence of a third person or agency.
(g) Requirements dial a party post a bond to assure compliance with a parenting time order.
(h) Requirements of reasonable notice when parenting time will not occur.
(i) Any other reasonable condition determined to be appropriate in the particular case.
(30) Except as provided in this subsection, a parenting time order shall contain a prohibition on exercising
parenting time in a country' that is not a party to the Hague Convention on the Civil Aspects of International
Child Abduction. This subsection does not apply if both parents provide the court with written consent to
allow a parent to exercise parenting time in a country that is not a party to the Hague Convention on the Civil
Aspects of International Child Abduction.
(11) During the time a child is with a parent to whom parenting time has been awarded, that parent shall
decide all routine matters concerning the child.
(12) Prior to entry of a temporary order, a parent may seek an ex parte interim order concerning parenting
time. If the court enters an ex parte interim order concerning parenting time, the party on whose motion the ex
parte interim order is entered shall have a true copy of die order served on the friend of the court and the
opposing party.
(13) If the opposing party objects to the ex parte interim order, he or she shall file with the clerk of die
court within 14 days after receiving notice of the order a written objection to, or a motion to modify or
rescind, the ex parte interim order. The opposing party shall have a true copy of the written objection or
motion served on the friend of the court and the party who obtained the ex parte interim order.
(14) If the opposing party files a written objection to the ex parte interim order, the friend of the court shall
attempt to resolve the dispute within 14 days after receiving it. If the matter cannot be resolved, the friend of
the court shall provide the opposing party with a form motion and order with written instructions for their use
in modifying or rescinding the ex parte order without assistance of counsel. If the opposing party wishes to
proceed without assistance of counsel, the friend of the court shall schedule a hearing with the court that shall
be held within 21 days after die filing of the motion, if the opposing party files a motion to modify or rescind
the ex parte interim order and requests a hearing, the court shall resolve the dispute within 28 days after the
hearing is requested.
(15) An ex parte interim order issued under this section shall contain the following notice:
NOTICE:
1. You may file a written objection to this order or a motion to modify or rescind this order. You must file
the written objection or motion with the clerk of the court within 14 days after you were served with this
order. You must save a true copy of the objection or motion on the friend of the court and the party who
Rendered Wednesday, April 28,2021

© Legislative Council, State of Michigan

Page 7

Michigan Compiled Laws Complete Through PA 8 of 2021
Courtesy of paw/.tegislumre. mi.gov

1

:

obtained the order.
2. If you file a written objection, the friend of the court must try to resolve the dispute. If the friend of the
court cannot resolve the dispute and if you wish to bring the matter before the court without the assistance of
counsel, the friend of the court must provide you with form pleadings and written instructions and must
schedule a hearing with the court.
(16) As provided in the servicemembers civil relief act, 50 USC 501 to 597b, if a motion for change of
parenting time is filed during the time a parent is on deployment, a parent may file and the court shall
entertain an’application for stay. The court shall presume that the best interests of the child are served by not;
entering an order modifying or amending a previous judgment or order, or issuing a new order, that changes
the parenting lime that existed on the date the parent was called to deployment, unless the contrary is
established by clear and convincing evidence, at which time the court may enter a temporary parenting time
order. When a temporary parenting time order is issued under this subsection, the court may include a limit on
the period of time that the temporary parenting time order remains in effect At any stage before final
judgment in the proceeding, the parent may file an application for stay or otherwise request a stay of
proceedings or file an application for an extension of a stay. The parent and the custodial child are not
required to be present to consider the application for stay or extension of a stay. The application for stay or
extension of a stay is sufficient if it is a signed, written statement, certified to be true under penalty of peijury.
The same conditions for the initial stay apply to applications for an extension of a stay.
(17) The'parent shall inform the court of the deployment end date before or within 30 days after that
deployment end dale. Upon notification of a parent's deployment end date, the court shall reinstate the
parenting time order in effect immediately preceding that period of deployment. If a motion for change of
parenting time is filed after a parent returns from deployment, the court shall not consider a parent's absence
due to that deployment in making a determination regarding change of parenting time. Future deployments
shall not be considered in making a best interest of the child determination.
(18) If the deploying parent and the other parent share custody, the deploying parent must notify the other
parent of an upcoming deployment within a reasonable period of time.
(19) As used in this section, "offending parent" means a parent who has been convicted of criminal sexual
conduct as described in subsection (4) or who has been found by clear and convincing evidence in a
fact-finding hearing to have committed acts of nonconsensual sexual penetration as described in subsection
(4).
History: Add. 1988. Act 377, Eff. Mar. 30, 1989;—Ain 1993, Act 259. Imd. EfT Nov. 29, 1993;—Am. 1996, Act 19. EfT. June 1,
1996;—Am. 2012, Act 600. Imd. Eff. Jan. 9,2013;—Am. 2015, Act 50. EfT. Sept. 7.2015;—Am. 2016, Act 96, Eff. Aug. 1,2016.
Compiler's note: Former MCL 722.27a, which pertained to action by parent of deceased father or mother for visitation of unmarried
minor child, was repealed by Act J61 of 1980, Imd. EfT June 18.1980.

722.27b Order for grandparenting time; circumstances; acknowledgment of parentage;
commencement of action; procedures; affidavit; basis for entry of order; best interests of
child; alternative dispute resolution; frequency of filing complaint or motion seeking
order; attorney fees; order prohibiting change of domicile of chiid; effect of entry of order;
modifying or terminating order; record; termination of grandparent's right to commence
action.
Sec. 7b. (1) A child's grandparent may seek a grandparenting time order under 1 or more of tile following
circumstances:
(a) An action for divorce, separate maintenance, or annulment involving the child's parents is pending
before the court.
(b) The child’s parents are divorced, separated under a judgment of separate maintenance, or have had their
marriage annulled.
(c) The child's parent who is a chiid of the grandparents is deceased.
(d) The child's parents have never been married, they are not residing in the same household, and paternity
has been established by the completion of an acknowledgment of parentage under the acknowledgment of
parentage act, 1996 PA 305, MCL 722.1001 to 722.1013, by an order of filiation entered undo-the paternity
act, 1956 PA 205, MCL 722.711 to 722.730, or by a determination by a court of competent jurisdiction that
the individual is the father of the child.
(e) Except as otherwise provided in subsection (13), legal custody of the child has been given to a person
other than the child's parent, or the child is placed outside of and does not reside in the home of a parent.
(f) In the year preceding the commencement of an action under subsection (3) for grandparenting time, the
grandparent provided an established custodial environment for the child as described in section 7, whether or
not the grandparent had custody under a court order:
•
Rendered Wednesday. April 28,2021

© Legislative Council, State of Michigan

Pages

Michigan Compiled Laws Complete Through PA 6 of 2021

Courtesy

wwwJegisiztL-re.mi.goy

K

(2) A court shall not permit a parent of a father who has never been married to the child's mother to seek an
order for grandparenting time under this section unless the father has completed an acknowledgment of
parentage under the acknowledgment of parentage act, 1996 PA 305, MCL 722.1001 to 722.1013, an order of
filiation has been entered under the paternity act, 1956 PA 205, MCL 722.711 to 722.730, or the father has
been determined to be the father by a court of competent jurisdiction. The court shall not permit the parent of
a putative father to seek an order for grandparenting time unless foe putative father .has provided substantial
and regular support or care in accordance with the putative father’s ability to provide the support or care.
(3) A grandparent seeking a grandparenting time order shall commence an action for grandparenting time,
as follows:
(a) If foe circuit court has continuing jurisdiction over the child, the child's grandparent shall seek a
grandparenting time order by filing a motion with the circuit court in the county where foe court has
continuing jurisdiction.
(b) If the circuit court does not have continuing jurisdiction over the child, foe child’s grandparent shall
seek a grandparcnting time order by filing a complaint in the circuit court for foe county where foe child
resides.
(4) All of foe following apply to an action for grandparenting time under subsection (3):
(a) The complaint or motion for grandparenting time filed under subsection (3) shall be accompanied by an
affidavit setting forth facts supporting the requested order. The grandparent shall give notice of foe filing to
each person who has legal custody of, or an order for parenting time with, foe child. A party having legal
custody may file an opposing affidavit. A hearing shall be held by the court on its own motion or if a party
requests a hearing. At foe hearing, parties submitting affidavits shall be allowed an opportunity to be heard.
(b) In order to give deference to the decisions of fit parents, it is presumed in a proceeding under this
subsection that a fit parent’s decision to deny grandparenting time does not create a substantial risk of harm to
the child's mental, physical, or emotional health. To rebut the presumption created in this subdivision, a
grandparent filing a complaint or motion under this section must prove by a preponderance of foe evidence
that the parent’s decision to deny grandparenting time creates a substantial risk of harm to the child’s mental,
physical, or emotional health. If the grandparent does not overcome foe presumption, the court shall dismiss
the complaint or deny the motion.
(c) If a court of appellate jurisdiction determines in a final and nonappealable judgment that the burden of
proof described in subdivision (b) is unconstitutional, a grandparent filing a complaint or motion under this
section must prove by clear and convincing evidence that the parent’s decision to deny grandparenting time
creates a substantial risk of harm to the child’s mental, physical, or emotional health to rebut the presumption
created in subdivision (b).
(5) If 2 fit parents sign an affidavit stating that they both oppose an order for grandparenting time, foe court
shall dismiss a complaint or motion seeking an order for grandparenting time filed under subsection (3). This
subsection does not apply if 1 of the fit parents is a stepparent who adopted a child under the Michigan
adoption code, chapter X of foe probate code of 1939, 1939 PA 288, MCL 710.21 to 710.70, and the
grandparent seeking foe order is the natural or adoptive parent of a parent of foe child who is deceased or
whose parental rights have been terminated.
(6) If the court finds that a grandparent has met the standard for rebutting the presumption described in
subsection (4), foe court shall consider whether it is in foe best interests of foe child to enter an order for
grandparenting lime. If foe court finds by a preponderance of the evidence that it is in foe best interests of the
child to enter a grandparenting time order, the court shall enter an order providing for reasonable
grandparenting time of the child by foe grandparent by general or specific terms and conditions. In
determining the best interests of foe child under this subsection, the court shall consider all of the following:
(a) The love, affection, and other emotional ties existing between foe grandparent and the child.
(b) The length and quality of the prior relationship between the child and the grandparent, the role
performed by the grandparent, and the existing emotional ties of foe child to foe grandparent.
(c) The grandparent's moral fitness.
(d) The grandparent’s mental and physical health.
(e) The child’s reasonable preference, if foe court considers the child to be of sufficient age to express a
preference.
(0 The effect on the child of hostility between the grandparent and the parent of the child.
(g) The willingness of foe grandparent, except in the case of abuse or neglect, to encourage a close
relationship between foe child and the parent or parents of the child.

(h) Any history of physical, emotional, or sexual abuse or neglect of any child by foe grandparent.
(i) Whether the parent's decision to deny, or lack of an offer of, grandparenting time is related to the child’s
well-being or is for some other unrelated reason.
Rendered We*tesday, April 28,2021

© Legislative Council, State of Michigan

Page 9

Michigan Compiled Laws Complete Through PA 8 of 2021

Coun&ay ofmvwJagisiaiitre.mhgav.

(j) Any other factor relevant to the physical and psychological well-being of the child.
(7) If the court has determined that a grandparent has met the standard for rebutting the presumption
described in subsection (4), the court may refer that grandparent's complaint or motion for grandparenting
lime filed under subsection (3) to alternative dispute resolution as provided by supreme court rule. If the
complaint or motion is referred to the friend of the court for alternative dispute resolution and no settlement is
reached through friend of the court alternative dispute resolution within a reasonable time after the date of
referral, the complaint or motion shall be heard by the court as provided in this section.
(8) A grandparent may not file more than once every 2 years, absent a showing of good cause, a complaint
or motion under subsection (3) seeking a grandparenting time order. If the court finds there is good cause to
allow a grandparent to file more than 1 complaint or motion under this section in a 2-year period, the court
shall allow the filing and shall consider the complaint or motion. Upon motion of a person, the court may
order reasonable attorney fees to the prevailing party.
(9) Hie court shall not enter an order prohibiting an individual who has legal custody of a child from
changing the domicile of the child if the prohibition is primarily tor the purpose of allowing a grandparent to
exercise die rights conferred in a grandparenting time order entered under this section.
(10) A grandparenting time order entered under this section does not create parental rights in the individual
or individuals to whom grandparenting time rights are granted. The entry of a grandparenting time order does
not prevent a court of competent jurisdiction from acting upon the custody of the child, the parental rights of
the child, or the adoption of the child.
(11) A court shall not modify or terminate a grandparenting time order entered under tills section unless it
finds by a preponderance of the evidence, on the basis of facts that have arisen since entry of the
grandparenting time order or were unknown to the court at the time it entered that order, that a change has
occurred in the circumstances of die child or his or her custodian and that a modification or termination of the
existing order is necessary to avoid creating a substantial risk of harm to the mental, physical, or emotional
health of the child. A court modifying or terminating a grandparenting time order under this subsection shall
include specific findings of fact in its order in support of its decision.
(12) A court shall make a record of its analysis and findings under subsections (4), (6), (8), and (11),
including the reasons for granting or denying a requested grandparenting time order.
(13) Except as otherwise provided in this subsection, adoption of a child or placement of a child for
adoption under the Michigan adoption code, chapter X of the probate code of 1939, 1939 PA 288, MCL
710.21 to 710.70, terminates the right of a grandparent to commence an action for grandparenting time with
that child. Adoption of a child by a stepparent under the Michigan adoption code, chapter X of the probate
code of 1939, 1939 PA 288, MCL 710.21 to 710.70, does not terminate the right of the parent of a deceased
parent of the child to commence an action for grandparenting time with that child.
History: Add 1982, Act 340, Imd. Eff. Dec. 17.1982;—Am. 1996. Act 19. Eft June 1,1996;—Am. 2004, Act 542, Imd. EfT. Jan. 3,
2005;—Am. 2006, Act 353, Imd. Eff. Sept. 18.2006;—Am 2009, Act 137. Imd. Eff. Jan 8,2010.
Constftutkroallty: The Michigan Court of Appeals in DeRosev DeRose. 249 Midi App 388; 643 NW2d 259 (2002) held that section
7b of die child custody act ofl970, 1970 PA 91. MCL 722.27b, is unconstitutional. The Michigan Supreme Court affirmed. [DeRose v
DeRose. 496 Mich 320; 666 NW2d 636 (2003)1 The Michigan Supreme Court held that it was bound by the decision in US Supreme
parents have a fundamental right to raise their children, and on that basis, “die parents have the right to make decisions for children, and
such decisions must be accorded deference or weight” The Michigan Supreme Court held that MCL 722.27b failed to “require that a trial
court accord deference to the decisions of fit parens regarding grandparent visitation" and is therefore constitutionally invalid.

722.27c Parenting coordinator.
Sec. 7c. (1) A parenting coordinator is a person appointed by the court for a specified term to help
implement the parenting time orders of the court and to help resolve parenting disputes dial fall within the
scope of the parenting coordinator's appointment.
(2) The court may enter an order appointing a parenting coordinator if the parties and the parenting
coordinator agree to the appointment and its scope. Before appointing a parenting coordinator, the court shall
consider any history of a coercive or violent relationship between the parties. The court shall ensure that die
order appointing the parenting coordinator provides adequate protection to the victim of a coercive or violent
relationship.
(3) The order appointing a parenting coordinator shall include all of the following:
(a) An acknowledgment dial each party has had the opportunity to consult with an attorney and a domestic
violence counselor.
(b) An acknowledgment that the parenting coordinator is neutral; that the parenting coordinator may have
ex parte communications with the parties, their attorneys, and third parties; that, except as provided in
subsection (9), communications with the parenting coordinator are not privileged or confidential; and that by
Rendered Wednesday. April 28,2021

© Legislative Council, State of Michigan

Page 10

Michigan Compiled Laws Complete Through PA 8 of 2021

Courtesy of wwwJegtsiature. migor

agreeing to the order, the parties are giving the parenting coordinator authority to make recommendations
regarding disputes.
(c) A specific duration of the appointment. The order shall provide that the parenting coordinator may
resign at any lime due to nonpayment of his or her fee. The order may include a provision for extension of the
parenting coordinator's term by consent of the parties for specific periods of time.
(d) An explanation of the costs of the parenting coordinator, and each party's responsibility for those costs,
including any required retainer and fees for any required court appearances. The order may include a
provision allowing the parenting coordinator to allocate specific costs to 1 party for cause.
(e) The scope of the parenting coordinator's duties in resolving disputes between the parties. These may
include any of the following:
(/) Transportation and transfers of the child between parents.
(if) Vacation and holiday schedules and implementation.
(iii) Daily routines.
(iv) Activities and recreation.
(v) Discipline.

(vi) Health care management, including determining and recommending appropriate medical and mental
health evaluation and treatment, including psychotherapy, substance use disorder and batterer intervention
treatment or counseling, and parenting classes, for the child and the parents. The parenting coordinator shall
designate whether any recommended counseling is or is not confidential. The parenting coordinator can
recommend how any health care provider is chosen.
(vii) School-related issues.
{v«7) Alterations in the parenting schedule, as long as the basic time-sharing arrangement is not changed by
more than a specified number of days per month.
(tx) Phase in provision of court orders.
(x) Participation of other persons in parenting time.
(xi) Child care and babysitting issues.
(xii) Any other matters submitted to the parenting coordinator jointly by the parties before his or her
appointment expires.
(0 Authorization for the parenting coordinator to have access that may include all of the following:
(/) Reasonable access to the child.
(//) Notice of all proceedings, including requests for examinations affecting the child.
(iii) Access to a specific therapist of any of the parties or the child, provided that a proper release is
executed.
(iv) Access to school, medical, and activity records.
(v) Copies of specific evaluations and psychological test results performed on any child or any parent,
custodian, guardian, or other person living in the parent’s households, including, but not limited to, friend of
the court reports and psychological evaluations.
(vi) Access to the child’s principal, teachers, and teachers' aides.
(vii) The right to interview the parties, attorneys, or the child in any combination, and to exclude any party
or attorney from an interview.
(viii) The right to interview or communicate with any other person the parenting coordinator considers
relevant to resolve an issue or to provide information and counsel to promote the best interests of the child.
(g) The dispute resolution process that will be used by the parenting coordinator, explaining how the
parenting coordinator will make recommendations on issues and the effect to be given to those
recommendations. The process must ensure that both parties have an opportunity to be heard on issues under
consideration by the parenting coordinator and an opportunity to respond to relevant allegations against them
before a recommendation is made. The parties may agree that on specific types of issues they must follow a
parenting coordinator’s recommendations until modified by the court.
(4) The court may terminate the appointment of the parenting coordinator if the court finds that the
appointment is no longer helpful to the court in resolving parenting disputes or if the process is no longer safe
for a party or a child.
(5) The parenting coordinator may resign at any time, with notice to the parties and to the court. If the
court finds that a party has refused to pay its share of the parenting coordination costs as a means to force the
parenting coordinator to resign, the court may use contempt sanctions to enforce payment of the parenting
coordinator's fee.
(6) The parenting coordinator is immune from civil liability for an injuiy to a person or damage to property
if he or she is acting within the scope of his or her authority as parenting coordinator.
(7) The parenting coordinator shall make reasonable inquiry whether either party has a history of a
Rendered Wednesday. April 28,2021

© Legislative Council, State of Michigan

Page 11

Michigan Compiled Laws Complete Through PA 8 of 2021

Courtesy of www.iegisisturo.i7v.go-

i

coercive or violent relationship with the other party. A reasonable inquiry includes the use of the domestic
violence screening protocol for mediation provided by the state court administrative office.
(8) If the parenting coordinator determines that there is a history of a coercive or violent relationship
between the parties, the parenting coordinator shall not bring the parties within proximity of each other unless
the party at risk from violence or coercion requests it and the parenting coordinator determines with that party
what reasonable steps, if any, can be taken to address concerns regarding coercion or violence.
(9) The parenting coordinator is not required to disclose information if disclosure will compromise the
(10) The parenting coordinator shall make his or her recommendations in writing and provide copies of the
recommendation to the parties in the manner specified in the parenting coordination order. If a party atuches
the recommendation to a motion or other filing, the court may read and consider the recommendation, but the
recommendation is not evidence unless the parties stipulate that it is.
,
(11) The parenting coordinator shall not recommend relief that is less protective than any other order
related to die parties.
„
,
^
..... .
(12) Subject to the Michigan rales of evidence, the court may allow the testimony of the parenting
coordinator if the court finds the testimony useful to the resolution of a pending dispute. The parenting
coordinator shall not testify regarding statements received from a child involved m the parenting coordination
if the parenting coordinator believes the disclosure would be damaging to the child.
(13) A parenting coordinator who has reasonable cause to suspect child abuse or neglect shall immediately
make oral and written reports, or cause oral and written reports to be made, to the department of human
services as provided in section 3 of the child protection law, 1975 PA 238. MCL 722.623.
(14) As directed by the supreme court, the state court administrative office shall develop standards for the
qualifications and training of parenting coordinators, including training regarding violent and coercive
domestic relationships. Parenting coordinators must complete the training within 2 years of the promulgation
of the standards described in this subsection.
History: Add 2014, Act 526, Imd. EfT. Jan. 14,2015.
722.28 Child custody disputes; appeal, grounds.
„ .
Sec. 8. To expedite the resolution of a child custody dispute by prompt and final adjudication, all orders
and judgments of the circuit court shall be affirmed on appeal unless the trial judge made findings of fact
against the great weight of evidence or committed a palpable abuse of discretion or a clear legal error on a
major issue.
History: 1970, Act 91, EfT. Apr. 1,1971.
722.29 Transition to centralized receipt and disbursement of support and fees.
Sec. 9. The department, the SDU, and each office of the friend of the court shall cooperate in the transition
to the centralized receipt and disbursement of support and fees. An office of the friend of the court shall
continue to receive and disburse support and fees through the transition, based on the schedule developed as
required by section 6 of the office of child support act, 1971 PA 174, MCL 400.236, and modifications to that
schedule as the department considers necessary.
History: 1970, Act 91, Eff. Apr. 1,1971;—Am. 1999, Act 156, imd. EfT. Nov. 3.1999.
722.30 Access to records or information by noncustodial parent
Sec. 10. Notwithstanding any other provision of law, a parent shall not be denied access to records or
information concerning his or her child because the parent is not the child’s custodial parent, unless the parent
is prohibited from having access to the records or information by a protective order. As used in this section,
"records or information" ‘includes, but is not limited to, medical, dental, and school records, day care
provider’s records, and notification of meetings regarding the child's education.
History: Add. 1996, Act 304.EfT. Jan. 1,1997.
722.31 Legal residence change of child whose parental custody governed by court order.
Sec. U. (1) A child whose parental custody is governed by court order has, for the purposes of this section,
a legal residence with each parent. Except as otherwise provided in this section, a parent of a child whose
custody is governed by court order shall not change a legal residence of the child to a location that is more
than 100 miles from the child's legal residence at the time of the commencement of the action in which the
order is issued.
(2) A parent's change of a child's legal residence is not restricted by subsection (1) if the other parent
consents to, or if the court, after complying with subsection (4), permits, the residence change. This section
Rendered Wednesday. April 28.2021
© Legislative Council, State of Michigan

Page 12

Michigan Compiled Laws Complete Through PA 8 of 2021
Couilesv of ivmv. legislature, -mi go*

does not apply if the order governing the child's custody grants sole legal custody to i of the child's parents.
(3) This section does not apply if. at the time of the commencement of the action in which the custody
order is issued, the child's 2 residences were more than 100 miles apart. This section does not apply if the
legal residence change results in the child's 2 legal residences being closer to each other than before the
change.
(4) Before permitting a legal residence change otherwise restricted by subsection (1), the court shall
consider each of the following factors, with the child as the primary focus in the court's deliberations:
(a) Whether the legal residence change has the capacity to improve the quality of life for both the child and
the relocating parent.
(b) The degree to which each parent has complied with, and utilized his or her time under, a court order
governing parenting time with the child, and whether the parent's plan to change the child’s legal residence is
inspired by that parent's desire to defeat or frustrate the parenting time schedule.
(c) The degree to which the court is satisfied that, if the court permits the legal residence change, it is
possible to order a modification of the parenting time schedule and other arrangements governing the child’s
schedule in a manna* that can provide an adequate basis for preserving and fostering the parental relationship
between the child and each parent; and whether each parent is likely to comply with the modification.
(d) The extent to which the parent opposing the legal residence change is motivated by a desire to secure a
financial advantage with respect to a support obligation.
(e) Domestic violence, regardless of whether the violence was directed against or witnessed by the child.
(5) Each order determining or modifying custody or parenting time of a child shall include a provision
stating the parent's agreement as to how a change in either of the child's legal residences will be handled. If
such a provision is included in the order and achiid’s legal residence change is done in compliance with that
provision, this section does not apply. If the parents do not agree on such a provision, the court shall include
in the order the following provision: "A parent whose custody or parenting time of a child is governed by this
order shall not change the legal residence of the child except in compliance with section 11 of the "Child
Custody Act of 1970", 1970 PA 9!, MCL 722.31.".
(6) If this section applies to a change ofa child's legal residence and the parent seeking to change that legal
residence needs to seek a safe location from the threat of domestic violence, the parent may move to such a
location with the child until the court makes a determination under this section.
History: Add. 2000, Act 422, Imd. Eff. Jan. 9,2001.

Rendered Wednesday, April 28.2021

© Legislative Council, State of Michigan

Page 13

Michigan Compiled Laws Complete Through PA 8 of 2021

Courtesy ofirww. legislature, mi.gov

PROBATE CODE OF 1939 (EXCERPT)
Act 288 of 1939
CHAPTER X1IB
712B.1 Chapter; shot! title.
Sec. 1. This chapter shall be known and may be cited as the "Michigan Indian family preservation act".
•

History: Add 201Z Act 56S, Imd. Eff. Jan. 2,20!3.
Popular name: Probate Code

712B.3 Definitions.
Sec. 3. As used in this chapter:
(a) "Active efforts" means actions to provide remedial services and rehabilitative programs designed to
prevent the breakup of the Indian family and to reunify die Indian child with the Indian family. Active efforts
require more than a referral to a service without actively engaging the Indian child and family. Active efforts
include reasonable efforts as required by title IV-E of the social security act, 42 USC 670 to 679c, and also
include, but are not limited to, doing or addressing all of the following:
(/) Engaging the Indian child, child's parents, tribe, extended family members, and individual Indian
caregivers through the utilization of culturally appropriate services and in collaboration with the parent or
child's Indian tribes and Indian social services agencies.
, .
(«) Identifying appropriate services and helping the parents to overcome barriers id compliance with those
services.
(///) Conducting or causing to be conducted a diligent search for extended family members for placement.
(iv) Requesting representatives designated by the Indian child's tribe with substantial knowledge of the
prevailing social and cultural standards and child rearing practice within the tribal community to evaluate the
circumstances of the Indian child's family and to assist in developing a case plan that uses the resources of toe
Indian tribe and Indian community, including traditional and customary support, actions, and services, to
address those circumstances.
(v) Completing a comprehensive assessment of the situation of the Indian child's family, including a
determination of the likelihood of protecting the Indian child's health, safety, and welfare effectively in toe
Indian child's home.
(vi) Identifying, notifying, and inviting representatives of the Indian child's tribe to participate in all aspects
of the Indian child custody proceeding at the earliest possible point in the proceeding and actively soliciting
the tribe's advice throughout the proceeding.
(v/7) Notifying and consulting with extended family members of the Indian child, including extended
family members who were identified by toe Indian child's tribe or parents, to identify and to provide family
structure and support for toe Indian child, to assure cultural connections, mid to serve as placement resources
for toe Indian child.
(v/7;) Making arrangements to provide natural and family interaction in the most natural setting that can
ensure the Indian child’s safety, as appropriate to the goals of the Indian child’s permanency plan, including,
when requested by toe tribe, arrangements for transportation and other assistance to enable family members to
participate in that interaction.
(ix) Offering and employing all available family preservation strategies and requesting the involvement of
the Indian child’s tribe to identify those strategies and to ensure that those strategies are culturally appropriate
to toe Indian child’s tribe.
(x) Identifying community resources offering housing, financial, and transportation assistance and in-home
support services, in-home intensive treatment services, community support services, and specialized services
for members of the Indian child’s family with special needs, and providing information about those resources
to the Indian child's family, and actively assisting the Indian child's family or offering active assistance in
accessing those resources.
(xi) Monitoring client progress mid client participation in services.
(x/7) Providing a consideration of alternative ways of addressing toe needs of toe Indian child's family, if
services do not exist or if existing services are not available to the family.
(b) "Child custody proceeding" includes, but is not limited to, I or more of toe following:
(/) Foster care placement. Any action removing an Indian child from his or her parent or Indian custodian,
and where toe parent or Indian custodian cannot have the Indian child returned upon demand but parental

rights have not been terminated, few temporary placement in, mid not limited to, 1 or more of the following:
(A) Foster home or institution.
Rendered Thursday, September 19.2019
© Legislative Council, State of Mirhinan

Page 1

Michigan Compiled Lews Complete Through PA 48 of 2019
Courtesy oivwav.

mi gx'

i

■i

(B) The home of a guardian or limited guardian under part 2 of article V of the estates and protected
individuals code, 1998 PA 386, MCL 700.5201 to 700.5219.
(C) A juvenile guardianship under chapter X11A.
(//) Termination of parental rights. Any action resulting in the termination of the parent-child relationship.
(///) Preadoptive placement. Temporary placement of an Indian child in a foster home or institution after
the termination of parental rights, but before or in lieu of adoptive placement
(/v) Adoptive placement. Permanent placement of an Indian child for adoption, including an action
resulting in a final decree of adoption.
(v) An Indian child is charged with a status offense in violation of section 2(a)(2) to (4) or (d) of chapter
X1IA.
(vi) Child custody proceeding does not include a placement based on an act that, if committed by an adult,
would be a crime or based on an award, in a divorce proceeding, of custody to I of the parents.
(c) "Court" means the family division of circuit court or the probate court.
(d) "Culturally appropriate services" means services that enhance an Indian child's and family's
relationship to, identification, and connection with the Indian child's tribe. Culturally appropriate services
should provide the opportunity to practice the teachings, beliefs, customs, and ceremonies of the Indian child's
tribe so those may be incorporated into the Indian child’s daily life, as well as services that address the issues
that have brought the Indian child and family to the attention of the department that are consistent with the
tribe's beliefs about child rearing, child development, mid family wellness. Culturally appropriate services
may involve tribal representatives, extended family members, trite! elders, spiritual and cultural advisors,
tribal social services, individual Indian caregivers, medicine men or women, and natural healers. If the Indian
child's tribe establishes a different definition of culturally appropriate services, the court shall follow the
tribe's definition.
(c) "Department" means the department of health and human services or a successor department or agency.
(f) "Extended family members" means that term as defined by the law or custom of the Indian child's tribe
or, in the absence of that law or custom, means a person who has reached the age of 18 and who is the Indian
child's grandparent, aunt or uncle, brother or sister, brother-in-law or sister-in-law, niece or nephew, first or
second, cousin, or stepparent and includes the term "relative" as that term is defined in section 13a(j) of
chapter XIIA.
(g) "Foster home or institution" means a child caring institution as that term is defined in section 1 of 1973
PA 116, MCL 722.11!.
(h) "Guardian" means a person who has qualified as a guardian of a minor under a parental or spousal
nomination or a court order issued under section 19a or 19c of chapter XIIA, section 5204 or 5205 of the
estates and protected individuals code, 1998 PA 386, MCL 700.5204 and 700.5205, or sections 600 to 644 of
the mental health code, 1974 PA 2S8, MCL 330.1600 to 330.1644. Guardian may also include a person
appointed by a tribal court under tribal code or custom. Guardian does not include a guardian ad litem.
(i) "Guardian ad litem" means an individual whom the court appoints to assist the court in determining die
child's best interests. A guardian ad litem does not need to be an attorney.
(j) "Indian" means any member of any Indian tribe, band, nation, or other organized group or community
of Indians recognized as eligible for the services provided to Indians by the secretary because of their status as
Indians, including any Alaska native village as defined in section 1602(c) of the Alaska native claims
settlement act, 43 USC 1602.
(k) "Indian child" means an unmarried person who is under the age of 18 and is either of the following:
(0 A member of an Indian tribe.
(//) Eligible for membership in an Indian tribe as determined by that Indian tribe.
(/) "Indian child’s tribe" means the Indian tribe in which an Indian child is a member or eligible for
membership. In the case of an Indian child who is a member of or eligible for membership in more than 1
tribe, the Indian child's tribe is the tribe with which the Indian child has the most significant contacts.
(m) "Indian child welfare act" means foe Indian child welfare act of 1978,25 USC 1901 to 1963.
(n) "Indian custodian” means any Indian person who has custody of an Indian child under tribal law or
custom or under state law or to whom temporary physical care, custody, and control have been transferred by
the Indian child's parent.
(o) "Indian tribe" or "tribe” means any Indian tribe, band, nation, or other organized group or community
oflndians recognized as eligible for the services provided to Indians by the secretary because of their status as
Indians, including any Alaska native village as defined in section 1602(c) of the Alaska native claims
settlement act, 43 USC 1602,
(p) "Indian organization" means any group, association, partnership, corporation, or other legal entity
owned or controlled by Indians, or a majority of whose members are Indians.
Rendered Thursday. September 18.2019

© Legislative Council, State of Michigan

Page 2

Michigai Compiled Laws Complete Through PA 48 of 2019
Courtesy ofmr/^.isghvunjre.rni o’O1'

••mix

(q) "Lawyer-guardian ad litem" means an attorney appointed under .section 21 of this chapter. A
lawyer-guardian ad litem represents the child, and has the powers and duties, as set forth in section 17d of
chapter XI1A. The provisions of section I7d of chapter XI1A also apply to a lawyer-guardian ad litem
appointed for the purposes of this chapter under each of the following:
(/') Section 5213 or 5219 of the estates and protected individuals code, 1998 PA 386, MCL 700.5213 and
700.5219.
(//) Section 4 of the child custody act of 1970.1970 PA 91, MCL 722.24.
(in) Section 10 of the child protection law, 1975 PA 238, MCL 722.630.
(r) "Official tribal representative" means an individual who is designated by the Indian child's tribe to
represent the tribe in a court overseeing a child custody proceeding. An official tribal representative does not
need to be an attorney.
(s) "Parent” means any biological parent or parents of an Indian child or any person who has lawfully
adopted at Indian child, including adoptions under tribal law or custom. Parent does not include the putative
father if paternity has not been acknowledged or established.
(t) "Reservation" means Indian country as defined in 18 USC 1151 and any lands, not covered under that
section, title to which is either held by the United States in trust for the benefit of any Indian tribe or
individual or held by any Indian tribe or individual subject to a restriction by the United States against
alienation.
(u) "Secretary" means the Secretary of the Interior.
(v) "Tribal court" means a court with jurisdiction over child custody proceedings that is either a court of
Indian offenses, a court established and operated under the code or custom of an Indian tribe, or any other
administrative body of a tribe that is vested with authority over child custody proceedings.
(w) "Ward of tribal court" means a child over whom an Indian tribe exercises authority by official action in
tribal court or by the governing body of the tribe.
History: Add. 2012. Act 565,Imd. Eff. Jan. 2,2013:—Am. 2016, Act 26, Eff. May 30,2016.
Popular name: Probate Code

712B.5 Best interests of child; dudes of courts.
Sec. 5. In Indian child custody proceedings, the best interests of the Indian child shall be determined, in
consultation with the Indian child's tribe, in accordance with the Indian child welfare act, and the policy
specified in this section. Courts shall do both of the following:
(a) Protect the best interests of Indian children and promote the stability and security of Indian tribes and
families.
(b) Ensure that die department uses practices, in accordance with the Indian child welfare act, this chapter,
and other applicable law, that are designed to prevent the voluntary or involuntary out-of-home care
placeman of Indian children and, when an out-of-home care placement, adoptive placement, or preadoptive
placement is necessary, place an Indian child in a placement that reflects the unique values of the Indian
child's tribal culture and that is best able to assist the Indian child in establishing, developing, and maintaining
a political, cultural, and social relationship with the Indian child's tribe and tribal community.
History: Add. 2012, Act 565, Imd. Eff. Jan. 2.2013.
Popular name: Probate Code

712B.7 Jurisdiction; exclusive; emergency; transfer; good cause determination; right to
intervene or participate in proceeding; full faith and credit to public acts, records, and
judicial proceedings.
Sec. 7. (1) An Indian tribe has exclusive jurisdiction over any child custody proceeding involving an Indian
child who resides or is domiciled within the reservation of that tribe. If a child is a ward of a tribal court, the
Indian tribe retains exclusive jurisdiction, regardless of die residence or domicile, or subsequent change in his
or her residence or domicile.
(2) The state court may exercise limited emergency jurisdiction if an Indian child who resides or is
domiciled w’ithin the reservation is temporarily off the reservation and the state has removed the Indian child
in an emergency situation to prevent imminent physical damage or harm to the Indian chiid. The court must
comply with the emergency removal hearing requirements outlined in Michigan court rules and sections 13a,
14, and 14a of chapter X11A. The emergency jurisdiction terminates when the removal or placement is no
longer necessary to prevent imminent physical damage or harm to the Indian child.
(3) In any state court child custody proceeding, for an Indian child not domiciled or residing within die
reservation of the Indian child’s tribe, the court, in the absence of good cause to the contrary, shall transfer die
proceeding to the Indian tribe's jurisdiction, absent objection by either parent, upon the petition of either
Rendered Thursday. September 19.2019

© Legislative Council, State of Michigan

Page 3

Michigan Compiled Laws Complete Through PA 48 of 2019

Cc>MlC$y 0? wa'wkifiirJsturc.rni. am-

j

parent or the Indian custodian or the Indian child's tribe, provided that the transfer is subject to declination by
the tribal court of the Indian tribe.
(4) When a court makes a good cause determination under this section, adequacy of the tribe, tribal court,
or tribal social services shall not be considered.
(5) A court may determine that good cause not to transfer a case to tribal court exists only if the person
opposing the transfer shows by clear and convincing evidence dial either of the following applies:
(a) The Indian tribe does not have a tribal court.
(b) The requirement of the parties or witnesses to present evidence in tribal court would cause undue
hardship to those parties or witnesses that the Indian tribe is unable to mitigate.
(6) In any state court child custody proceeding of an Indian child, the Indian custodian of the child and the
Indian child's tribe have a right to intervene at any point in the child custody proceeding.
(7) Official tribal representatives have the right to participate in any proceeding that is subject to the Indian
child welfare act and tills chapter.
(8) This state shall give full faith and credit to the public acts, records, and judicial proceedings of any
Indian tribe applicable to Indian child custody proceedings to the same extent given to the public acts,
records, and judicial proceedings of any other entity.
History: Add. 2012, Act 565, Imd. EfT. Jan. 2,2013;—Am. 2016, Act 26, Eft May 30,2016.
Popular name: Probate Code
712B.9 Child custody proceeding; notification to parent, Indian custodian, and tribe;
additional preparation days; suspension of proceedings; prejudice by lack of notice;
determination as to which tribe child is member; circumstances leading to belief child is
an Indian; determining, documenting, and contacting extended family; determination or
testimony by authorized person; documentation of efforts.
Sec. 9. (1) In a child custody proceeding, if the court knows or has reason to know that an Indian child is
involved, the petitioner shall notify the parent or fndian custodian and the Indian child's tribe, by registered
mail with return receipt requested, of the pending child custody proceeding and of the right to intervene. If the
identity or location of the parent or Indian custodian and the tribe cannot be determined, notice shall be given
to the secretary in the same manner described in this subsection. The secretary has 15 days after receipt of
notice to provide the requisite notice to the parent or Indian custodian and the tribe.
(2) No foster care placement or termination of parental rights proceeding shall be held until at least 10 days
after receipt of notice by the parent or Indian custodian and the tribe or the secretary. The parent or Indian
custodian or the tribe shall, upon request, be granted up to 20 additional days to prepare for the proceeding. If
the petitioner or court later discovers that the child may be an Indian child, all further proceedings shall be
suspended until notice is received by the tribe or the secretary as set forth in this subsection. If the court
determines after a hearing that the parent or tribe was prejudiced by lack of notice, the prior decisions made
by the court shall be vacated and the case shall proceed from the first hearing. Hie petitioner has the burden of
proving lack of prejudice.
(3) The department shall actively seek to determine whether a child at initial contact is an Indian child. If
the department is able to make an initial determination as to which Indian tribe or tribes a child brought to its
attention may be a member, the department shall exercise due diligence to contact the Indian tribe or tribes in
writing so that the tribe may verify membership or eligibility for membership. If the department is unable to
make an initial determination as to which tribe or tribes a child may be a member, the department shall, at a
minimum, contact in writing the tribe or tribes located in the county where the child is located and the
secretary.
(4) Circumstances under which a court, the department, or other party to a child custody proceeding has
reason to believe a child involved in a child custody proceeding is an Indian include, but are not limited to,
any of the following:
(a) Any party to the case, Indian tribe, Indian organization, or public or private agency informs the court
that the child is an Indian child.
(b) Any public or state-licensed agency involved in child protection services or family support has
discovered information that suggests that the child is an Indian child.
(c) The child who is the subject of the proceeding gives the court reason to believe he or she is an Indian
child.
(d) The residence or the domicile of the child, his or her biological parents, or the Indian custodian is
known by the court to be or is shown to be a predominantly Indian community.
(e) An officer of the court involved in the proceeding has knowledge that the child may be an Indian child.
Rendered Thursday. September 19.2019

© Legislative Council, State of Michigan

Page 4

Michigan Complied Laws Complete Through PA 48 of 2019
Coursesyvf rtvm.tegisiatere. mi.gw

(5) The department shall exercise due diligence to determine, document, and contact the Indian child's
extended family members in accordance with the fostering connections to success and increasing adoptions
act of 2008. Public Law 110-351. If applicable, determinations and documentation should be conducted in
consultation with the child or parent’s tribe.
(6) A written determination or ora! testimony by a person authorized by the Indian tribe to speak on its
behalf, regarding a child’s membership or eligibility for membership in a tribe, is conclusive as to that tribe.
(7) The petitioner shall document all efforts made to determine a child's membership or eligibility for
membership in an Indian tribe and shall provide them, upon request, to the court, Indian tribe, Indian child,
Indian child's lawyer-guardian ad litem, parent, or Indian custodian.
History: Add 2012. Act 565, Imd. EfT. Jan. 2,2013.
Popular name: Probate Code

712B.11 Examination of reports or documents by parties.
Sec. 11. Each party to a foster care or termination of parental rights proceeding involving an Indian child
has a right to examine all reports or other documents filed with the court upon which any decision with
respect to that proceeding may be based.
History: Add. 2012, Act 565, imd. EfT. Jan. 2,2013.
Popular name: Probate Code

712B.13 Guardianship; adoptive placement; termination of parental rights; consent
Sec. 13. (1) If both parents or Indian custodian voluntarily consent to a petition for guardianship under
section 5204 or 5205 of the estates and protected individuals code, 1998 PA 386, MCL 700.5204 and
700.5205, or if a parent consents to adoptive placement or the termination of his or her parental rights for the
express purpose of adoption by executing a release under sections 28 and 29 of chapter X, or consent under
sections 43 and 44 of chapter X, the following requirements must be met:
(a) To be valid, consent under this section must be executed on a form approved by the state court
administrative office, in writing, recorded before a judge of a court of competent jurisdiction, and
accompanied by the presiding judge’s certificate that the terms and consequences of the consent were fully
explained in detail and were fully understood by the parent or Indian custodian. The court shall also certify
that either the parent or Indian custodian fully understood the explanation in English or that it was interpreted
into a language that the parent or Indian custodian understood. Any consent given before, or within 10 days
after, birth of the Indian child is not valid.
(b) Notice of the pending proceeding must be given as prescribed by Michigan supreme court rule, the
Indian child welfare act, and section 9 of this chapter.
(c) The voluntary custody proceeding shall be conducted in accordance with Michigan supreme court rules
and the following statutes:
(0 In a guardianship proceeding under section 5204 or 5205 of the estates and protected individuals code,
1998 PA 386, MCL 700.5204 and 700,5205, section 25 of this chapter also applies.
(//) In an adoption proceeding, section 27 of this chapter also applies.
(2) Consent described under subsection (1) must contain the following information:
(a) The Indian child's name and date of birth.
(b) The name of the Indian child's tribe and any identifying number or other indication of the child's
membership in the tribe, if any.
(c) The name and address of the consenting parent or Indian custodian.
(d) A sworn statement from the translator, if any, attesting to the accuracy of the translation.
(e) The signature of the consenting parent, parents, or Indian custodian recorded before the judge, verifying
an oath of understanding of the significance of the voluntary placement and the parent's right to file a written
demand to terminate the voluntary placement or consent at any time.
(f) For consent for voluntary placement of the Indian child in foster care, the name and address of the
person of entity who will arrange the foster cafe placement as well as the name and address of the prospective
foster care parents if known at the time.
(g) For consent to termination of parental rights or adoption of an Indian child, in addition to the
information in subdivisions (a) to (0, the name and address of the person or entity that will arrange the
preadoptive or adoptive placement.
(3) If the placement is for purposes of adoption, a consent under subsection (1) of the Indian child's parent
must be executed in conjunction with either a consent to adopt, as required by sections 43 and 44 of chapter
X. or a release, as required by sections 28 and 29 of chapter X. A parent who executes a consent under this
section may withdraw his or her consent at any time before entry of a final order of adoption by filing a
Rendered Thursday, September 19,2019

© Legislative Council, State of Michigan

Pages

Michigat Compiled Laws Complete Through PA 48 of 2019

Courtesy of www. iegisiatjre.rrtigc™

written demand requesting the return of the Indian child. Once a demand is filed with the court, the court shall
order the return of the Indian child. Withdrawal of consent under this section constitutes a withdrawal of a
release executed under sections 28 and 29 of chapter X or a consent to adopt executed under sections 43 and
44 of chapter X.
(4) A parent or Indian custodian who executes a consent under this section for the purpose of guardianship
may withdraw his or her consent at any time by sending written notice to the court substantially in compliance
on a form approved by the state court administrative office that the parent or Indian custodian revokes consent
and wants his or her Indian child returned.
(5) A release executed under sections 28 and 29 of chapter X during a pendency of a proceeding under
section 2(b) of chapter XIIA is subject to section 15 of this chapter. If the release follows the initiation of a
proceeding under section 2(b) of chapter XIIA, the court shall make a finding that culturally appropriate
services were offered.
(6) A parent who executes a consent to adoption under sections 43 and 44 of chapter X may withdraw that
consent at any time before entry of a final order for adoption by filing notification of the withdrawal of
consent with the court In a direct placement, as defined in section 22(o) of chapter X, a consent by a parent or
guardian shall be accompanied by a verified statement signed by the parent or guardian that contains all of the
following:
(a) That the parent or guardian has received a list of community and federal resource supports and a copy
of the written document described in section 6( 1 Xc) of the foster care and adoption services act, 1994 PA 204,
MCL 722.956.
(b) As required by sections 29 and 44 of chapter X, that the parent or guardian has received counseling
related to foe adoption of his or her Indian child or waives the counseling with the signing of the verified
statement.
(c) That foe parent or guardian has not received or been promised any money or anything of value for the
consent to adoption of foe Indian child, except for lawful payments that are itemized on a schedule filed with
the consent.
(d) That the validity and finality of the consent are not affected by any collateral or separate agreement
between foe parent or guardian and the adoptive parent.
(e) Hiat the parent or guardian understands that it serves the welfare of foe Indian child for the parent to
keep foe child placing agency, court, or department informed of any health problems that foe parent develops
that could affect foe Indian child.
(0 That the parent or guardian understands that it serves the welfare of the Indian child for foe parent or
guardian to keep his or her address current with foe child placing agency, court, or department in order to
permit a response to My inquiry concerning medical or social history fiom an adoptive parent of a minor
adoptee or from an adoptee who is 18 years or older.
History: Add. 20l2,Acl 565,lmcL EfT. Jan 2,2013;—Am. 2016, ACT 26. Eff. May 30.2016.
Popular name: Probate Code

712B.15 Failure of parent to provide consent; requirements; removal of child from parent or
Indian custodian; clear and convincing evidence; termination of parental rights; remedial
services and rehabilitative programs; determination that continued custody likely to resuit
in serious emotional or physical damage.
Sec. 15. (1) If an Indian child is foe subject of a child protective proceeding under section 2(b) of chapter
XIIA, including instances in which the parent executed a release under section 28 of chapter X during foe
pendency of that proceeding, or a guardianship proceeding under section 5204 or 5205 of foe estates and
protected individuals code, 1998 PA 386, MCL 700.5204 and 700.5205, and if a parent does not provide
consent as described in section 13 of this chapter, or a guardianship proceeding under section 19a or 19c of
chapter XIIA, the following requirements must be met:
(a) Notice of the pending proceeding must be given as prescribed by Michigan supreme court rule, the
Indian child welfare act, and section 9 of this chapter.
(b) 'Hie proceeding shall be conducted in accordance with Michigan supreme court rules and subsections
(2) to (4).
(c) Section 25 of this chapter applies in a guardianship proceeding under section 5204 or 5205 of the
estates and protected individuals code, 1998 PA 386, MCL 700.5204 and 700.5205.
(2) An Indian child may be removed from a parent or Indian custodian, placed into a foster care placement,
or, for an Indian child already taken into protective custody, remain removed from a parent or Indian
custodian pending further proceedings, only upon clear and convincing evidence that active efforts have been
Rendered Thursday, September 19, 2019

© Legislative Council. State of Michigan

Page 6

Michigan Compiled Laws Complete Through PA 46 of 2019

Courtesy of

iegrs&tvre.. ml gov

;

made to provide remedial services and rehabilitative programs designed to prevent the breakup of die Indian
family, that the active efforts were unsuccessful, and that the continued custody of the Indian child by the
parent or Indian custodian is likely to result in serious emotional or physical damage to the Indian child. The
active efforts must take into account the prevailing social and cultural conditions and way of life of the Indian
child’s tribe. The evidence must include the testimony of at least 1 qualified expert witness, who has
knowledge of the child rearing practices of die Indian child's tribe, that die continued custody of the Indian
child by die parent or Indian custodian is likely to result in serious emotional or physical damage to the Indian
child.
(3) A party seeking a termination of parental rights to an Indian child under state law must demonstrate to
the court's satisfaction that active efforts have been made to provide remedial services and rehabilitative
programs designed to prevent the breakup of the Indian family and that the active efforts were unsuccessful.
(4) No termination of parental rights may be ordered in a proceeding described in this section without a
determination, supported by evidence beyond a reasonable doubt, including testimony of at least 1 qualified
expert witness as described in section 17, that the continued custody of the Indian child by the parent or
Indian custodian is likely to result in serious emotional or physical damage to the Indian child.
(5) Any Indian child who is the subject of any action for termination of parental rights under state law, any
parent or Indian custodian from whose custody the Indian child was removed, and the Indian child's tribe may
petition any court of competent jurisdiction to invalidate the action upon a showing that the action violated
any provision of this section.
History: Add. 2012, Act 565, Imd. Eff. Jan. 2,2013;—Am. 2016, Act 26, Eff. May 30,2016.
Popular name: Probate Code

712B.17 Qualified expert witness.
Sec. 17. (1) If the testimony of a qualified expert witness is required, the court shall accept either of the
following in the following order of preference:
(a) A member of the Indian child's tribe, or witness approved by the Indian child’s tribe, who is recognized
by the tribal community as knowledgeable in tribal customs and how toe tribal customs pertain to family
organization and child rearing practices.
(b) A person with knowledge, skill, experience, training, or education and who can speak to toe Indian
child's tribe and its customs and how toe tribal customs pertain to family organization and child rearing
practices.
(2) A party to a child custody proceeding may present his or her own qualified expert witness to rebut the
testimony of the petitioner's qualified expert witness.
History: Add. 2012, Act 565, Jmd. Eff. Jan. 2,2013.
Popular name: Probate Code

712B.19 Improper removal of child from custody.
Sec. 19. If a court determines at a hearing that a petitioner in an Indian child custody proceeding has
improperly removed the child from custody of the parent or Indian custodian or has improperly retained
custody after a visit or other temporary relinquishment of custody, the court shall decline jurisdiction over the
petition and immediately return toe child to his or her parent or Indian custodian unless returning the child to
his or her parent or Indian custodian would subject toe child to a substantial and immediate danger or threat of
danger.
History: Add 2012, Act 565. Imd. Eff. Jan. 2,2013.
Popular name: Probate Code

712B.21 Appointment of counsel.
Sec. 21. (1) In a case in which toe court determines indigency, toe parent or Indian custodian has the right
to court-appointed counsel in a removal, placement, or termination proceeding. The court may, in its
discretion, appoint counsel for toe child upon a finding that the appointment is in the best interest of toe child.
If state law makes no provision for appointment of counsel in those proceedings, toe court shall promptly
notify the secretary upon appointment of counsel.
(2) If state law does not require the appointment of a lawyer-guardian ad litem for the child, toe court may,
in its discretion, appoint a lawyer-guardian ad litem for the child upon a finding that toe appointment is in the
best interest of the child.
History: Add. 2012. Act 565, Imd. Eff. Jan. 2,2013.
Popular name: Probate Code
Rendered Thursday, September 19,2019
© Legislative Council, State of Michigan

Page 7

Michigan Compiled taws Complete Through PA 46 of 2019

Courtesy of mvtv. legislature mi.gov

712B.23 Placement; least restrictive setting; order of preference; documentation.
Sec. 23. (1) Except for a placement for guardianship under section 5204 or 5205 of the estates and
protected individuals code, 1998 PA 386, 'MCL 700.5204 and 700.5205, where both parents submit a consent
for the guardianship, an Indian child shall be placed in the least restrictive setting that most approximates a
family and in which his or her special needs, if any. may be met. The child shall be placed within reasonable
proximity to his or her home, taking into account any special needs of the child. Absent good cause to the
contrary, the foster care or preadoptive placement of an Indian child must be in the following order of
preference:
(a) A member of the Indian child’s extended family.
(b) A foster home licensed, approved, or specified by the Indian child’s tribe.
(c) An Indian foster home licensed or approved by the department.
(d) An institution for children approved by an Indian tribe or operated by an Indian organization that has a
program suitable to meet the Indian child's needs.
(2) Absent good cause to the contrary, the adoptive placement of an Indian child must be in the following
order of preference:
(a) A member of the child's extended family.
(b) A member of the Indian child’s tribe.
(c) An Indian family.
(3) The burden of establishing good cause not to follow the order of preference is on the party requesting
the deviation.
(4) The court shall not find good cause to deviate from the placement preferences stated in this section
without first ensuring that all possible placements required under this section have been thoroughly
investigated and eliminated. Ail efforts made under this section must be provided to the court in writing or
stated on the record. The court shall address efforts to place an Indian child in accordance with this section at
each hearing until the placement meets the requirements of this section.
(5) The court’s determination of good cause to not follow the order of preference shall be based on 1 or
more of the following conditions:
(a) A request was made by a child of sufficient age.
(b) A child has an extraordinary physical or emotional need as established by testimony of an expert
witness.
(6) In the case of a placement under subsection (1) or (2), if the Indian child's tribe establishes a different
order of preference, the department or court ordering the placement shall follow the tribe's order of
preference.
(7) A record of each placement of an Indian child shall be maintained by the department or court
evidencing the efforts to comply with the order of preference specified in this section. The record shall be
made available at any time upon the request of the secretary or Indian child’s tribe.
(8) The standards to be applied in meeting the placement preferences established in this section shall be the
prevailing social and cultural standards of the Indian tribe or tribes in which the parent or extended family
resides or maintains social and cultural ties.
(9) Nothing in this chapter or section prevents the emergency removal, protective custody, or subsequent
placement of an Indian child who is a resident of or is domiciled on a reservation but is temporarily located
off the reservation.
(10) All efforts made to identify, locate, and place a child according to this section shall be documented
and, upon request, made available to the court, tribe, Indian child, Indian child's lawyer-guardjan ad litem,
parent, or Indian custodian.
History: Add. 2012. Act 565, Imd. EAT. Jan. 2,2013.
Popular name: Probate Code

712B.25 Involuntary guardianship; investigation; report; notice of pending proceeding;
consent; withdrawal; termination of voluntary guardianship; potential applicability of
Indian child welfare act
Sec. 25. (1) If a petition for a guardianship is filed and is determined to be involuntary under section 15 of
this chapter and the court knows or has reason to know that the child is an Indian child, the court may order
the department or a court employee to conduct an investigation of the proposed guardianship and file a written
report of the investigation. In addition to the information required in section 5204 of the estates and protected
individuals code, 1998 PA 386, MCL 700.5204, the report must include, but is not limited to, the following
information:
Rendered Thursday. September 19.2019

© Legislative Council, State of Michigan

Page 8

Michigan Compiled Laws Complete Through PA 48 of 2019

Courtesy ofwww. legislature, mogc v

:

(a) Whether the child is or is not an Indian child.
(b) The identity and location of the Indian child's parents, if known.
(c) If the child is an Indian child, the report must also address all ofthe following:
(/) The tribe or tribes of which the Indian child is a member or eligible for membership.
(//) If the Indian child and family need culturally appropriate and other sendees to preserve the Indian
family.
(iii) Hie identity and location of extended family members and if no extended family members can be
found, what efforts were made to locate them.
(2) Notice of the pending proceeding must be given as prescribed by Michigan supreme court rule, the
Indian child welfare act, and section 9 of this chapter. If the court knows or has reason to know that the
proceeding involves an Indian child, the court shall conduct a hearing to determine all ofthe following:
(a) If the tribe has exclusive jurisdiction. If so, the court shall issue an order terminating the guardianship
or dismissing the petition.
(b) If the current placement with the guardian meets die placement requirements in section 23 of this
chapter.
(c) If it is in the Indian child's best interest to order the guardianship.
(d) If a lawyer-guardian ad litem should be appointed to represent the Indian child.
(3) If a petition for guardianship is filed and is to be accompanied by a consent to a voluntary placement of
an Indian child, the consent must be executed in accordance with section 13 of this chapter. If the Indian
child's parents do not execute a consent under section 13 of this chapter, die petition is considered to be for an
involuntary guardianship and the requirements of section 15 of this chapter must be met.
(4) A parent or Indian custodian who executes a consent under this section for die purpose of voluntary
guardianship may withdraw his or her consent at any time by sending written notice to the court substantially
in compliance on a form approved by the state court administrative office that the parent or Indian custodian
revokes consent and wants his or her Indian child returned.
(5) The voluntary guardianship is terminated when the court receives from a parent or Indian custodian
notice to withdraw consent to the guardianship, and the Indian child shall be immediately returned to the
parent or Indian custodian.
(6) If the court discovers a child may be an Indian child after a guardianship is ordered, the court shall
provide notice of the guardianship and the potential applicability of this chapter and the Indian child welfare
act, in compliance with Michigan court rules, this chapter, and the Indian child welfare act, to the tribe, the
parents or Indian custodian, and the current guardian on a form approved by the state court administrative
office.
History: Add. 2012, Act 565, irod. Eff. Jan. 2,2013:—Am. 2016, Act 26, EfT. May 30,2016.
Popular name: Probate Code

712B.27 Voluntary placement consent; visitation; notice of pending proceeding; providing
certain information to Indian individual reaching age of 18; withdrawal of consent by
parent; petition for return of custody.
Sec. 27. (1) If a release or consent to adoption under chapter X is executed, consent to voluntary placement
of an Indian child must also be executed by both parents of the Indian child in accordance with section 13 of
this chapter.
(2) At any time during an adoption proceeding, a court may order visitation between the Indian child and 1
or more members of the Indian child's tribe and extended family members.
(3) Notice of the pending proceeding must be given as prescribed by Michigan supreme court rule, the
Indian child welfare act, and section 9 of this chapter.
(4) Upon application by an Indian individual who has reached the age of .18 and who was subject to
adoptive placement, the court that entered the order of adoption shall inform the individual of his or her tribal
affiliation, if known, of the individual's biological parents, and provide any information as necessary to
protect any rights from the individual's tribal relationship.
(5) After the entry of a final order of adoption of an Indian child in any state court, the parent may
withdraw consent on the grounds that consent was obtained through fraud or duress and may petition the court
to vacate the final order of adoption. Upon a finding that die consent was obtained through fraud or duress,
the court shall vacate the final order of adoption and return the child to the parent. No adoption that has been
effective for at least 2 years may be invalidated under the provisions of this subsection unless otherwise
permitted under state law.
(6) Notwithstanding state law to the contrary, whenever a final order of adoption of an Indian child has
Rendered Thursday, September 19,2019
© Legislative Council, State of Michigan

Page 9

Michigan Compiled Laws Complete Through PA 48 of 2019

Courtesy ofmmv. (egisiarvns.mi.i

been vacated or set aside or the adoptive parents voluntarily consent to the termination of their parental rights
to the child, a biological parent or prior Indian custodian may petition for return of custody and the court shall
grant the petition unless there is a showing, in a proceeding subject to the provisions of section 1912 of the
Indian child welfare act, 25 USC 1912, that the return of custody is not in the best interests of the child.
History: Add. 2012, Act 565, Imd. Eff. Jan. 2,2013.
Popular name: Probate Code
712B.29 Child taken into custody under section 14 of chapter XIIA; termination of
subsequent placement; condition; initiation of child custody proceeding; duties of court.
Sec. 29. (I) If an Indian child is taken into custody under section 14 of chapter XIIA. the subsequent
placement shall terminate immediately when the removal and placement are no longer necessary to prevent
imminent physical damage or harm to the child.
(2) If a child is taken into custody under section 14 of chapter XIIA and the child is under the exclusive
jurisdiction of an Indian tribe or is domiciled on a reservation but temporarily located off the reservation, the
court shall immediately initiate a child custody proceeding and do either of the following:
(a) Transfer the child to the jurisdiction of the appropriate Indian tribe.
(b) Return the child to the parent or Indian custodian.
History: Add. 2012. Act 565, Imd. EfF. Jan. 2,2013.
Popular name: Probate Code
712B.31 Agreements.
Sec. 31. (l) The state is authorized to enter into agreements with tribes in this state regarding the care and
custody of Indian children, binding of the care and custody of Indian children, and jurisdiction over child
custody proceedings, including agreements that may provide for transfer of jurisdiction on a case-by-case
basis and agreements that provide for concurrent jurisdiction between the state and Indian tribes.
(2) Unless the agreement provides otherwise, both of the following apply:
(a) The agreements described in subsection (1) may be revoked by either party upon 180 days' written
notice to the other party.
(b) Revocation of an agreement does not affect any action or proceeding over which the court already has
jurisdiction.
History: Add. 2012, Act 565. Imd. Eff. Jan 2.2013.
Popular uame: Probate Code

712B.33 Department review of cases; monitoring; standards and procedures.
Sec. 33. The department, in consultation with Indian tribes in this state, shall establish standards and
procedures for the department's review of cases subject to this chapter and methods for monitoring the
department's compliance with provisions of the Indian child welfare act and this chapter.
Hbtory: Add. 2012. Act 565, Imd Eff. Jan 2,2013.
Popular name: Probate Code

712B.35 Providing secretary and tribal enrollment officer with copy of court decree or order;
other information.
Sec. 35. (1) A Michigan court entering a final decree or order in any Indian child adoptive placement shall
provide the secretary and the tribal enrollment officer of the appropriate tribe with a copy of the decree or
order together with other information as may be necessary to show the following:
(a) The name, date of birth, and tribal affiliation of the child.
(b) The names and addresses of the biological parents, if known.
(c) The names and addresses of the adoptive parents.
(d) The identity of any agency having files or information relating to the adoptive placement
(2) If court records contain a statement of identifying Information of toe biological parent or parents that
their identity remains confidential, toe court shall include toe statement of identifying information with the
other information sent to the secretary and toe tribal enrollment officer of toe appropriate Indian tribe
described in subsection (1).
History: Add 2012, Act 565, Imd Eff. Jan 2,2013.
Popular name: Probate Code

712B.37 Census.
Sec. 37. The department shall publish annually a census with no individually identifiable information of ali
Rendered Thursday, September 19,2019

© Legislative Council, State of Michigan

Page 10

Mkdiigan Compiled Laws Complete Through PA4Sof 2019

Courtesy of mw.tiewsiu'ure. mi.gov

Indian children in the department's care and custody. The census shall include, by county and statewide,
information regarding the Indian children on all of the following:
(a) Legal status.
(b) Placement information and whether it complies with this chapter.
(c) Age.
(d) Sex.
(e) Tribe in which the child is a member or eligible for membership.
(f) Accumu lated length of time in foster care.
(g) Other demographic information considered appropriate concerning all Indian children who are the
subject of child custody proceedings.
History: Add. 2012, Act 565, lmd. Eff. Jan. 2.2013.
Popular name: Probate Code

712B.39 Invalidation of actions; petition.
Sec. 39. Any Indian child who is the subject of an action for foster care placement or termination of
parental rights under state law, any parent or Indian custodian from whose custody an Indian child was
removed, and the Indian child's tribe may petition any court of competent jurisdiction to invalidate the action
upon a showing that the action violated any provision of sections 7, 9, 11, 13, 15. 21, 23, 25, 27, and 29 of
this chapter.
History: Add. 2012, Act 565, lmd. Eft Jan. 2,2013.
Popular name: Probate Code

712B.41 Severability,
Sec. 41. If any provision of this chapter or its application to any person or circumstance is held invalid for
any reason in a court of competent jurisdiction, the invalidity does not affect other provisions or any other
application of this chapter that can be given effect without the invalid provision or application. For this
purpose, die provisions of this chapter are severable.
History: Add. 20J2. Act 565. lmd. Eff Jan 2,20I3.
Popular name: Probate Code

Rendered Thursday, September 19, 2019

© Legislative Council, State of Michigan

Page 11

Michigan Compiled Lavs Complete Through PA 48 of 2019

Courtesy of ivmvJogismiurejvigay.

MIAMI TRIBE OF OKLAHOMA
CHILDREN’S CODE

CHAPTER 1 - MIAMI TRIBE OF OKLAHOMA CHILDREN’S CODE

1.1 SECTION 1: AUTHORITY AND PURPOSE
l.U
This Code is enacted pursuant to authority vested in the Miami Tribe of Oklahoma pursuant to
the Tribal Constitution, Article VI, Section 1.
1.1.2
The Children's Code shall be interpreted and construed to fulfill the following purposes:
(a) to provide for the welfare, care and protection of the child/childrcn of the Miami
Tribe of Oklahoma;
(b) to preserve the unity of the family, preferably by separating the child/children from
his/her Parent(s) only when necessary;
(c) to facilitate return of tribal child/childrcn to the jurisdiction of the Miami Tribe of
Oklahoma.
1.2 SECTION 2: JURISDICTION
1.2.1
Tribal Proceedings Involving a Miami Tribe of Oklahoma Child.
(a) The Court has exclusive, original jurisdiction of a proceeding involving a child/childrem
who is an enrolled member of the Miami Tribe of Oklahoma, or is or eligible for
enrollment with the Miami Tribe of Oklahoma, and resides within die Miami Tribe of
Oklahoma territorial jurisdiction.
(b) The Court has concurrent jurisdiction of a proceeding involving a child/childrcn who is
an enrolled member of the Miami Tribe of Oklahoma, or is or eligible for enrollment with
the Miami Tribe of Oklahoma, and resides outside of the Miami Tribe of Oklahoma
territorial jurisdiction.

l

'."•V.-T?"-" ..

1.2.2

Tribal Proceedings Involving Other Minor Indian Children.
(a) The Court has concurrent jurisdiction over an Indian child/children who is a member
of any other Indian Tribe and resides within the Miami Tribe of Oklahoma territorial
jurisdiction, and the child/children is alleged to be a minor(s)-in-need-of-care.
1,2.3
Other Proceedings:
(a) termination of parental rights
(b) adoption
(c) custody

(d) guardianship
1.2.4

State Proceedings. The Court shall also exercise jurisdiction over:
(a) a child/children who is an enrolled member of the Miami Tribe of Oklahoma, or is
eligible for enrollment with the Miami Tribe of Oklahoma, living either within or
outside of the jurisdictional territory of the Miami Tribe of Oklahoma, in proceedings
covered by the Indian Child Welfare Act pending in state courts or other tribal courts.

1.2.5
Jurisdiction Over Adults.
(a) Jurisdiction as a Matter of Law. In any case in which a child/children has come
within the jurisdiction of the court, the court shall have authority to exercise
jurisdiction over the adults to the extent necessary to make proper disposition of each
case, including authority to punish for contempt either in or out of the court’s
presence.
(b) Consent to Jurisdiction. Any adult living off/outsidc of the Miami Tribe’s territorial
jurisdiction who obtains custody of a child/children, however designated, from the
court either personally or as the result of association with an agency or institution to
which custody has been awarded, shall be deemed to have consented to the

2

jurisdiciion of the court for all purposes or actions in any way related to such Custody
of the child/children.
(c) Procedures Applicable to Adults. Except when specific procedures arc otherwise
specified in this Code, all matters concerning adults or the rights of any adult which
come before the court need not be handled according to procedures establish by'the
court, but rather may be handled in an informal manner.
(d) Termination of Continuing Jurisdiction. Jurisdiction obtained by the court of a
child/children under this Code shall continue until the child/children becomes
eighteen (18) years of age or the case is dismissed or the underlying Order expires; at
which time the continuing jurisdiction of the court shall terminate.
1.3 SECTION 3: DEFINITIONS
1.3.1
"Abandon" means:
child without provision for care or
(a) when a Pareni(s) or legal Guardian leaves
support, and the Parent(s) whereabouts cannot be ascertained;
(b) the Parent(s) has failed, for a period of six (6) consecutive months, to maintain a
significant parental relationship with a child/children through visitation or
communication in which incidental or token visits or communication are not
considered significant;
(c) the Parent(s) has failed to respond to notice of Deprived Child/Children proceedings
after receiving proper service;
(d) when a Parem(s) or legal Guardian(s) does not provide the proper care of a
child/children, or whose home is unfit for a child/children by reason of neglect, abuse,
cruelty, or depravity;
“Adjudicatory Hearing” means a hearing to determine whether the allegations of a petition
pursuant to this Code, alleging a child/children to be neglected or deprived, in-nced-of
supervision, or delinquent, are supported by evidence,
“Case Plan” means a written document also known as a “Treatment Plan” stating the services
and actions needed to be completed by the Parents), Guardian(s), or Custodian(s) before a
Deprived Cbild/Children can be returned home.
“Child” or “Indian Child” (plural “Children” or “Indian Children”) means an unmarried person
who is under age eighteen (18) and is either a) a citizen of a federally-recognized Tribe, or b) is
eligible for enrollment in an Indian Tribe, and is the biological child/children of a member of an

3

Indian Tribe. For purposes of this Code, child/children shall be interpreted to mean Indian
child/children.
“Children’s Code” means the Children’s Code for the Miami Tribe of Oklahoma.
"Children's Court" means the Miami Tribe of Oklahoma District Court when exercising
jurisdiction pursuant to this Code.
"Children's Court Judge" means any duly appointed Judge of the Miami Tribe of Oklahoma
District Court when exercising jurisdiction under this Code.
"Custodian" means one who has physical Custody of and who is providing food, shelter, and
supervision to a minor(s).
“Child Neglect” means an abandon child/children, or failure or omission of a person responsible
for the health, safety or welfare of a child/children, to provide any of the following:
(a) adequate food clothing, shelter, medical care, or supervision; or who lacks proper ‘
parental care through actions or omissions of the Parent(s), Guardtan(s), cr
Custodian(s);
(b) special care made necessary by the physician or mental condition of the
child/children.
“Custody” means the care and control of a child/children.
“Deprived Minor” means a child:
(a) whose Parent(s), Guardian(s), or Custodian(s) has subjected him to child abuse, or
whose Parcnt(s), Guardian(s), or Custodian(s) has enabled or allowed another to
subject the child to child abuse without taking lawful means to stop such child abuse
or prevent it from recurring;
(b) who lacks proper parental care through the actions or omissions of the Parent(s),
Guardian(s), or Custodian(s);
(c) whose environment is injurious to the child’s/children’s welfare;
(d) whose Parent(s), Guardian(s), or Custodian(s) fails or refuses to provide proper or
necessary subsistence, education, medical care, or any other care necessary for the
child’s/children’s health, guidance, or well-being, whether because of the fault of the
Parent(s), Guardian(s) or Custodian(s), or because the Parent(s). Guardian(s) or
Custodian(s) does not have the ability or resources to provide for the child/children;
(e) who is homeless due to, or without the fault of, his Parent(s), Guardian(s), or
Custodian(s);
4

(f) who has been abandon by his Parent(s), Guardian(s), or Custodian(s);
(g) who is in need of special care or treatment because of the child’s/chiidren’s physical
or mental condition, and the child's/children’s Parent(s), Guardian(s) or Custodian(s)
is unable or willfully fails to provide such special care and treatment;
(h) who has been bom to a Parcnt(s) whose parental rights to another child/children have
been involuntarily terminated by the court and the conditions which led to the making
of the finding, which resulted in termination of the parental rights of the Parents) to
the other child/children, have not been corrected;
(i) whose Parenl(s), Guardian(s) or Custodian(s) has subjected another child/children to
abuse or neglect or has allowed another child/children to be subjected to abuse or
neglect and is currently a respondent in a deprived proceeding.
“Disposition” means the final determination of a matter (as a case or motion) by the court.
“Disposition Hearing” means a hearing in which the court must determine what treatment or
services should be ordered for the family and/or the child/children, and the placement of the
child/children during such period.
“Emergency Custody” means custody of a child/children taken pursuant to this Code with a court
order prior to adjudication.
“Emergency Custody Order” means an order that may be issued by the court upon a sworn
written statement of facts showing that Probable Cause exists to believe that a minor(s) is a
deprived or neglected minor(s).
“Emancipation” means a procedure by which a child/children who is over sixteen (16) years of
age and who has, with the real or PaTent(s) assent of his Parents), demonstrated his
independence from his Parcnt(s) in matters of care, Custody and earnings may petition the court
for recognition of such status.
“Emergency Custody" means a child/children taken into protective Custody prior to the filing of
a petition for temporary Custody. (Section 26.10)
“Foster Care" means the private residence of a Tribal Resource Parent who provides Foster Care
for a child/children.
“Guardian” means an individual who has been appointed by a court with the duty to care for
another’s person or property.
"Guardian Ad Litem” means an adult appointed by the court to represent the best interests of a
minor in any proceeding to which he/she may be a party.

5

“Indian .Child" means any unmarried or un-emancipated person who is under the age of eighteen
(18) and is either:
a.

a member of a federally-recognized Indian tribe, or

b. is eligible for membership in a federally-recognized Indian tribe and is the biological
child/children of an enrolled member of an Indian tribe.
“ICW” means Indian Child Welfare program, a branch of the Tribe’s social services department.
“Neglected Minor" means a deprived child.
"Parent" includes a natural or adoptive Parents), or a Parent(s) established by law.
“Permanency Plan” means a written document that includes the specific steps needed to pursue
the identified permanency goal for the child/children.
“Permanent Custody” means court-ordered Custody of an adjudicated deprived child/children
whose parental rights have been terminated.
“Presenting Officer” means the attorney designated by Leadership to carry out the functions
defined under this Code.
"Probable Cause" exists where the facts, and circumstances within a judge's knowledge and of
which he/she has reasonable trustworthy information are sufficient in themselves to warrant a
person of reasonable caution to believe that the minor is a minor-in-need-of-care.
“Protective Custody” means custody of a child/children taken pursuant to this Code, without a
court order.
“Sexual Abuse" includes but is not limited to rape, incest, or lewd or indecent acts or proposals,
made to a child/children by any person.
“Shelter Care” means a residential facility which provides care and services for minor(s).
“Termination of Parental Rights” means the end of a legally-recognized parent-child
relationship, which may be voluntary or involuntary.
“Tribal Law Enforcement” means the Miami Tribe of Oklahoma Police; or a police officer of a
federally recognized tribe.
“Transfer Proceeding” means any proceeding to the court to grant, accept, or decline transfer of
any child/children’s case from or to the courts of any Indian tribe or state authorized by tribal,
federal, or state law.

6

1.4 SECTION 4; THE COURT SYSTEM
1.4.1
Establishment. llierc is hereby established for the Miami Tribe of Oklahoma the Miami Tribe
of Oklahoma District Court Children's Court to hear and determine matters pursuant to this
Code. The Children's Court shall consist of one Judge (Chief Judge) as appointed by die Tribal
Business Committee.
1.4.2

Powers and Duties of Children's Court Judge. In carrying out duties and powers specifically
enumerate under the Children's Code, the Judge of die court, who shall also serve as the District
Court Judge, shall have all powers and duties as the Judge of the Miami Tribe of Oklahoma
District Court Children’s Court.
1.4.3
Cooperation and Grants. The court is authorized to cooperate fully with any Federal, State,
Tribal, public or private agency in order to participate in any diversion, rehabilitation or training
programs and to receive grants-in-aid to carry out the purposes of this Code (subject to the
approval by the Tribal Council of expenditure of funds).
1.4.4
Social Services. The court shall utilize such social services as may be furnished by any Tribal,
Federal, or State agency, PROVIDED that it is economically administered without unnecessary
duplication and expense.
1.4.S

Contracts. The court may negotiate contracts with Tribal, Federal, or State agencies, and
Departments on behalf of the Tribal Business Committee for the care and placement of minors
whose status is adjudicated under this Code, subject to the approval of the Tribal Council before
expenditure of funds.
1.4.6

Transfer From State Courts. The Court may accept or decline state court transfers of
child/children Custody Proceedings.
1.4.7
Disqualification. In the event that a Tribal Judge is unable to hear and determine a matter due to
absence, illness, or conflict of interest, the Tribal Business Committee shall have authority to
appoint a substitute Judge.
7

;

1.5 SECTION 5: THE INDIAN CHILD WELFARE WORKER
The Tribal Indian Child Welfare worker shall be an employee of the Miami Tribe of Oklahoma,
Social Services Department and shall have the following authority and duties:
1.5.1

1. :■ .

To accept referrals regarding minor(s) alleged to be in need of care.
1.5.2
To investigate the circumstances of a minor(s) alleged to be in need of care and to seek, the
assistance of Triha! Law Enforcement Officer’s, if necessary.
1.5.3
To make such other investigations as ordered by the Children's Court or authorized by this court.
1.5.4
To develop case plans concerning any rninor(s), if an investigation supports an administrative or
judicial finding that the minor(s) is in need of care.
1.5.5

To make reports to the Children's Court and to provide information or referrals to recognized
child welfare agencies having an interest or service role concerning a tribal child/children.
1.5.6
To maintain a confidential system of records, subject to disclosure to a non-party only upon
order of the Children's Court.
1.5.7
Subject to the approval of the Tribal Business Committee, negotiate service agreements with
other recognized child welfare agencies.
1.5.8
Pending a determination of the minors) status to prevent risk of immediate harm by or to the
minor(s), take into emergency Custody and provide emergency placements.

8

!

1.6 SECTION 6; GUARDIAN AD LITEM
1.6.1
Appointment. The court, under any proceeding^) authorized by this Code, may appoint, for the
purposes of that proceeding(s), a Guardian Ad Litem (G.A.L.) for a minors), except where the
Court finds that a Parcnt(s), Guardian(s), or Custodian(s), is willing and able to effectively
represent the best interests of the minor(s).
1,6.2
Qualifications. The G.A.L. must be familiar with the rights of child/children and the provisions
of this Code.
1.6.3
Duties, The G.A.L. shall, represent the minor(s) best interests in any proceeding required by the
court and make recommendations to the court on disposition.
1.6.4
The court shall compensate the G.A.L. if fees are invoiced. The court may order one or more of
the parties involved in the case to reimburse the court for the G.A.L. fees. If more than one party
is deemed to be responsible for G.A.L. fees, the court shall determine to what extent each party
is responsible and the time frame to reimburse the court for the G.A.L. fees.

1.7 SECTION 7; PRESENTING OFFICER
1.7.1
The Miami Tribe of Oklahoma Children's Court Presenting Officer position shall be filled by the
tribe’s attorney whom shall carry out die duties and responsibilities set forth in this Code.
1.7.2
The Presenting Officer's qualifications shall be the same as the qualifications for the official who
acts as prosecutor for the adult tribal court.
1.7.3
The Presenting Officer shall represent the Miami Tribe of Oklahoma in all proceedings under
this Code.

9

1.8 SECTION 8: PARTIES
1.8.1
In any proceeding^) the following parties shall be entitled to participate:
(a) the minor(s) and the appointed G:A;L. or other'representative. • 1 •
(b) the minor(s) Parent(s), Custodian(s), or Guardian(s).
(c) the Miami Tribe of Oklahoma District Court.
(d) any other tribal government or non-tribal child welfare agency having an independent
legal interest in the welfare of the minor(s).
1.8.2
A member of the extended family, upon a motion and determination by the Children's Court that
the interests of the minor(s) will be best protected by allowing such participation may intervene
in a proceeding under this Code.
1.8.3
Any party may be represented by counsel of his or her own choosing at the parlies’ own expense.
The Miami Tribe District Court or Children's Court shall not be required to provide counsel for
any party, except in situations where it is ordered by the court.
1.8.4
Any party or counsel appearing in a proceeding shall be permitted access to and inspection of
court records, subject to such disclosure limitations as the court may provide.

1.9 SECTION 9: HEARINGS
1.9.1
Private and Closed. Ail hearings under this Code shall be separate from other proceedings and
shall be private and closed to the public. Only the parties, their attorneys, witnesses, and other
persons requested by the parties to appear and approved by the court may be present at the
hearing.
. r

10

1,9.2
Denial of Allegations. If the allegations arc denied, the court shall hear the evidence and decide
whether or not the allegations are proved.
1.9.3
Admission of Allegations. The court must find that an admission is voluntarily and knowingly
given.

1.9.4
Standard of Proof. The standard of proof for a deprived or neglected minor(s) adjudicatory
hearing shall be proof beyond a reasonable doubt.
1.9.5
Dismissal of Disposition. The court will dismiss the petition if the allegations arc not
established by the required standard of proof; the court will proceed to the disposition hearing if
the allegations are established by a valid admission or by the required standard of proof.

1.10 SECTION 10: INITIAL CONTACT - REFERRALS/COMPLAINTS
1.10.1

Referrals. All information, complaints, notices, reports, oral referrals, and inquiries concerning a
minor(s) alleged to be deprived/neglected, shall be forwarded or relayed to the Indian Child
Welfare worker, who is designated contact person for receipt of such.
1.10.2

Complaint. A complaint may be filed by a person who has knowledge (Tribe filings see Sec.
17) of the facts alleged. The complainant shall sign the complaint. The complaint shall contain:
(a) a citation to the specific statutory provisions of this Code which gives the Children's
Court jurisdiction of the proceedings; and
(b) name, age, address, and tribal affiliations of the minor(s) who is the subject of the
complaint.
(c) a plain and concise statement of the facts upon which the allegations are based,
including the date, time and location at which the alleged events occurred or
circumstances arose.

11

> U SECTION 11: TEMPORARY EMERGENCY CUSTODY
1,11.1
If it appears that the child/children is in immediate danger of physical or emotional harm, a
minor(s) may be taken into Temporary Emergency Custody by the Indian Child Welfare worker
or Tribal Law Enforcement if a petition for Temporary Emergency Custody is filed with the
court and an order is issued by the Judge.
1.11.2
Temporary Emergency Custody Order. Upon a swom written statement of facts showing that
Probable Cause exists to believe that a minors) is a deprived or neglected minor(s), the Court
may issue a Temporary Emergency Custody Order.
1.11.3
i

t

Search Warrant. The court may issue a warrant authorizing Tribal Law Enforcement, to search
for a minor(s) if there is Probable Cause to believe that the minor(s) is within the court's
jurisdiction and an emergency order has been issued for the alleged deprived or neglected
minor(s).
1.11.4
Upon taking a minor(s) into Custody, the person(s) having Custody of the minor(s) shall make
immediate and repeated efforts to notify the minor(s) Parent(s), Guardian(s), or Custodian(s) that
the minor(s) is in Custody and of the pending hearing.
1.11.5
Within fourteen (14) days after taking a minor(s) into Custody, theminor(s) shall be presented to
the Children’s Court for a determination whether there is Probable Cause to believe that the
minor(s) is neglected or deprived.

1-12 SECTION 12; SHELTER CARE OR FOSTER CARE

1.12.1
Upon a determination that there is Probable Cause to believe that the minor(s) is deprived or
neglected, or upon a determination by the Indian Child Welfare worker that the minor(s) requires
custodial care pending a .Probable Cause hearing, a minor(s) may be placed in Shelter Care or
Foster Care.

12

/

J

1.12.2
The Indian Child Welfare worker shall not place a minor(s) in Shelter Care or Foster Care
unless a Petition is filed in accordance with Section 17 of this Code, or the Children's Court
orders that a minor(s) is taken into Custody pursuant to Section 10 (Complaint is filed) of this
Code.
1.12.3
If the minor(s) Parcnt(s), Guardian(s), or Custodian(s) has not been contacted, the Indian Child
Welfare worker shall make immediate and recurring efforts to inform him or her that the
minor(s) has been taken into Custody and shall release the minor(s) to the Parents), Guardian{s),
or Custodian(s), unless Shelter Care or Foster Care is immediately necessary.
1.12.4
If a minor(s) is not released to his Parent(s), Guardian(s), or Custodian(s), the Indian Child
Welfare worker shall place the minorfs) in Shelter Care or Foster Care, pending the preliminary
inquiry.
1.12.5
If a minor(s) is not released to his Parents), Guardian(s) or Custodian(s), the Indian Child
Welfare worker shall immediately explore alternative preadjudication custody arrangements and
prepare recommendations for temporary care and Custody for presentation at the preliminary
inquiry.

1.13 SECTION 13: BASIC RIGHTS
1.13.1
Deprived or Neglected Child: Right to an Attorney. In a deprived or neglected minor(s)
proceeding, the Parent(s), Guardian(s), or Custodian(s) shall be informed of their rights to an
attorney at their own expense.
1.13.2
Guardian Ad Litem fG.A.L.1. The Court, at any stage of proceeding, may appoint a G.A.L. for
a minor(s) who is a party, if the minors) has no Parent(s), Guardian(s), or Custodian(s)
appearing on behalf of the minor(s) or if their interests conflict with those of the minor(s).

13

1.13.3
Hearings; Explanation of Rights ai Preliminary Inquirv/First Appearance. When a minor(s)
is alleged to be deprived or neglected, the Parent(s) shall be informed by the court of;
(a) the allegations against him/her;
(b) the right to an attorney (at own expense or through the Miami Tribe of Oklahoma
District Court per this Code);
(c) the right to testify and that statement made by him/her may be used against him/her;
(d) the right to cross-examine witnesses;
(e) the right to subpoena witnesses on his/her own behalf; and
(f) the possible consequences if the allegations of the complaint are found to be true.

U4 SECTION 14: INVESTIGATION BY THE INDIAN CHILD WELFARE WORKER
1.14.1
The Indian Child Welfare worker shall make an investigation prior to the preliminary
inquiry/first appearance to determine whether the interests of the minor(s) and the public require
that further action be taken. Upon the basis of this investigation, the Indian Child Welfare worker
may:
(a) recommend that no further action be taken; or
(b) suggest to the minor(s), his/her Parents), Guardians), or Custodians) that they
appear for an informal hearing pursuant to Section 16 of this Code; or
(c) recommend that the Presenting Officer file a Petition pursuant to Section 17 of this
Code in the Children's Court to initiate further proceedings. 'The Petition (i.e., Petition to
Adjudicate the Minor(s) Deprived shall be filed at the preliminary inquiry if the minor is
in Shelter Care or Foster Care. If the minor has been previously released to his Parent(s),
Guardian(s), or Custodian(s), the Petition shall be filed within ten (10) days of the
chitd’s/children’s return.

14

1.14 SECTION 14: PRELIMINARY INQUIRY
1.14.1
If a minor is placed in Shelter Care or Foster Care by the Indian Child Welfare Worker pursuant
to Section 12 of this Code, the Children’s Court shall conduct a preliminary inquiry within,
fourteen (14) days, for the purpose of determining:
(a) whether Probable Cause exists to believe the minor is a minor-deprived or neglected;
and,
(b) whether continued Shelter Care or Foster Care is necessary pending further
proceedings.
1.14,2
If a minor(s) has been released to his Parent(s), Guardian(s), or Custodian(s), the Children's
Court shall conduct a preliminary inquiry within fourteen days (14) days after receipt of a
Petition for the sole purpose of determining whether Probable Cause exists to believe the
minor(s) is a Deprived or Neglected child/children.
1.14.3
Basic Rights. At the beginning of the preliminary inquiry the minor(s), the Parent(s),
Guardian(s) or Custodian(s) shall be advised of their basic rights under Section 1.13.
i.14.4
Presence of Minor’s Parent(s), Guardianfsl. or Cnstndian(s). If the minor(s) Parents),
Guardian(s), or Custodian(s) is not present at the preliminary inquiry, the court shall determine
what efforts have been made to notify and to obtain the presence of the Parent(s), Guardian(s), or
Custodian(s). If it appears that further efforts are likely to produce the Parent(s), Guardian(s), or
Custodian(s), the court shall recess until the next scheduled court date and direct the Indian Child
Welfare worker to make continued efforts to obtain the presence of a Parents), Guardian(s). or
Custodian(s).
1.14.5

Criteria for Shelter Care or Foster Care, If a minor(s) is placed in Shelter Care, or Foster
Care, the court shall conduct a preliminary inquiry within fourteen days (14) days for the purpose
of determining if criteria for Shelter Care or Foster Care exist. Criteria for Shelter Care or Foster
Care exists if the court finds:
(a) Probable Cause exists to believe the minor(s) is a Deprived or Neglected minor(s);
and

IS

;

(b) the minor(s) is suffering from an illness or injury, and no Parents), Guardian(s), or
Custodian(s), or other person(s) is providing adequate care of him/her;
(c) tire minors) is in immediate danger from his/her surroundings, and removal is
necessary for his/her safety or well-being;
(d) the minor(s) will be subject to inquiry by others if not placed in the Custody of the.
court;
(e) the minor(s) has been abandoned by his/her Parents), Guardian(s), or Custodian(s); or
(f) no Parent(s), Guardian(s), Custodian(s) or other person is abfe or willing to provide
adequate supervision and care for the minor(s).

115 SECTION 15: NOTICE
1.15.1
Notice of the preliminary inquiry shall be given to the Parent(s), Guardian(s), or Custodian(s) as
soon as the time for inquiry has been established.
1.15.2
The Notice shall contain:
(a) the name of the Court;
(b) the title of the proceeding;
(c) a brief statement of the alleged circumstances upon which the minor(s)-in-necd-ofcare allegation is based; and
(d) the date, lime, place and purpose of the preliminary inquiry.
1.15.3
The notice shall be delivered by a Tribal Law Enforcement Officer, or an appointee of the court.

16

1.16 SECTION 16: INFORMAL HEARING
1.16.1
The Indian Child Welfare worker may hold an informal conference with the minor(s) and the
minor's Parents), Guardian(s), or Custodian(s) to discuss alternatives to the filing of the petition
if:
(a) the admitted facts bring the case within the jurisdiction of the Children's Court; and
(b) an informal adjustment of the matter would be in the best interest of the minor(s) and
the Miami Tribe District Court, and
(c) the minor(s) and his/her Parent(s), Guardian(s), or Custodian(s), consent to an
informal adjustment with knowledge that the consent is voluntary and revocable at will.
1.16.2
Notice of die informal hearing shall be given to the minor(s) and his/her Pareni(s), Guardian(s),
or Custodian(s) and their counsel, If applicable, as soon as the time for the hearing has been
established. The Notice shall contain:
(a) the name of the court; and
(b) the title of the proceedings; and
(c) a brief statement of the alleged circumstances upon which the minor(s)-in-need-ofcare allegation is based; and
(c) the date, time and place of the informal hearing.
1.16.3

The Notice shall be delivered by the Tribal Law Enforcement Officer or the Indian Child
Welfare worker or a designee. If the notice cannot be delivered personally, the notice shall be
delivered by registered mail.
1.16.4
No statement made during the informal hearing may be admitted into evidence at an adjudicatory
hearing.

17

;

1.16.5
At the informal hearing, the Indian Child Welfare worker may refer the minor and the Parent,
Guardian, or Custodian to a community agency for needed assistance or recommend that the
Presenting Officer fiie a petition pursuant to Section 1.18 of this Code.
1.16.6
The Indian Child Welfare Worker shall set forth in writing the conclusions reached at the
informal hearing and the disposition agreed to by the parties for remedying this situation, which
shall be signed by the Parents and the child, if over 12 years of age.
1.16.7
Any informal adjustment period shall not exceed one (l) year.

1.17 SECTION 17: PETITION BY TRIBE
1.17.1
Proceedings under the Children's Code shall be instituted by a Petition filed by the Presenting
Officer on behalf of the Miami Tribe District Court and in the interest of the minor(s). The
petition shall state:
(a) the name, birth date, tribal affiliations, and residence of the minor(s);
(b) the names and residences of the minor's Parent(s), Guardian(s), or Custodian(s);
(c) a citation to the specific provision of this Code which gives the Children's Court
jurisdiction of the proceedings; and
(d) if the minor(s) is in Shelter Care/Foster Care, the place of Shelter Care/Foster Care
and the time he/she was taken into Custody.
1.17.2
Prospective adoptive Parents) are authorized to file an adoption petition upon completion of all
pre-adoptive reports.

18

1.18 SECTION 18: PRE-HEARING PROCEDURE- NOTICE
1.18.1
Upon the filing of a Petition (Section 1.18) or Complaint (Section 1.10), the Court shall order
Notice delivered or mailed to the parties enumerated in Section 1.8.1
1.18.2
The Notice shall contain the name, date of birth and current residence of the chiid/children, the
name and address of the minor’s Parents) and the circumstances upon which the complaint h
based.
1.18.3
The notice shall be accompanied by a copy of the Petition.

1.18.4
The Notice shall contain the time, place, date, and purpose of the Hearing.
1.18.5
Notice may be delivered in person or by regular mail at a place calculated to give the person(s)
notified reasonable time to respond. If by mail, the Notice shall be mailed no less than five (5)
days before the Hearing. If delivered in person it shall be delivered no less than three (3) days
before the Hearing.

1.19 SECTION 19: SUMMONS
1.19.1
Issuance. Where a Petition alleges violation of a tribal ordinance by a minor(s), the court shall
cause a Summons to be issued to:
(a) the minor(s);
(b) the minor’s Parent(s), Guardian(s), or Custodian(s); and
(d) any pcrson(s) the court believes necessary for the proper adjudication of the Hearing
that is within the court's jurisdiction.

19

c.**

1.19.2
Answer. The Summons shall require the person to whom directed to appear before the Court at a
specified date and time and require an answer to the allegations.
1.19.3
Petition. A copy of the Petition shall be attached to the Summons.
1.19.4
Service. The summons shall be delivered personally by a Tribal Law Enforcement Officer or
appointee of the Court. If the summons cannot be delivered personally, the Court may deliver the
Summons by registered mail. If the Summons cannot be delivered personally or by registered
mail, the Summons may be by publication.
1.19.5
Time Limit, Summons shall be issued at least live (5) days before the specified appearance.

1.20 SECTION 20; ADJUDICATORY HEARING
3.20.1
An Adjudication Hearing shall be held at the next regularly scheduled court date following
receipt of the Petition by the Court.
1.20.2
The Children's Court shall hear testimony concerning the circumstances, which give rise to the
complaint.
1,20.3
If the allegations of the Petition are sustained by clear and convincing evidence, the Children's
Court may find the minor(s) to be a Deprived or Neglected minor(s) and may proceed
immediately to the Disposition Hearing. If any party requests, a Disposition Hearing may be
scheduled at the next regularly scheduled court date.

.20

1
k...

1.20.4
A finding that a minor(s) is a Deprived or Neglected minor(s) constitutes a final order for
purposes of appeal.

1.21 SECTION 21: PRE-DISPOSITION REPORT- CASE PLAN
1.21.1
No less than twenty-four (24) hours prior to a Disposition Hearing, the Indian Child Welfare
worker shall file with the Court a pre-disposition report/Case Plan. The Case Plan shall, in detail,
describe:
(a) services that are appropriate and available from or through the Miami Tribe District
Court and how such services have or have not been effective;
(b) social history of the chiid/children;
(c) a recommended plan of treatment, rehabilitation, and care that preserves the least
restrictive environment appropriate for the child/children and is most likely to preserve
and protect the child’s/childrcn’s family unit;
(d) care, service, or treatment providers under the plan; and
(e) the needs of the child/children and how the objectives of the plan will meet those
needs.
1.21.2
In the event that out-of-home placement of the child is recommended, the Case Plan shall
contain, or be supplemented within thirty (30) days by a report containing the following.
(a) services available through the Miami Tribe District Court for and provided in an
effort to prevent the out of home placement;
(b) services available through the Miami Tribe District Court to facilitate a return to die
minor(s) home;
(e) description of the minor(s) previous or planned future placements and how such
placement has met or will meet the needs or facilitate the return home of the
child/children;
(f) assessment of the appropriateness of any out of home placement and the goals to be
met by such placement; and

21

i

(e) conditions upon which the mlnor{s) will be returned to the home including any
changes in the conduct of the child/children or Parent(s) or in the conditions of the
home.
1.22 SECTION 22; DISPOSITION HEARING
1.22,1
A Disposition Hearing may immediately follow the Adjudicatory Hearing or may be held at the
next regularly scheduled court date, following the Adjudicatory Hearing. The court shall conduct
the Hearing for the purpose of determining the proper disposition of the minor(s). The court shall
enter a written judgment setting forth the findings, decision, and disposition.
1.22.2

The Disposition Order shall recite the following elements:
(a) appearances at the Hearing;
(b) disposition from among the alternatives provided by law; and
(d) placement of the minor(s), except that the placement may be made after the Hearing
and upon Notice to all parties, the location of the child/children shall be made a part of
the record. The Court may limit disclosure of the minor(s) whereabouts if necessary to
protect the minor(s).
1.22.3
In making disposition the Court may exercise jurisdiction over any adult within the Court’s
jurisdiction in aid of its orders.

i ll SECTION 23: DISPOSITIONS
1.23.1

Deprived or Neglected, If a minor(s) has been adjudged a Deprived or Neglected Minorfs), the
court may assume or assign legal Custody of the minor(s) and may make any of the following
dispositions:
(a) permit the minor(s) to remain with his/her Parcnt(s), Guardian(s), or Custodian(s),
subject to such limitations and conditions as the Cburt may prescribe, which may inctude
counseling, restitution, community service, treatment, or other conditions or conduct;

22

i
i

(b) place the minor with an extended family member subject to such limitations and
conditions as the Court may prescribe;
(c) place the minor(s) in a Foster Home which has been licensed or approved by the
Miami Tribe District Court, subject to such limitations and conditions as the Court may
prescribe;
(d) place the minor(s) in Shelter Care or Foster Care facilities designated by the Court;
(e) transfer legal Custody to an agency (t.e., the Tribe’s Indian Child Welfare worker)
responsible for the care of a Deprived or Neglected Minor(s) or to an extended family
member or other person who the Court finds to be qualified to receive and care for the
child/chiidren;
(f) appoint a Guardian(s) for the minor(s) under supervision of the Court;
(g) recommend that termination proceedings begin.
(h) The Miami Tribe District Court and the Tribe’s ICW officer shall maintain an active
role in all guardianship cases.

1.23.2
Termination of Parental Rights. If parental rights to a child/childrcn are terminated, the Court
shall:
(a) place the minor(s) with an extended family member which has been approved by .the
Miami Tribe District Court; or
(b) place the minor(s) in a Foster Home or Shelter Care facility which has been approved
by the Miami Tribe District Court; or
(c) proceed to the adoption section of this Code.
1.23.3
Adoption. The preference of placement in adoption of a minor(s) shall be:
(a) extended family member(s);
(b) a member or person(s) eligible for membership in die Miami Tribe of Oklahoma;
(c) a member of another Indian Tribe; and

23

(d) if this order or preference cannot be met, then placement may be made with any
person who has knowledge of the child’s/children’s tribal affiliation and his/her special
needs.

1.24 SECTION 24: MODIFICATION OF DISPOSITION ORDERS
A disposition order may be modified as to conditions or placement, or dismissed upon the
following terms:
1.24. 1
Modification. A party may file a Petition for Modification of an existing order in accordance
with Section 18, which shall allege the reasons for the proposed change in conditions or
placement under the existing order. If the Court finds that it is in the best interest of the
child/children to make such modification, it shall enter orders accordingly.

1.2S SECTION 25: PARENTAL RIGHTS
1.25,1
Termination of Parental Rights. A Termination of Parental Rights Hearing shall be held at the
next regularly scheduled court date following the filing of a Petition to terminate pursuant to
Section 18 of this Code. The Court shall conduct the Hearing for the purpose of determining
whether parental rights should be terminated based upon a showing of:
(a) abandonment of the child/children;
(b) willful and repeated risk to the child/children of death, disfigurement, or impairment
of bodily functions;
(c) willful and repeated acts of Sexual Abuse;
(d) relinquishment of parental rights acknowledged before the Court; or
(e) failure to correct the conditions that led to court ordered out of home placement.
1.25.2
Pre-Termination of Parental Rights. If the Court determines that grounds for termination are
proven beyond a reasonable doubt, it shall order a Disposition Heating pursuant to Section 23.
The Indian Child Welfare worker shall prepare and present a written report to the Court, at least

(
24

three (3) days before the Disposition Hearing. The report shall contain the opinions of all
professionals consulted and their recommendations to the Court.
1.25.3
Relinquishment. Parental rights may be relinquished by a Parent in writing, if signed by the
Parent in the presence and with approval of die Children’s Court. Relinquishment shall not be
accepted or acknowledged by the court prior to ten (10) days after birth of the child/children.

1.26 SECTION 26: ADOPTION
1.26.1
Consent Not Required. Written consent to an adoption is not required if:
(a) the Parent(s) has abandoned his or her child/children;
(b) the Parent(s) rights have been terminated;
(c) the Parent(s) has relinquished his or her Parental rights; or
(d) the Parent(s) has been declared incompetent.
1.26,2

Consent Required. Except as provided above, written consent to an adoption is required of:
(a) the biological or adoptive mother; or
(b) the biological, adoptive, or acknowledged father; or
(c) the Custodian(s), if empowered to consent; or
(d) the court, if the Custodian(s) is not empowered to consent; and
(d) the minorfs), if he/she is over twelve (12) years of age.
1.26.3
Execution of Consent to Adopt. Written consent to an adoption shall be executed in writing and
acknowledged in person before the court. Consent shall not be accepted or acknowledged by the
court prior to ten (10) days after birth of a child/children.

25

:s\

1.26.4
after
Withdrawal of Consent to Adopt. Written consent to an adoption cannot be withdrawn
.
the entry of an Order of adoption. Upon a showing at a Hearing before the Courtjth* ^consent
was obtained by fraud, duress, or coercion, consent may be withdrawn prior to .he final Order of
Adoption.
1.26.5
Prasnoetive Adoptive Parent Within thirty (30) days of an
Prft-Petition Report on _____________
Guardian Ad Litem shall
Application for Adoption, the Indian Child Welfare worker or
with the Court with
investigate the prospective Parents) and file a written report
recommendations for or against placement with the applicant.
1.26.6
Within thirty (30) days of a court ordered investigation of a
Pff-Pgtitinn Report on Minor.
..
minor(s) to be adopted, the Indian Child Welfare worker or Guard.an Ad Litem shall file a, <
written report with the Court.

1.26.7
Ao adoption Hearing shali be held
Z minor(s) to be placed with the appiicant, In
determining the best interest of the minorfs), the Court shall examine.
(a) validity of written consent;
(b) termination of parental rights order;
(c) length of time of the minor(s) ward ship by the court;
(d) special conditions of the minor(s),
(e) Parent communication with the minor(s),
(f) minor(s) consent to adoption, if the rainor(s) is over twelve (12) years of age;
(g) pre-petition reports; and
(g) order of preference of placement.

26

69

1.26.8
Conditional. Defeasible, or Postponed Adoption. An adoption may be ordered by the
Children's Court upon conditions that arc reasonable and calculated to preserve the minors)
tribal relationship. Such orders may include visitation rights, retained supervision or postponing
final adoption orders pending proof of good faith in compliance with conditions established by
the Court.
If it appears to be in the chiid's/children’s best interest, the Court may postpone confirmation of
the adoption for a period up to two (2) years to determine whether reasonable and necessary
conditions for the welfare of the minors) are being met. If such conditions are met, the Court
may then confirm the adoption without farther hearing, if such conditions have not been met, the
Court may issue an Order to show cause why the adoption should not be vacated, and may
extend the period of supervision. Unless previously vacated by Order of the Court, an adoption
shall be confirmed by die death of either natural Parcnt(s) or adoptive Parent(s), or by the death
or attainment of eighteen years of age of the adopted child/children.

1.27 SECTION 27; FOREIGN PROCEEDINGS
1.27.1
Receipt of Notice. The Tribal Agent for service of Notice of state court Child Custody
proceedings, as defined by the Indian Child Welfare Act, shall be the Indian Child Welfare
worker.
1.27.2

Open File and Investigation. The Indian Child Welfare worker shall open a case file, conduct
an investigation, and continue to monitor all cases in which the Miami Tribe District Court
receives Notice of a foreign proceedings.
1.27.3
Intervention. ICW shall determine whether or not to intervene in a foreign proceeding.
Intervention shall occur through filing an Entry of Appearance and Motion to Intervene in the
foreign proceeding by ICW or the Miami Tribe’s Attorney.
1.27.4

Intervention in State Court Proceedings. The Miami Tribe may intervene in State Court Child
Custody proceedings, as defined by the Indian Child Welfare Act, at any point in the
proceedings.

27

1.27.5

Petition for Transfer. The tribal Petition for Transfer shall be filed by the ICW or the
Presenting Officer.
1.27.6
Petition to Accent Transfer. A Petition to Accept Transfer and Order shall be filed by *e
Presenting Officer once the foreign court approves transfer of jurisdiction to the Miami Tribe o
Oklahoma Tribal Court.
1.27.7

Minors In Nud of Care Application and Adjudicatory Hearing, Upon receipt of transfer of
jurisdiction from State Court, the Indian Child Welfare worker shall file a Mmor(s)-In-Need-of.
Care Application. An Adjudicatory Hearing shall be held at the next regularly scheduled court
date.

1.28 SECTION 28: RECORDS
1.28.1
Records of the Miami Tribe and Miami Tribe District Court concerning a minor(s) under the
Code shall be confidential.
1.28.2

but not limited to executive session, identification of persons by initials, and limitation o
participants and advisers.

28

l

71

CONSTITUTION
OFTHE
MIAMI TRIBE OKLAHOMA
PREAMBLE
We, the Miami Indians of Oklahoma, for the purpose of preserving our cultural heritage,
promoting the general welfare of our people and taking further advantage of the opportunities for
self determination and economic independence, as provided under the Thomas-Rogers
Oklahoma Indian Welfare Act of June 26, 1936 (49 Stat. 1967), hereby adopt the following
revised Constitution and By-Laws which shall supersede the Constitution and By-Laws of the
Miami Tribe, approved by the Secretary of the Interior on August 16,1939.

ARTICLE I....NAME
The name of this tribal organization shall be the Miami Tribe of Oklahoma.

ARTICLE II....TERRITORY AND JURISDICTION
The authority and jurisdiction of the Miami Tribe of Oklahoma shall extend to all the territory
within die boundaries now known as MIAMI LANDS, which include land in Northeast
Oklahoma and the original Miami Reservation in Eastern Kansas, and to all lands which may be
acquired for the Miami Tribe by the United States Government or which may be acquired by the
Miami Tribe for its land base and to all Indian Country of the Miami Tnbe and its citizens *s ot
now or hereafter as defined by Federal law. The Miami Tribe of Oklahoma may exemise its
authority and Jurisdiction outside the territory above described to the fullest extent not prohibited
by Federal law.

ARTICLE IU....MEMBERSHIP OF TRIBE
Section 1.
persons:

The membership of the Miami Tribe of Oklahoma shall consist of the following

(a)
All persons of Miami Indian blood whose name appears on the official census
roll of the Tribe as of January 1,1938.
All persons of Miami Indian blood whose name appears on the adjustment rolls
(b)
of 1936,1938,1939,1940,1941,1942, and 1943 or who have been approved for membership as
of the date of approval of this Constitution by the Secretary of Interior.
(c)
Any person, who has blood ties through ancestry of the above mentioned Ro Is
and who may not have a direct parent enrolled as a Miami; and who chooses to affiliate wn the
Miami Tribe, provided such person is not a member of any other Federally recognized tnbe,
may apply for membership.
(d)
Any child bom of a marriage between a member of the Miami Tribe and a
member of any other Indian Tribe who chooses to affiliate with the Miami Tnbe.

N

I

72

(e)
Any child born of a marriage between a member of the Miami Tribe and any
other person, if such child is permitted to membership by the General Council of the. Miami
Tribe.
(f)
Any person of Miami Indian blood and/or blood descendant thereof, who
relocated to Kansas who had been issued Restricted Land Patents to land within the Miami
Reservation in Kansas Territory (as stipulated under the Second Article of the Treaty With The
Miami, dated June 5, 1854, and approved by the Third Section of an'Act of Congress dated, June
12, 1858, or any person listed in the La Cygne Journal, in 1871, whose names appears as an
Indian Head Right, who makes application, may be admitted to membership in the Miami Tribe
of Oklahoma.
The Miami Business Committee shall have the power to prescribe rules and
Section 2.
regulations, subject to the approval of the Secretary of the Interior, covering future membership,
including adoptions and the loss of membership.
No member of another Tribe shall be eligible for membership in the Miami Tribe
Section3.
of Oklahoma; provided, however, the following disqualification does not apply to persons wno
acquired membership in the Miami Tribe of Oklahoma before the date of approval of this
Constitution by the Secretary of Interior.
Section 4.
Any person who has been rejected for membership may file an appeal to die
Miami General Council whose decision shall be final. The Business Committee shall enact an
ordinance for such appeals.

ARTICLE I V....MEMBERSHIP OF COUNCIL
The supreme governing body, of the Miami Tribe shall be the Miami General Council. The
Membership of the Council shall consist of all members of the Miami Tribe of Oklahoma
eighteen (18) years of age and older.
ARTICLE V....OFFICERS
The officers of the Tribe shall be the Chief, Second Chief, Secretary-Treasurer and two
Councilpersons who shall be elected as provided in Article VIII Elections.
ARTICLE VI....COMMITTEES
Section 1.
There shall be a Business Committee which shall consist of the Officers of the
Tribe. The Business Committee shall have tire power to appoint subordinate committees and
representatives, enact resolutions and ordinances and to employ legal counsel, and to transact
business and..otherwise speak or act on behalf of the Tribe in all matters on which the Tribe is
empowered to act, except as specifically reserved herein. Theexercise of aforementioned powers
shall be subject to limits as imposed by any applicable Federal laws, The term of office for the
Business Committee shall be three years.

-2-

.....t

:

Section 2.
The Grievance Committee shall consist of five (5) members who shall be elected
by the Miami General Council and who shall not be members of the Business Committee. This
Committee shall choose, from within its membership, a Chairman and a Secretary. The term ot
office shall be for three (3) years. The Business Committee shall enact an ordinance winch shall
establish the duties of its members and its procedures.
(a)
Meetings of the Grievance Committee may he called by the Chairman and shall
be called i f a written request is received bearing the signature of at least three (3) members of the

—s issus.ii is—: 11
members
valid petition.

decision of the Miami General Council shall be final. The Business Committee shall enact an
ordinance for such appeals.
ARTICLE VII....BILL OF RIGHTS
The Miami Tribe, in exercising its powers of self-govemmen, shaU
1Ume"e^Ung
in violation of the laws of the United States as the same shall exist from tune to time respschns
cM nS and civil liberties of persons. Tins article shall not abridge the cornet of selfgovernment or the obligations of the members of the Miami Tribe to abideb^C°”S“U!£“
L the ordinances, resolutions, and other legally institute“olJ°,nS„mail
protections guaranteed by the Indian Civil Rights Act of 1968 (82 Stat. 78) shall apply
members of the Miami Tribe.
ARTICLE VIII... JUDICIAL BRANCH
Section 1
Until snch time as die Business Committee determined that her Tribe «
financially and otherwise prepared to maintain a separate TnbalConrt the judicial
- f
the Tribeyshall he exercised by die Court of Indian Offenses The ***%%«*•«££
Indian Offenses shall include, but not be limited to, civil and criminal jurisdiction. When me
Bu toes° Commi “dSemUn^s that the Tribe is prepared to begin exercising its ngh. to jud.ca
I”, Hhall notify the Court of Indian Offenses of snch intentrons by transmitting a
Resolution to that effect, and copies of the following:
(a)
(b)
(c)

a copy of the judicial ordinance,
a plan for establishing the Tribal Court, and
a timetable and procedure for orderly transition of pending cases.

In line with the above provisions, the judicial andiority of the Tribe will, tteeafter be exerc.s«J
«
by the Tribal Judicial Ordinance acquired before assumption of such junsdiclion. If,
financial or other reasons i« is no. appropriate for die Tribe to.continue the qP«M>°£a Tribal
Court, the Business Committee may restore jurisdiction to the Court of Indian Offenses, upon
formal Resolution
-3-

74

thereof.
ARTICLE IX....ELECTIONS
first day of the Annual Meeting o/thfoeneS CoS
l?flbers shaU >» hdd on the
I^ws, after (he ratification of the ConsttofioTSsSme
^ “ °f *e Byfirs. Annual Meeting following rattfcS heSf FoJt
^ SM be held at
terms of office; Officers to be electa! ,h* r ♦ F°5 *C P^fP°se of providing for staggered
and two (2) members of the Grievance
m?Ude *C Secrctary/rreasurer

provided thru
as provided in Section 1
Mot°
dominations shall be made from the floor. Elections shall be by written
candhlat °f *be. V°ie’
™^an^^°h^M:Hminat^ aiuTlhe vcth^^alfprocwd^mn^ne
unmedWeStn maJOr“y ° VOte b™8 CaSt' 71,0 “W'y elCOted °ffiCOT shaU ba »«*«

ARTICLE X....VACANCIES

ccmviction of a felony, has ceased to physically reside within the required area, as noted in
Article II, Section 1 of the By-Laws, and/or has been absent without being excused by such
respective body, for three (3) consecutive regular or special meetings, shall be filled by
appointment of the Business Committee. Said appointment shall be made within thirty (30) days
a any regular or special Business Committee meeting, and said appointee shall serve until the
next regular election. At such time, a replacement shall be elected to fill that vacancy for the
unexpired portion of the term for office.
A vacancy for the general purpose of this Article means that the office is unoccupied, and that
there is no incumbent who has a lawful right to hold said office.
ARTICLE XI....RECALL AND REMOVAL OF OFFICERS
Section 1.
Rgmoval. Each elected or appointed body of the Miami Tribe shaU have -be
powet to ten\0\'0 arty of its members for cause by affirmative vole of a majority of the total
.4-

75

membership of ihe elected or appointive body. The Business Committee shall adopt an ordinance
providing for such removal.
The procedures set out in the ordinance shall be ttsed in removal proceedings by each of the
elected or appointive bodies. Included in the ordinance shall be procedures for the accused to
confront his/her accusers and speak on his/her behalf in answer to a written statement of the
charges at a Special meeting of the affected body called for that purpose. The accused shall be
provided with the written statement of charges at least fifteen (15) days prior to the removal
meeting. Such ordinance shall further provide that only one (1) person from any governmental
body of the Tribe shall be considered for removal at any meeting called for that purpose. Should
the process result in removal, no further removal shall be considered until the vacancy has been
filled. Any Tribal member who has knowledge of wrongdoing by a Tribal official may file such
charges with the appropriate body.
In the event the accused or the accuser requests an investigation into the matter, it shall be the
duty of the Grievance Committee to conduct such investigation and within twenty (20) days
provide its findings to the affected body for its use in making a final determination.
Procedures of "Due Process of Law” will be followed and any violation shall be grounds for
dismissal of all charges or accusations. The Miami Tribe will observe the "Indian Civil Rights
Act” during the proceedings.
Section 2.
Recall. Any voting member of the Miami Tribe may prefer charges by a valid
petition supported by the signature of no less than seventy-five (75) members of the General
Council, stating any of the causes for removal set-forth in Section 1 of this Article against any
member of the Business Committee, The petition must be submitted to the Grievance
Committee. The Grievance Committee shall take the following action:
(a)
The Grievance Committee within fifteen (15) days after receipt of the notice of
petition shall in writing notify the accused of the charges brought against him/her and set a date
for a hearing before the General Council. If the General Council deems the accused has foiled to
answer charges to its satisfaction or fails to appear at the appointed time, the General Council
may schedule a recall election w’hich shall be held within thirty (30) days after the date set for the
hearing. The outcome of the recall election shall be final.
The Miami Tribe Business Committee shall enact such. ordinances as are
Section}.
necessary to implement removal and recall elections consistent with this Article.

-5-

ARTICLE XII....INITIATIVE AND REFERENDUM

those in attendance at such meeting, where a quorum is deciar^ shall be required to adopt
a measure as presented at the meeting. Voting will be conducted by written secret ballot.
(a)
In the event the Chief does not call a meeting of the Mimni Council withinthe
specified sixty (60) days of presenting such petition, a spokesperson for the petitioners is hereby
authorized to call and conduct such a meeting of the Council.

expire by its own terms.
Section 2
Referendum. Referendum is the exercise of authority whereby the Business
Committee, at its discretion, may refer any matter before it to the Mum.^ * “^a
snecial meeting of the Council called for that purpose. A majority of those votmg at such a
at
a
meeUngwhere
amronim is declared, is required to pass on any such
before .tVotmg
. „ KJhv Witten secret ballot. If the proposed measure is adopted it shall be binding on t*<e
^ Committee and the Tribe, until amended or repealed, except that it may expire by i s
Business
own terms.

ARTICLE XXII.... AMENDMENTS
Amendments to this
Business Committee or by a v
the Tribe.

(30%) of those entitled to vote shall cast ballots in such election,

date of approval. 1

ARTICLE XIV....SAVINGS CLAUSE
All enactments of the Tribe adopted before the effective date of this Constitution shall continue
in effect to the extent that they are not inconsistent with this Constitution.

Article XI11 added by Secretarial Election held February 1, 2008. Amendment number l.

-6-

77
is.

ARTICLE XV....SEVERABILITY
If any part of this Constitution is held invalid by the Federal Court to be unlawful, the remainder
shall continue to be in full force and effect.

ARTICLE XVI.... INHERENT RIGHTS AND POWERS
The enumeration in the Constitution, of certain rights and powers, shall not be construed to deny
or limit other inherent rights and powers retained by the citizens of the Miami Tribe or the
Miami Tribal Government.

BY-LAWS
ARTICLE XVn....DUTIES OF OFFICERS
Chief. It shall be the duty of the Chief to preside at all meetings and perform all
Section 1.
duties appertaining to the office, also to act as chairman of the Business Committee.
Section 2.
Second Chief. In the absence of the Chief, or during a procedure to remove the
Chief the Second Chief shall perform the duties.of the Chief. In the case of vacancy, the Second
Chief is to immediately succeed to the office of Chief, to serve the unexpired term thereof.
Section 3.
focretarv/Treasurer. The SecretaryTreasurer shall be responsible for correctly
recording the proceedings of all meetings of the Miami Council and the Business Committee.
He/she shall make out the order of business and issue all Notices of any such meetings, for the
Chief, and shall have custody of the records and papers of the Tribe, which will be kept in the
offices of the Miami Tribe and which are to be open for inspection by any member of the Tnbe,
by appointment with, and in the presence of the Secretary/Treasurer.
The Secretary-Treasurer shall keep a correct list of all members of the Tribe and shall
authenticate all accounts or orders of die Miami General Council and, in the absence of me Chief
and Second Chief, shall call such meeting to order until a diairman pro tern is selected. He/she
shall be responsible for receiving all monies of the Council, and to deposit funds in a National
Bank(s), where ever the Tribe deems necessary for banking purposes, and keeping an accurate
account of all receipts and disbursements, and shall post a Surety Bond satisfactory to the
Business Committee, to be paid out of Tribal monies.
The SecrciaryTreasurer shall cause to be rendered an audited report, at each Annua) Meeting of
the General Council of the financial condition of the Tribe and each subsidiary thereof. And at
die expiration of temi of office, shall turn over all records and papers in his/her possession to the
successor of the position or to the Miami Business Committee.

-7-

ARTICLE XVIII....QUALIFICATIONS OF OFFICERS
Any person elected to any office or committee of the Miami Tribe shall be no
Section 1.
less than twenty-one (21) years of age, a member of the Tribe and shall reside within a fifty (5 C)
mile radius of Miami, Oklahoma, Any such member who no longer resides in a 50 mile radius of
Miami, Oklahoma shall automatically be removed from office.
Section 2.
No person who has lost his/her right to vote in Tribal, State or Federal elections,
because of being convicted of a felony, or other crime involving moral turpitude shall hold any
elected position within the Tribe and shall not be a candidate for an elected position within foe
Tribe, unless the person so convicted shall have been pardoned or have had his or her civil rights
restored.
ARTICLE XIX....MEETINGS
Section \
Annual meetings of foe Miami Council shall be held on the first Saturday in July
each year’ or as otherwise advised by foe Business Committee in the Notice of Meeting, for foe
purpose of receiving reports and transacting such other business as may come to the meeting for
consideration of the Council.

shall be waived.

The Business Committee shall hold regular meetings on the second Tuesday of
Section 4.each month;, without need for notice, unless otherwise provided by Resolution of the Comm.ttee.
Special meetings of the Business Committee may be called by the Chief at his
Section 5.
and
shall be called by him upon the written request of three (3) members of foe
discretion,
Business Committee.
Section 6.
Unless otherwise appointed in the call or notice, all meetings of the Miami
Council and any Tribal Committee shall be held at the Tribal Administrative Complex m Miami,
Oklahoma. If such meeting is to be held at another location, it will require a vote of no less than
three f3) members of the Business Committee to make the change.

-8-

79

ARTICLE XX..*,NOTICES
Whenever any Notice is required by these By-Laws to be given, personnel notice is not meant,
unless expressly stated, and any notice so required shall be deemed to be sufficient if given oy
depositing the same in the U.S. Mail, postage prepaid, addressed to the person entitled thereto, at
his given address as it appears on the membership records of the Tribe. Such notice shall be
deemed to have been given on the date of mailing.
ARTICLE XXI....ACTION WITHOUT MEETING
Whenever the vote of Business Committee members, at a meeting thereof, is required or
permitted to be taken in connection with any action, the meeting may be dispensed with, if all
members who would have been entitled to vote shall consent in writing to any such ac on
g
taken.
No Business Committee member may vote except m person, provided that BusinessCo™^:
members may participate and vote in a meeting by means of conference tiMunus °r *****
can
communications equipment whereby all persons participating and voting during die
hear each other, and participation in such meeting in such manner shall constitute presence m
person at such meeting.
ARTICLE XXH....QUORUM
Twenty-five (25) members of the Miami General Council shall be required to
Section 1.
constitute a quorum to transact regular business.
Three (3) members of the Business Committee shall be required to constitute a
Section 2.
quorum to transact business for the Tribe.
Section 3.
Three (3) members of the Grievance Committee shall be required to constitute a
quorum to transact any business of the Grievance Committee.
ARTICLE XXIII....OFFICES
Section 1.
The primary
Miami. Oklahoma.

administrative offices of the Miami Tribe shall be maintained in

Section 2
The Miami Tribe of Oklahoma may have other offices, either within or without
fhc State of Oklahoma, at such places as the Business Committee may appoint or busmess may
require.
ARTICLE XXIV....COMPENSATION
Tribal members having been elected to any office may reccve a salapr for then£™es
capacity or as members of any committee, as may from time to time be aPProve^pthe Bu“ineS
Committee, and shall receive a fixed fee for attendance at any such meetings thereof.

-9-

80
' ■ v

ARTICLE XXV....DISTRIBUTIONS
Subject to any provisions of the Constitution, the Business Committee may declare a distribution
of fbnds of the Tribe, to its members, consistent with Federal Law,

ARTICLE XXyi....ADOPTION
This Constitution and By-Laws shall be effective when approved by the Secretary of the Interior
and adopted by a majority vote of the qualified voters, of the Miami Tribe voting at an election
called bv the Secretary of the Interior under regulations which he may prescribe pursuant to
Section 3 of the Oklahoma Indian Welfare Act of June 26, 1936: Provided, that at least 30
percent (30%) of the eligible voters vote in such election.

-10-

..X,„

CERTIFICATE OF APPROVAL
1, Deborah Maddox. Acting, Deputy Commissioner of Indian Affairs, by virtue of the authority
granted to the Secretary of the Interior by tire Act of Juue 26, 1936 (49 Stat. 1967), and delegated
to ms by Secretarial Order 3150 and subsequent Orders, do hereby approve the Constitution of
the Miami Tribe of Oklahoma, This Constitution is effective as of this date; PROVIDED, That
nothing in the approval shall be construed as authorizing any action under this document that
would be contrary to Federal law.
Aoting Deputy Commissioner of Indian Affairs
Washington, D. C.
Date: FEB 22 1996

CERTIFICATE OF APPROVAL
1, Jeanette Hanna, Regional Director, Eastern Oklahoma Region, Bureau of Indian
Affairs, Department of the Interior, by virtue of the authority granted in the Act of June
26, 1936 (49 Stat. 1967), aid under the authority delegated by 209 DM 8.1, 209 DM
8.4A, 230 DM l.i, and 3 IAM 4.4, do hereby approve Amendment No. 1- to the '
Constitution of the Miaini Tribe of Oklahoma. PROVIDED, that nothing contained- in
this approval shall be construed as authorizing any action under this Constitution that
would be contrary to Federal law.

Date:

3-i-ol

Rcjponad Director
Eastern Oklahoma Region
Bureau of Indian Affairs
3100 W. Peak Blvd.
Muskogee, Oklahoma 74401

CERTIFICATE OF RESULTS OF ELECTION
Pursuant to a Secretarial Election authorized by the Eastern Oklahoma Regional Director
on September 11, 2007, delegated to the Director, Bureau of Indian Affairs, by the Act of
June 26, 1936 (49) Stat. 1967, rcdelegated to the Regional Director by 130 D.M. and
Bureau of Indian Affairs Policy Memorandum dated October 11, 2006, the attached
Constitution Amendment of the Miami Tribe of Oklahoma was submitted to the qualmed
voters of the Tribe on February 1, 2008. Proposed Amendment (A) was duly
r?SlQ)reiccted by a vote of 165 for and 41 against, and l cast ballots found soiled or
^Sd. At least thirty (30) percent of the 335 mcmbcrs entitled to vote, cast tiunr
ballot in accordance with the Oklahoma Indian Welfare Act of June 26,1937, and Article
XIII of the Tribe’s Constitution.

Paul Yates Chai

of the Election Board

iarbara Mutlin, Election Board Member

Juli rttonfEI

ion Board Member

Date of Election
February 1,2008

84

STATEMENT OF THE FACTS

In a letter presented to the Sanilac County State Court dated July 2, 2014, Elizabeth
Armbruster, counselor to MS and JS, addressed Judge Ross or who it may concern. In her letter,
Ms. Armbruster outlined her therapy sessions with MS and JS stating,
... [MS] said numerous times that her mother would be hurt ifshe told... she has been “bad
touched” by someone, but was too afraid to tell [the counselor] who...she drew a picture
of the person who she had said “poked me in the butt and vagina”... The person she drew
and then scribbled out with black crayon was her father’s face, also with a vagina on the
picture.
Ms. Armbruster’s letter continues to address MS’s recount of a visit she had with Derek in
which MS said her father asked to see her “private parts”. MS said she “ignored him and ran
outside” to where her brother and uncle were in the yard playing baseball. The counselor said that
after speaking with JS, the events seemed accurate. The letter concludes by saying,
... it is my professional opinion that until there is 100% certainty this has not and will not
happen to MS, if there is visitation with MS and JS Shaw’s father, Derek Shaw, the
visitation should be supervised (transcripts, p.5-34; DOR.^6).
Despite MS’s continued disclosures, she was repeatedly sent back to have visitation with
Derek by Sanilac County DHHS, the Croswell Police Department, and the Sanilac County Circuit
Court who were all repeatedly informed of MS’s disclosures. The complaints continued because
visitations between Derek and MS were allowed to continue.
Expert witness, Dr. Suzette Walker, testified that MS was brought into her office on
September 11, 2014 for a complaint of painful urination. A urine specimen was collected at the
doctor’s office and the urinalysis showed blood in MS’s urine without any other abnormalities
such as bacteria or infection (transcripts, p.35-50; DOR |7). MS told her the pain started at her

85

father’s house when he put his finger in her vagina. Dr. Walker did an external exam and MS’s
genital area was red, swollen and open (transcripts, p.35-50; DOR1|7). Dr. Walker contacted Child
Protective Services and instructed Elizabeth to take MS to McKenzie Hospital (transcripts, p.3550; DOR |7).
At the hospital, MS was given a random urine test. The urinalysis also showed blood in
MS’s urine without any other abnormalities or infection (transcripts, p.35-50; DOR |7). After the
emergency room doctor conducted an external exam of MS and took photos, he stated that they
needed to get someone tonight and his report included a referral for a forensic interviewer. After
MS underwent two doctor examinations and disclosed the abuse she suffered, DHHS and CPD
arrived at the hospital and separated MS from Elizabeth. DHHS and CPD interviewed Elizabeth
at the hospital for over an hour while MS was in a hospital bed. When DHHS and CPD concluded
the interview, MS and Elizabeth were released to go home. JS was on a visitation with Derek at
the time. Neither officer Erik Wurmlinger or caseworker Kris Kreuger retrieved JS from Derek or
filed a petition with the court.
On September 12,2014, the Consent Judgment of pivorce was filed in State Court before
District Court Judge, Gregory S. Ross (DM, 83). Prior to court, Elizabeth informed her attorney,
Timothy Wrathell, of the CPS complaint the night prior. Mr. Wrathell said that without a medical
report, he could not bring it up in court. Mr. Wrathell then said that if we postponed the entry of
the Judgment of Divorce, it would be risking having Judge Ross throw out our entire divorce like
Judge Teeple did in February 2014 to the first divorce case that Elizabeth initiated in 2013 which
resulted in having to start the entire divorce process over again from the very beginning. Elizabeth
did not want to risk this happening so she followed her attorney’s advice.

After DHHS and CPD still required MS and JS to attend visitations with Derek after the
September 11,2014 complaint and medical report, Elizabeth contacted the Children’s Ombudsman
for the State of Michigan who instructed her to file an emergency exparte motion with the court.
Elizabeth attempted to file the emergency exparte motion on September 25, 2014, but did not
draft the prepared order properly that must be provided, so instead, the motion was set for hearing
on October 15, 2014 (DM, 90).

On September 30, 2014, Elizabeth returned with a proper

emergency exparte motion that was accepted for filing. Judge Ross denied the motion. On
October 15* 2014, at a hearing on a motion to change custody due to Derek sexually abusing MS
with supporting physical evidence in the abnormal medical report, guest judge, Honorable Michael
Higgins, immediately ordered Derek’s parenting time limited to supervised with MS and ordered
a FOC evidentiary hearing (DM, 98). While on the courtroom break to decide on a supervisor for
visits, Derek and Elizabeth made arrangements for MS to be picked up since it was Derek’s
parenting time, MCR 2.6051.
On October 17, 2014, Derek’s attorney filed a motion for relief from judgment and also
filed the prepared order and submitted it on the 7-day rule (DM, 101), MCR 2.605. Elizabeth filed
a response to the motion (DM, 105). No objections were filed to the prepared order. At the hearing
on October 29,2014, Judge Ross ruled the motion for relief was premature because the order was
not entered yet, but Derek and Elizabeth were expected to follow the order. With the 7 days
expired and no objections filed, Judge Ross, was already presented with the prepared order, but
said he did not find it to comply with Judge Higgins’ ruling so he would have it scheduled for a

11 Declaratory Judgment.

settlement hearing (DM, 104). Settlement for entry of the October 15, 2015 was scheduled for
November 26, 2014 (DM, 109).
After the evidentiary hearing date was set, Elizabeth prepared her witness subpoenas.
Elizabeth asked her former attorney, Mr. Wrathell to sign them for her, but he declined. Since
Elizabeth is not an attorney, she could not sign them herself and the court clerk told her she was
not able to sign them either so they had to left with the clerk and wait for Judge Ross to sign them,
MCR 2.506(B)(1). Judge Ross signed Elizabeth’s ten subpoenas on October 30,2018 (DM, 108).
Evidentiary hearings began on November 6, 2014. Prior to the hearing, Referee Shelly
Smith announced the hearing would only be a half day hearing rather than a full day hearing as it
was originally scheduled (DM, 102).
At the top of the November 6, 2014 hearing, Referee Smith admitted that despite the
referral order from Judge Teeple and despite the modified parenting time order entered on October
15, 2014, she did not think it was necessary to review child support because that would only be
necessary if there was a change in custody or parenting time.
... signed an order referring the issues, it actually says custody, parenting time and support
but I think really just the issue of custody and parenting time probably. I guess support if
something were to - if parenting time or custody changes and that was based on a motion
filed by Ms. Shaw, a motion to change custody and Judge referred that matter here today
for Referee hearing, (transcripts, p.3| 17-24).
Referee Smith disobeyed the Court’s order and did not review child support. When
reviewing custody and parenting time, Referee Smith limited Elizabeth’s proofs and restricted
witness testimony to events, observations, and contacts since September 12, 2014 when the
Judgment of Divorce was entered despite MCL 722.27(l)(c) which allows for a change in custody
due to “proper cause” or a “change in circumstances” (transcripts, p.9^[18-p. 10^12).

88

Testimony at the November 6, 2014 FOC evidentiary hearing included expert witness,
Elizabeth Armbruster, counselor for MS and JS. Ms. Armbruster testified MS has disclosed sexual
abuse by her father to her using words, drawings, a good touch/bad touch coloring book, and play
therapy (transcripts, p.5-34; DOR^f6). Ms. Armbruster’s testimony authenticated her letter to the
court dated July 2, 2014 outlining her therapy sessions with MS and JS. Ms. Armbruster, testified
that she held up a stuffed animal and asked MS to show her what she meant by “poke”. MS turned
the stuffed animal around, lifted up its tail and poked it (transcripts, p.5-34; DOR1J6).
Also, 6n November 6, 2014, expert witness, Dr. Suzette Walker, testified that MS was
brought into her office on September 11, 2014 for a complaint of painful urination. A urine
specimen was collected at the doctor’s office and the urinalysis showed blood in MS’s urine
without any other abnormalities such as bacteria or infection (transcripts, p.35-50; DOR \1). Dr.
Walker testified that MS told her the pain started at her father’s house when he put his finger in
her vagina. Dr. Walker did an external exam and MS’s genital area was red, swollen, and open.
Dr. Walker testified the blood in MS’s urine is consistent with the trauma described by MS of
Derek putting his finger in her vagina because urine picks up blood as it passes through the trauma
i

(transcripts, p.35-50; DOR |7). Dr. Walker contacted Child Protective Services and instructed
Elizabeth to take MS to McKenzie Hospital. At the hospital, MS was given a random urine test.
The urinalysis also showed blood in MS’s urine without any other abnormalities or infection
(transcripts, p.35-50; DOR^f7).
The hearing was adjourned on November 6, 2014 without a scheduled date to continue.
An order of adjournment was entered on November 10,2014 specifically indicating the
November 20, 2014 hearing would be a half day hearing (DM, 111). Two days later, on
November 12,2014, the Order of Adjournment providing the hearing date was mailed (DM, 112).

89

By time Elizabeth received the hearing date in the mail, she only had three business days to fill out
her witness subpoenas, have Judge Ross sign them, and serve them, so Elizabeth filed a motion
with the court asking to adjourn the hearing, but on November 19,2014, Judge Teeple denied her
request (DM, 119). At the hearing on November 20,2014, Elizabeth’s witnesses did not appear.
Elizabeth informed Referee Smith that she only had three business days of notice for the hearing
(transcripts, p.4^5-8) and had to wait for Judge Ross to sign her subpoenas which were not
available for her to pick up until the day before the hearing (transcripts, p.5^20-21) (DM, 113).
Even if Elizabeth was able to serve her subpoenas the same day, the witnesses would not be legally
bound to appear for the hearing, because MCR 2.506(C)(2) requires two days of notice. Referee
Smith said that she could not adjourn the hearing (transcripts, p.4^f5-8). Elizabeth said that Officer
Wurmlinger was aware he was expected to testify and that Chief Hall also said he would be at the
hearing (transcripts, p.6^|15-17). When Elizabeth requested an opportunity to recall her witnesses,
Referee Smith said she could not (transcripts, p.7|2). Referee Smith said she could not stop the
hearing to wait for Elizabeth’s witnesses to show up (transcripts, p.7^|8-10). Elizabeth asked for a
courtroom break to try and call her witnesses, but Referee Smith refused her that opportunity.
Referee Smith also informed that she told Officer Wurmlinger when he phoned the FOC that he
did not need to appear for the hearing. These portions are missing from the transcripts, but are
available on the audio (DM, 118). Elizabeth had no other choice, but to rest her argument
(transcripts, p.7^18-19). Derek rested without calling any witnesses as admitted by Referee Smith
(transcripts, p.8^|2-3). “From the bench”, Referee Shelly Smith challenged the ruling of Circuit
Court Judge Michael Higgins and immediately entered a recommendation (DM, 120) for both
children to have parenting time with Derek despite expert testimony (transcripts, p.5.-34)
(transcripts, p.35-50).

I feel that based on the evidence that was presented, Ms. Shaw, 1feel that you failed to
establish by a preponderance of evidence that either proper cause or change in
circumstances exists. So it's my recommendation that your motion regarding custody be
dismissed for failure to establish those - one of those two factors. It is further my
recommendation that the -1 believe and this really isn 7 probably my place to say this - but
I believe that the order that was entered by Judge Higgins was inappropriately entered.
He did not take - he talked to the parties but he did not take testimony and he did not make
any findings so, ultimately, Judge Ross will make that decision, I guess, on Wednesday
about whether or not that order should be entered but it is my position that the order should
not be followed at this point in time. However, 1 think until you have your day in front of
Judge Ross I'm not sure how that's going to happen but it's my recommendation and I'll
put in the recommendation that the previous order contained in the Judgment of Divorce
be reinstated (transcripts, p.!7|4-21).
At the close of the hearing, Referee Smith contradicted the limitation she repeatedly
enforced throughout the hearing when she admitted her knowledge of MCL 722.27(l)(a), ...Ms.
Shaw, Ifeel that you failed to establish by a preponderance of evidence that either proper cause
or change in circumstances exists (transcripts, p. 17^f4-21). For a change in custody, the standard
of proof is “clear and convincing” MCL 722.26a(2), MCL 722.27a(2), but Referee Smith
specifically referred to a “preponderance of evidence” which is the standard of proof needed for
DHHS to file a petition, which the Children’s Ombudsman was looking for. Referee Smith further
admitted that Judge Higgins “entered” his order modifying parenting time, she didn’t think the
order should be followed, and Judge Ross would make that decision at a hearing on Wednesday,
MCR 2.605.
Judge Higgins literally said during the October 15, 2014 hearing that the purpose of the
FOC evidentiary hearing was to see if we can get the boy included. Unfortunately, transcripts of
the hearing do not reflect this statement. The same transcriptionist, the Judge’s secretary, Leslie
Hilgendorf, has erred on another occasion when preparing transcripts. Ms. Hilgendorf erroneously
listed Elizabeth on the cover page of the abuse neglect hearing transcripts, to be seen through the

91

clear plastic cover, as a respondent parent and did not list Derek until the following page. This
transcript was provided by Judge Teeple during the September 25, 2019 hearing in the abuse
neglect case. Following the hearing, Elizabeth e-mailed the Judge’s secretaries, Ms. Hilgendorf
and Ms. Baldwin, as well as, Mr. Lepley, informing the three of them of this mistake. Mr. Lepley,
Elizabeth’s then attorney, took no action. Ms. Hilgendorf provided corrected cover sheets to the
transcripts accompanied by a letter admitting her mistake.
At the November 26, 2014 hearing, Judge Ross signed the modification order from the
October 15, 2014 hearing after the additional term that Pastor Barry Sheldon would supervise the
visits was handwritten on the prepared order (DM, 121).
Attempting to meet the requirements to request a deno vo review of the FOC evidentiary
hearing, Elizabeth requested transcripts from the FOC. The Friend of the Court, Ann Mroczek,
quoted Elizabeth roughly $400.00 to transcribe the half day hearing on November 6, 2014.
Elizabeth would also need transcripts of the November 20, 2014 hearing for a deno vo review
which would increase the price. On December 10, 2014, Elizabeth filed a motion requesting to
prepare transcripts by a non-certified transcriptionist pursuant MCR 8.108(G)(1)(c)2 because she
could not afford to have them prepared by the FOC, but Judge Ross denied her motion (DM, 125).
Months later, Ms. Mroczek only charged Elizabeth $258.30 for transcripts of both FOC hearings.
Following Referee Smith’s referral, the order signed by Judge Ross on December 15,2014
was on a court form. The box was checked for the motion to be dismissed and for the prior order
to remain in effect (DM, 127). The order did not indicate what the prior orders were. To Elizabeth,

2 MCR 8.108(G)(1)(c) allows for an indigent party to transcribe and file depositions taken by video or audiotaping
by a person who is not certified pursuant to this rule.

the prior order was the November 26, 2014 order modifying parenting time with MS and the
Judgment of Divorce.
Despite Croswell-Lexington schools having the court orders, they allowed Derek to pick
MS up on Wednesday, January 21,2015. Elizabeth was also at MS’s school to pick her up, but
Derek was already walking to the car with both kids. Elizabeth ran over. Principal Collette Moody
took MS out'of Elizabeth’s arms. Ms. Moody then handed MS to another school administrator
and instructed her to put MS in Derek’s car while Ms. Moody blocked Elizabeth. The other
administrator did as Principal Moody instructed and Derek drove away.

1

The next day, January 22, 2015, Elizabeth went to the school to speak with Ms. Moody.
She told Elizabeth that Derek provided her with a court order signed by the judge that was more
current than hers. Elizabeth told her she had no knowledge of the order and asked to see it. Ms.
Moody would not allow Elizabeth to see the order and told her she was “content” with what Derek
provided her. Ms. Moody then invited Elizabeth into her office to continue the conversation more
privately presumably because the school secretary was at her desk and was able to hear. While in
her office, Croswell police officer Ken Western walked in. Elizabeth was unaware that Ms. Moody
had called him. Elizabeth told both of them that she did not have the order they said Derek
provided that allowed him to take MS. Officer Western called the FOC and spoke with Ann
Mroczek, the Friend of the Court. Officer Western relayed that Ms. Mroczek confirmed there was
a more current order and put his cellphone on speakerphone. Elizabeth asked Ms. Mroczek the
date of the order and she said she didn’t have it in front of her to tell me, but that there was a more
current order. Officer Western then asked Ms. Mroczek if Elizabeth could go up to the court and
receive a copy. Ms. Mroczek said Elizabeth could at any time. Officer Western threatened
Elizabeth that she could be arrested for trespassing on school property because Ms. Moody said

93

she asked her to leave the day before. Ms. Moody did not ask Elizabeth to leave. Officer Western
also told Elizabeth that they are trying to bring child abuse charges against her. It should be noted
that at this time, Officer Western’s wife was the superintendent of Croswell-Lexington schools.
Elizabeth left the school and went to the courthouse. The clerk informed Elizabeth that
there were not any custody orders entered after hers. Elizabeth went down to the FOC and was
told Ms. Mroczek was "on the phone" and could not speak with her. Elizabeth said that since the
courthouse was closing in 15 minutes, she would wait in the hallway in case Ms. Mroczek finished
her call. As Elizabeth waited, three police officers arrived (City, County, and State) because Ms.
Mroczek called them to have Elizabeth removed. The police asked Elizabeth if she was asked to
leave and Elizabeth said that she was not and that she was just waiting for Ms. Mroczek to get off
the phone. Elizabeth began to tell the three police officers what she needed help with. They cut
Elizabeth off and would not listen to her. They said they didn't want to hear about it and were not
going to deal with that issue.
The following morning, January 23,2015, Ms. Mroczek called Elizabeth and said that the
November 26, 2014 order was a temporary order and is no longer in effect. Elizabeth disagreed
and Ms. Mroczek said she was not willing to discuss it further. Elizabeth asked Ms. Mroczek why
she called the police and said that she asked Elizabeth to leave. Ms. Mroczek said I know you
weren't asked to leave but I didn't want you to try and talk to me when I was trying to leave for the
day.
Acting on advice, Elizabeth drove back up to the courthouse and asked for the case register
of actions and the most recent custody order. The clerk printed the case register of actions, the
December 15, 2014 order, and the November 26, 2014 order. Elizabeth called the school and told
Ms. Moody that the court did not have a more recent order and that she could provide her with

documents from the court. Ms. Moody again said she was "content" with what she had from Derek
and told Elizabeth not to call again.
Elizabeth then called CPD and spoke with Chief Hall. Elizabeth explained the scenario to
Chief Hall and that if Derek was allowed to pick MS up again today, he would have her for the
weekend. Chief Hall would not offer Elizabeth any assistance and threatened to arrest her if she
went to the school.
Elizabeth went to the office of the City Manager, Sam Moore, to show him the court papers
since the school arid the police would riot look at'them. Elizabeth went into' the City Building at
2:45 and when the woman called the City Manager, he said he would not be available until at least
3:05. Not to be confused with coincidence, MS's school day officially ends at 3:05, but if you pick
your child up, they are usually ready by 3:00.
Following this visitation that ended on January 26,2015, MS did not want to go to school
because she was afraid Derek would pick her up. Her fear was real. Under these conditions,
beginning January 27,2015, Elizabeth did not force MS to go to school and excused her absences.
For this, Ms. Moody contacted the truancy officer and initiated proceedings. On January 30,
2015, amongst other things, Chief Hall called Elizabeth and told her that she had to take MS to
school. When Elizabeth dropped MS off at her school, the secretary told Elizabeth that Ms. Moody
wanted her to go over to the other school to meet with her. When Elizabeth pulled into the parking
lot and stepped out of her car, she noticed two police cars had pulled in behind her. Chief Hall
and Officer Western got out of their cars. Chief Hall proceeded to arrest Elizabeth and asked if
she knew what she was being arrested for. Elizabeth told him that she did not. Chief Hall told
Elizabeth that she was being arrested for trespassing on school property. Chief Hall took Elizabeth
to the Sanilac County jail and she was locked in a cell.

David Heyboer, Elizabeth’s criminal defense attorney, told her the November 26, 2014
order was not in effect, but he could understand how a lay person would think it was. Mr. Heyboer
told Elizabeth to follow the custody orders in the Judgment of Divorce or she could expect to be
arrested again on a Friday so they could leave her in jail until arraignment on Monday. Elizabeth
was also told to expect for the arrest to happen when the kids were with her. Mr. Heyboer
repeatedly tried to get Elizabeth to accept a plea deal from the prosecutor, but she would not. This
caused even more court dates and attorney fees. Elizabeth provided Mr. Heyboer with the audio
recordings from the audio recorder she was wearing during the days resulting in her arrest and the
day of her arrest. Elizabeth was not lying, they were. Many weeks later and after the NA case was
transferred to tribal court, Mr. Heyboer told Elizabeth they were not going to drop the charges so
she had to plead no contest to trespassing and in six months the charges would be off her record.
Judge Ross was Elizabeth’s sentencing judge. Elizabeth followed the advice of her attorney.
DHHS and the Tribe arranged for the entire family to have a comprehensive family
assessment done by the Family Assessment Clinic in Ann Arbor.

This included forensic

interviews, psychosocial testing and psychological testing spread across multiple appointments
with the team. The service agreement was signed by DHHS, the Family Assessment Clinic, and
the Tribe on January 26,2015 (ROA, 7). The FOC awarded Derek make-up parenting time on
January 30,2015 (DM, 131). On February 4, 2015 Derek informed that he would be using his
make-up parenting time (DM, 143). This timing resulted in Derek having both kids for nearly two
weeks straight prior to the forensic interviews. Although Derek was informed about the interviews
at the time they were scheduled, Elizabeth was only informed by DHHS two days prior. DHHS
allowed Derek to take the kids to the interviews on February 19, 2015 and February 20, 2015.

Derek’s hotel room and gas were also paid for. Due to disclosures, Dr. Faller informed that they
could not allow the children to leave with Derek.
Dr. Faller’s February 24, 2015 report and supporting expert testimony to follow, stated
that a six-year-old in an unsafe situation should not be expected to make a detailed disclosure in
order to be protected (NA1, 19;NA2, 18).
[MS] disclosed that her father, Derek, has touched her bottom, “on top” of her clothing,
but then stated “sometimes on top” of her clothing. She reported “I can feel it” and “it
hurts”. As to what he touches with, she said “his hands”. [MS] disclosed that this has
happened “more than once”. Shereported “he still does it”. [MSJreported “her dad acts
like everything is ok and is acting life nothing happened. He tells everyone that her mom
is lying and she is lying, but he is lying”

Dr. Faller also reported and testified that DHHS did not provide the Family Assessment
Clinic with Dr. Walker’s medical report and she did not understand why the medical evidence was
not given weight by DHHS (NA 1,19; NA2, 18).
In response to the allegation by DHHS and Derek that Elizabeth has possibly coached MS
into making the allegations of sexual abuse, Dr. Faller reported that coaching is more common by
offending rather than non-offending caregivers,
research indicates that coaching to make a false allegation ofsexual abuse is uncommon.
Moreover, coaching is more common by offending than non-offending caregivers (e.g,
Trocme & Bala, 2005). The assumption that non-offending caregivers foster false
allegations of sexual abuse in divorce situations is not supported by research, but rather
is driven by the accused and their advocates. / would add that the mother’s presentation,
in this case, and her prior responses to DHS and law intervention are consistent with
believing her child has been sexually abused and not consistent with a mother’s attempt to
program her child (Id.).

Expert witness Dr. Faller testified that MS disclosed being sexually abused by her father
to her during a forensic interview and also to Dr. Toplyn during her psychological exam. Dr. Faller
agreed with the entire team that there is at least clear and convincing evidence that Derek has

sexually abused MS repeatedly. Expert witness, Dr. Faller, reported and testified that it is a
betrayal for MS to be sent back to her father after repeatedly disclosing to multiple professionals
and that visitation for both children should be suspended (DOR, ^4).
On March 3,2015, DHHS caseworker, Jennifer Showers and the Sanilac County 12initial
CPS complaint (COA, Vl.6-83). According to Michigan’s Child Protection Law, a petition is
required to be filed if the abuse meets the standards of Category 1. Category 1 means CPS found
evidence of child abuse, the child is not safe, the abuse was very serious and at that time, DHHS
is to add the respondent’s name to the statewide Child Abuse and Neglect Central Registry for life
because the crime is sexual in nature, MCL 722.627 § 7(b). DHHS did not add Derek’s name to
the Child Abuse and Neglect Registry as required by law. In response to said petition, a letter of
support was submitted by the Tribe on March 3,2015 (COA, VI .204-208). Had the petition been
filed on the same day it was signed, a hearing would have been required to be held on
March 4,2015 in compliance with MCR 3.965(A)(2)4.

Instead, the petition was filed on

March 4,2015 and a hearing was held on March 5,2015. With the petition filed, Derek was still
able to exercise his parenting time from March 4, 2015 - March 9, 2015 which allowed for the
children to be with Derek for their interview with the L-GAL that was court appointed by Judge
Ross on March 4, 2015 (NA1, 5; NA2, 5). Four days after the March 5, 2015 hearing and on
Derek’s last day of visitation, an order was entered by Judge Ross on March 9, 2015, allowing
Derek to continue to exercise his parenting time (NA1, 7; NA2, 7)5. With this timing, paperwork
wise, in the NA case, Judge Ross did not allow the visitation to occur until after it was over.

3 Not listed on Case Register of Actions.
4 MCR 3.965(A)(2) -Time for Preliminary Hearing...Sexua!ly Abused Child. The preliminary hearing must commence
no later than 24 hours after the agency submits a petition or on the next business day following the submission of
the petition.
5 Date listed on Case Register of Actions is different than file stamped date.

98

ICW, Callie Lankford, filed a Motion for Intervention in the NA case on March 17, 2015
requesting the state court grant the Tribe the right to participate in theNA case, 25 USC § 1911(c);
MCL712B.7(6)(NA1,18;NA2,17). Following the fact-finding hearing held on March 17,2015,
Judge Ross entered an order on March 18, 2015 in the NA case determining parenting time with
Derek, even if supervised, may be harmful to the children (NA1, 19]}17; NA2, 18^17). The
children were both ordered to remain home with non-respondent mother, Elizabeth Shaw, under
the continuing jurisdiction of the divorce case (NA1, 19^fl 9b; NA2, 18^[19b). The order further
reads that the March’9; 2015 order remains in effect except as modified by this order (NA 1,19|24;
NA2, 18^[24). The NA case has taken judicial notice of the divorce case (NA1, 7; NA2, 7)6 and
the DM case has taken judicial notice of the NA case (transcripts, p.7^23-25).
On March 24, 2015 at 8:36am, on behalf of the Tribe, ICW filed a motion to transfer the
NA case to tribal court in Oklahoma pursuant 25 USC § 1911(b) (NA1, 28; NA2, 24). At this
time, Judge Ross had not entered an Order granting the Tribe’s motion to intervene. At 9:49am
on March 24,2015 Judge Ross entered an order granting the Tribe intervention finding no good
cause exists to deny the motion, (NA1,27; NA2, 23). Also, at 9:49am on March 24,2015, Judge
Ross entered an Order of Transfer without a hearing and without parties having an opportunity to
respond even though a hearing was already scheduled for 10:00am that day. In the hallway, prior
to the March 24, 2015 hearing, Ms. Lankford informed Elizabeth that Judge Ross already agreed
to transfer the case. Based off of what Ms. Lankford said, Elizabeth’s attorney, Mr. Whitesman,
felt Judge Ross did not want this case and it would be a bad situation for the kids and Elizabeth
not to agree to transfer. Risky all around because if Elizabeth didn’t agree to transfer, it could

6 Date listed on Case Register of Actions is different than file stamped date.

upset the Tribe to whom the case was already transferred and if she didn’t agree it could upset
Judge Ross who has the power to make the kids go back to Derek which was daunting when we
finally had an order saying his parenting time was suspended. Elizabeth followed her attorney’s
advice.
Unlike the Order granting intervention, the Order of Transfer did not include a finding that
no good cause exists to deny the motion. The Order of Transfer excessively ordered that legal
custody of the children now resided with Oklahoma DHHS, granted ICW the authority to place
the children, and said the children were to remain wards of the court (NA1, 29; NA2, 25). Said
terms were not addressed in the Tribe’s motion for transfer (NA1, 28; NA2, 24) or at any point
during the hearing that was held later that day (transcripts). The children were not “wards” of the
court and Elizabeth is a non-respondent. See In re Sanders. See also Troxel v. Granville.
Elizabeth was not provided with a copy of this order.
At the hearing held following the entry of the Order of Transfer, Elizabeth still was not
aware of the terms decreed in said Order of Transfer. From the Court Recorder’s notes, it is clear
that Elizabeth is a non-respondent and the signed order had not been provided to the parties, [the]
Referee informed the parties that the Court will sign the order as soon as presented and Ms.
Langford [sic] will prepare order (COA, V1 .p.61). The date on the court recorder’s notes reflect
March 17, 2015; however, it was actually March 24, 2015. An entry was already provided for
March 17, 2015 in the court recorder’s notes (COA, Vl.p.60).
Also, on March 24,2015, the tribe filed a petition in tribal court to accept transfer of
jurisdiction of the case. The tribal judge, Judge Tripp, entered an order accepting transfer of
jurisdiction declaring the following terms; the children were now wards of the tribal court, the tribe
had legal custody of the children, ICW had the power to place the children with Elizabeth Shaw,

100

and the tribe| was authorized to consent to any necessary and appropriate emergency medical,
dental or health care needs of the children. Elizabeth was provided with the petition and order at
the same time (NA1, 30,31;NA2,26,27). There was not opportunity to respond to the petition and
the order was entered absent a hearing. Elizabeth did not forfeit her legal custody of the children
or her physical custody of the children at any point in state court or in tribal court.
In tribal court, to begin the adjudicatory hearing process in accordance with CC§ 1.27.7,
ICW filed a Minors in Need of Care Application affirmed by affidavit on April 7,2015 (ROA, 7).
At the first hearing held iri'Tribal Court on April 16,2015, the Tribe requested an extension to file
a petition pending receipt and review of the Ann Arbor family assessment report (ROA, 9). CC§27
only requires the Minors in Need of Care application which was already filed, but the Tribe stated
they wanted to review the mental health assessments given Derek’s false allegations that
Elizabeth’s mental health issues are the culprit of MS’s disclosures of sexual abuse (Id). Judge
Tripp ordered Derek not to have contact with the children. The next hearing was scheduled nine
weeks later on June 18, 2018. Following the April 16, 2015 hearing and prior to the June 18, 2015
hearing, ICW1, Ms. Lankford was no longer an employee of the Tribe. Elizabeth was not informed
of this change.
On June 9, 2015, following their investigation and after review of the Ann Arbor reports,
the Tribe filed, Petition to Adjudicate Minor Children Deprived as to Biological Derek Shaw. In
said petition, the tribe specifically admitted they determined not to file a petition against Elizabeth
because there is no information or findings of abuse or neglect related to Ms. Shaw (DM, 201 Ex.A).
At the June 18,2015 adjudication hearing, the Court accepted the petition authored by the
tribe’s attorney general/presenting officer, Robin Lash, admitting that the Tribal Court’s

101

jurisdiction is concurrent with state court, CC§1.2.1 (Id). The completed Ann Arbor reports were
accepted as evidence. Expert witness, Dr. Faller, testified authenticating the reports and the
disclosures made by MS during her forensic interview (ROA, 11-16,20; DOR, ^4). Darold
Wolford appeared as the tribe’s interim ICW. The next hearing was scheduled 7 weeks later on
August 6, 2015.
Following the hearing, Elizabeth requested a court appointed attorney from the Tribe’s
Presenting Officer (ROA, 106). Robin Lash informed Elizabeth that she was not eligible for a
court appointed attorney because her parental rights were not at stake (Id.) On July 27, 2015
Elizabeth’s attorney, Barney Whitesman, filed an appearance.
On August 4,2015 a motion was filed by the Tribe to continue the August 6, 2015 hearing
another 8 weeks later until October 1,2015 (ROA, 22). Elizabeth was not provided an opportunity
to respond to said motion because it was issued with an order that was filed the same day (ROA,
23). This Motion and Order allowed a gap of 15 weeks between hearings.
On August 12, 2015, the Tribe filed a motion for the Court to appoint a GAL (ROA, 24)
and an order was entered the same day appointing GAL, Curt Lawrence (ROA, 25).
On August 18, 2015, Mr. Whitesman filed a motion in tribal court to allow Elizabeth and
the children to move and to change the children’s school (ROA, 26). After repeated e-mailing
between Mr. Whitesman and the tribal court clerk in attempt to secure a brief hearing on the motion
prior to the beginning of the school year, the Clerk emailed on August 25, 2015 that the Judge
informed he would hear the motion five weeks later on October 1,2015.
On September 17,2015, Elizabeth was ordered by Subpoena Duces Tecum to appear with
the kids at the October 1, 2015 hearing so the Judge could meet them for the first time1.

102

At the October 1, 2015 tribal court hearing, Judge Tripp entered an order finding,
“Ultimately, call on whether move is allowed, is up to the Court in Michigan, who has jurisdiction
over the divorce between Derek and Elizabeth Shaw.” (DM, 215-Ex.1). The process was already
delayed by six weeks and now, the matter needed to be addressed in state court. Judge Tripp
ordered supervised visitation to begin for JS with Derek at the request of GAL even though no
evidence was presented to alter the court order suspending Derek’s parenting time (Id). The tribal
code dictates that orders of the state court have the same effect and are subject to the same
procedures as the' orders in tribal court, TC§922. Elizabeth questioned this recommendation and
order. GAL told Elizabeth that the Tribe usually sees it as, what is fit for one child is fit for both
children. Prior to GAL’s recommendation, the state court, based on evidence supporting the sexual
abuse petition, ordered Derek’s parenting time suspended (NA1,19^[17; NA2,117) and the tribal
court entered a no contact order (ROA, 9). Also, at the request of GAL to confirm that Elizabeth
is not psychotic or delusional, the tribal court ordered Elizabeth to undergo a Psychiatric
Evaluation even though after review of the mental health assessments done by the Family
Assessment Clinic, the Tribe determined not to file a petition against Elizabeth (DM, 201-Ex.A).
Mr. Whitesman had four subpoenaed witnesses available to testify. Judge Tripp only allowed one
witness to testify alleging that was all the time available even though it was not the end of the court
day (ROA, 28-31). The Tribe hired Janet Grant as their new ICW. Elizabeth became aware of
and met Jan Grant for the first time at the hearing even though she was hired by the Tribe in
August. Mr. Lawrence is a tribal member of the Seneca-Cayuga Tribe and Ms. Grant worked with
him for the Seneca-Cayuga Tribe prior to the Miami Tribe of Oklahoma. The next hearing was
scheduled 14 weeks later on January 7, 2016.

103

When in state court on October 28, 2015 in front of Judge Higgins for a hearing on
defendant’s motion for change of school, Judge Higgins referred the matter to the FOC for an
evidentiary hearing and directed Mr. Whitesman to file a motion to modify child support in
accordance with the March 18, 2015 suspension of Derek’s parenting time (DM, 175). Counsel
filed said motion on November 9, 2015 (DM, 164). The evidentiary hearing held before Referee
Shelly Smith on November 19,2015 addressed school change, medical expenses, and child
support modification (DM, 161).
Unlike the evidentiary hearings in November 2014 addressing a change in custody due to
sexual abuse when Referee Shelly Smith made her recommendation from the bench, this time
Referee Shelly Smith issued her recommendation on December 10, 2015 after utilizing her
maximum allowance of 21 days (DM, 173). Referee Smith’s recommendation was to allow the
school change, not to require Derek to pay his portion of medical costs, and she opted not to
provide a recommendation regarding child support as the Circuit Court Judge ordered.
In compliance with the tribal court order, on November 11, 2015 Elizabeth underwent a
psychiatric evaluation with adult psychiatrist, Dr. Kimpo. ICW selected Dr. Kimpo and arranged
the appointment. Expert witness Dr. Kimpo testified that mother is not delusional or psychotic
(DOR,1f9).
Absent a motion being filed and absent a hearing being held, on December 7, 2015, the
tribal court entered a supplemental order allowing Derek additional visitation with JS (ROA, 41).
JS’s supervised visits with Derek were significantly increased (Id.). The order also continued the
January 7, 2016 another 4 weeks until February 4, 2016 (Id.). This continuance allowed for a gap
of 18 weeks between hearings.

104

Outside of a motion and a hearing, ICW provided Judge Tripp exparte with Dr. Faller’s
report responding to Mr. Grooters’ report following Mr. Whitesman's objection to its admittance
(ROA, 41). Mr. Grooters was contracted by the Tribe to perform a sexual deviancy evaluation on
Derek (Id.). The Tribe allowed Derek to provide the background information and reports that Mr.
Grooters relied on for his testing. Mr. Grooters did not indicate he was aware of the disclosures
made by MS| or the contemporaneous medical evidence. Instead, it appears from Mr. Grooters’
report that hb took Derek’s allegations at face value that Elizabeth is mentally ill and that she
coached MS to make the allegations '(Id.). There were also discr’ep'ancies'in the information Derek
reported to Mr. Grooters in comparison to what he had previously reported in regard to his
stepfather being physically and emotionally abusive to him as a child and Derek’s sexual
experiences also varied from what he previously reported (Id.). Mr. Whitesman on behalf of
Elizabeth is the only party that objected to the admission of Mr. Grooters’ report. The Tribe, GAL,
nor ICW objected or raised any concerns.
On December 22, 2015, Mr. Whitesman filed a motion for immediate consideration
because ICW made a parenting time schedule for JS with Derek (ROA, 42). ICW provided this
schedule to Elizabeth three days before it was to begin on Christmas Eve. ICW allowed Derek to
select his own supervisor for the visits and did not consult with Elizabeth. ICW informed that the
Judge instructed Elizabeth is to give MS Christmas presents from Derek. The motion notes
objection to the regular communication ICW has with Derek, the exparte communication ICW has
with the Court, and the effect these communications appear to be having on the rulings. Mr.
Whitesman also requested the audio of previous proceedings (Id.). The motion was granted and
the visitations did not occur.

105

In state court on December 29, 2015, Judge Higgins entered an order requiring Derek to
pay the office of Mr. Whitesman $200.00 within two weeks. To date payment has not been made.
On January 26, 2016, Mr. Whitesman filed a motion requesting reports that are not being
shared and an inquiry regarding next hearing (ROA, 45). The tribal court order resulting from the
February 4,2016 hearing falsely stated that Elizabeth did not complete her psychiatric evaluation.
Dissatisfied with the results of the two evaluations showing Elizabeth is not mentally ill, not
delusional, and not psychotic, ICW and GAL requested for Elizabeth to be tested again and the
Judge ordered it with a practitioner of ICW’s choosing. Judge Tripp further ordered more
parenting time for JS with Derek, but not as much as ICW requested. Judge Tripp also ordered
MS to undergo an evaluation with a new counselor of ICW’s choosing. ICW selected Mr.
Rosenberg to evaluate MS.
On April 6,2016, Mr. Whitesman filed an objection and motion to strike Mr. Rosenberg’s
report, as well as other reports (ROA, 57). A second motion addressed Elizabeth’s concerns
regarding parenting time being allowed and that Derek has not completed recommendations and
orders but has been granted unsupervised parenting time by Judge Tripp (ROA, 58). The third
motion addressed ICW preventing Elizabeth from speaking to the evaluator ICW arranged for MS.
There was no disclosure as to what reports the evaluator was provided by ICW causing question
if ICW was looking for objective evaluation or the results she wanted. On April 12, 2016 Mr.
Whitesman was provided with a motion and an order at the same time, to continue the
April 14, 2016 until 5 weeks later on May 19, 2016 (ROA, 60-61). On April 13, 2016, on behalf
of the tribe, Robin Lash, the author of the petition against Derek, filed a motion to expand parenting
time of JS with Derek further allowing unsupervised parenting time. Mr. Whitesman filed a
response to the tribe’s motion expressing concern, requesting testimony from JS’s counselor, and

106

asking for an evidentiary hearing on the matter. Mr. Whitesman filed Elizabeth’s response 42
minutes after being e-mailed the Tribe’s motion only to be informed that the Court already entered
an order (ROA, 67). Judge Tripp’s order granted the Tribe’s motion without allowing an
opportunity to respond and without a hearing (ROA, 62-63). On May 6,2016, Mr. Whitesman
filed a motion for relief from the parenting time order. The motion addressed JS’s report of Derek
abusing the dog and the real concern of irreparable harm with the counselor’s report attached
(DOR)7. The Court was also made aware that the adjournments have resulted in a scheduling
conflict for Dr. Walker to testify regarding her medical report (ROA, 67).
ICW Janet Grant fired JS’s counselor for reporting Derek abused the dog and for sharing
this information with Elizabeth and Mr. Whitesman. On May 16, 2016, Mr. Whitesman filed a
motion regarding ICW terminating JS’s counselor. The motion further addressed impediment of
due process and for discovery and disclosure (ROA, 69). A motion for Relief from Journal Order
was filed by Mr. Whitesman on May 19, 2016 (ROA, 72). Mr. Whitesman filed a Case Review
Hearing Memorandum; summary of hearing and testimony up until this point with relief requested
on May 24,2016.
At the hearing on May 25, 2016, Mr. Whitesman objected to ICW’s case review and the
change in parenting time/custody she sought (ROA, 76). Testimony was heard including that of
expert witness, Dr. Suzette Walker who authenticated her medical report (DOR, ^[7). Heather
Winkler testified she performed a urinalysis on MS Shaw on September 11, 2014 and the urine
tested positive for a moderate amount of blood. Testimony is authenticated by the report and chart
of Dr. Walker (DOR, ^8).

7 Not Entered on Exhibit Log. DOR shows reports are in evidence.

107

Dr. Lemmen, child and adolescent psychologist performed the third round of testing on
Elizabeth. Dr. Lemmen, child psychologist testified that Elizabeth’s results were normal to both
the psychiatric evaluation and the psychological test (DOR, ^10). Dr. Lemmen testified that 1CW
coordinated the appointment and indicated to him that the problem was with Elizabeth, not with
Derek. Dr. Lemmen testified that ICW further directed him that a report was needed determining
what that problem was with Elizabeth (DOR, IflO). Dr. Lemmen reported a possible borderline
personality disorder, but his examination of Elizabeth was normal. Dr. Lemmen further testified
that Elizabeth is not delusional or psychotic (DOR ^10). Dr. Lemmen hired a psychologist to do
a psychological test on Elizabeth. The test results were normal (DOR f 10).
After hearing the testimony, Judge Tripp reinstated JS’s counselor that ICW terminated.
Judge Tripp declared that if he enters an order of Adjudication he will proceed with termination of
Derek’s parental rights and then ordered overnight visitation for JS with Derek, but would not
issue a written order.
Elizabeth provided ICW an update on the children which included JS’s anger, being
physically aggressive, and lying. ICW e-mailed the counselor inquiring and the counselor sent a
report to ICW. ICW provided the report to the Court Clerk. (DOR). Cynthia Willey-King’s
counseling progress report states JS said he was not ready for overnights with Derek yet, that JS’s
anger has been increasing as visitation with Derek has been increasing, that JS claimed Derek
blamed Elizabeth for Derek’s empty promise, and that JS’s stated “they believe me when I lie”.
The counseling progress report also includes a treatment plan (DOR).
At the August 10, 2016 hearing, testimony was heard from Callie Lankford, a qualified
expert witness on child-rearing practices of the Tribe. Ms. Lankford testified that she felt there
was at least clear and convincing evidence that Derek sexually abused MS repeatedly (DOR, ^|5).

108

QEW, Ms. Lankford, testified that there was not any indication that mother was delusional or had
any mental health problems (DOR, ^|5). Callie Lankford’s testimony fulfills the requirements of
25 USC 1912(f). JS’s counselor, expert witness Cynthia Willey-King, also testified. Despite the
tribe’s QEW and the counselor's testimony authenticating her extensive progress report, ICW and
GAL requested for JS to live with Derek. Judge Tripp denied their request but did increase
visitation to include an extra overnight. No written order was issued.
On August 27, 2016, Elizabeth received a FedEx letter from ICW stating ICW and GAL
removed'JS from her care. Oh August 29,2016, ICW filed an Update to the Court explaining
GAL was in full agreement with the removal and her reasoning for removing JS from Elizabeth
was she was exercising her “broad authority...” (DM, 223-App.2). Mr. Whitesman filed amotion
for immediate consideration for the return of JS to Elizabeth on August 30,2016. A hearing was
set for September 6,2016. At the hearing on September 6,2016, Judge Tripp ordered JS returned
back home to Elizabeth. ICW and GAL remained in their positions and were not removed from
the case. Mr. Whitesman requested a written order, but was denied.
Closing arguments were heard on September 28, 2016. After being sworn as a witness,
Judge Tripp questioned ICW Janet Grant. Ms. Grant testified affirmatively that she treats
Elizabeth as though she is the offender and represents her to others as though she is the problem
substantiating Dr. Lemmen’s testimony (DOR, f 14). Judge Tripp asked ICW if she has constant
communication with Derek and if she has communication with JS during all of his court ordered
visits with Derek. Ms. Grant testified that she does not have regular communication with Derek
and that she does not have contact with JS on all of his visits with Derek. Judge Tripp responded
by informing Ms. Grant that he could take her cellphone into custody. Ms. Grant quickly asked
Judge Tripp to “clarify” her testimony. Ms. Grant recanted by testifying that she does have regular

109

communication with Derek and that she does contact JS on all of his court ordered visits with
Derek (DOR, |14). Ms. Grant further testified that if Derek committed the abuse, he should not
have unrestrained access to either child (DOR, |14). Judge Tripp said he would review the case
and issue a decision.
In state court, since Elizabeth did not object to the Referee failing to modify child support
in 2015, a year and a half later, in May 2016, the FOC initiated a standard three-year review by
mailing paperwork.

Elizabeth provided the FOC with the requested income verification

paperwork. Derek failed to provide said paperwork after two requests by the FOC.
In tribal court, Judge Tripp entered a Protective Order against ICW and GAL on
June 28,2017 after it was realized they intended on travelling to Michigan to “interview” JS and
MS for a couple of hours (DM, 201-Ex.E). After experiencing the illegal removal of JS from
Elizabeth by ICW and GAL in August 2016, the Protective Order was a preventative measure to
prevent JS and MS from being kidnapped by ICW and GAL.
In state court, since Derek failed to cooperate by completing the income verification form
requested by the FOC, both parents were ordered to appear for an evidentiary hearing on
July 25,2017 in front of Referee Shelly Smith (DM, 189). At the hearing, Derek again did not
provide the information. Rather than impute his income, Referee Shelly Smith gave Derek another
extension to verify his income.
On September 1, 2017, an updated Uniform Child Support Order was entered using
imputed income for Derek, because he again failed to provide his income verification (DM, 194).
On November 20,2017, an Order was entered for Derek to show cause for not paying child
support (DM, 196). At a December 20,2017 show cause hearing, Derek was found guilty of civil

no

contempt and sentenced to jail which would be held in abeyance if terms of payment were met
(DM, 197).
Elizabeth received a text from ICW on January 18,2018 telling her to call into the hearing.
Elizabeth called in for the hearing and explained that she was at work and was not given notice of
the hearing. During the hearing, it was very difficult to hear. Elizabeth repeatedly asked Judge
Tripp to repeat himself. Both ICW and the tribe’s new presenting officer, Cynthia Burlison, who
was previously Derek’s court-appointed attorney, tried to relay to Elizabeth what the Judge was
saying. The following day, since she could not hear, Elizabeth emailed the court clerk requesting
audio or transcripts. After a week passed without receiving any information, Elizabeth decided to
file a motion to vacate the order, even though she had not received one. After Elizabeth filed the
motion on January 30, 2018, the clerk emailed Elizabeth the Order of Adjudication. The Order
lifted the Protection Order against ICW and GAL, outlined testimony heard, released JS from the
tribal court case, retained MS in tribal court with a disposition plan of reunification with Derek,
and specifically stated, “no change of placement warranted at this time.”
ICW and GAL made a surprise visit at about 7:30pm on February 17, 2018 to Elizabeth’s
home. JS was on a court ordered visit with Derek. They wanted to talk to MS, but MS was at a
sleepover. ICW and GAL insisted Elizabeth take them to the sleepover so they could talk to her.
Elizabeth asked if they could talk to her the following day and they said it had to be that night.
The sleepover was about 40 minutes away and it was snowing. At almost 9:00 pm, MS had to
leave her sleepover to talk with ICW and GAL for 45 minutes. Once they were done talking to
her, Elizabeth took MS back to her sleepover.
On February 18, 2018, GAL, Curt Lawrence, contacted maternal grandmother by phone
to see if she would be willing to take JS and MS to live with her while in joint counseling with

in

Derek. GAL said the placement was necessary due to Elizabeth not wanting reunification of Derek
and MS. Maternal grandmother, Marsha Wetzel told GAL that if the judge ordered it, she would.
GAL said that he and ICW would need to convince the Judge which would take a couple weeks,
possibly a little longer to do. Said statements are affirmed by affidavit of maternal grandmother,
Marsha Wetzel (DM, 223-App.l4-15).
Four weeks after Elizabeth’s motion to vacate, on March 2,2018, Judge Tripp entered an
order vacating the original order of adjudication and scheduled a hearing 6 weeks later on Friday,
April 13,2018 for entry of adjudication. With the order vacated, the protection order against ICW
and GAL was again effective. On March 7, 2018, without a motion filed and absent a hearing,
Judge Tripp entered an order stating the protection order against ICW and GAL was lifted
following a motion filed by Elizabeth. Elizabeth did not file a motion requesting the protection
order to be lifted. The order also said MS was to begin counseling with a “new counselor” of
ICW’s choosing. At the time of this order, MS was still attending counseling sessions with Ms.
Armbruster with whom she had an established therapeutic relationship with for over four years.
Without a motion filed and without a court hearing, Judge Tripp entered an order allowing
Derek to have visitation with JS for half of his spring break that ICW texted to Elizabeth. On
March 27, 2018 Elizabeth received another order from the court clerk dictating JS was to spend
the other half of his spring break with Derek (ROA, 99). The Judgment of Divorce dictates Derek
and I are to divide visitation 50/50 during school vacations.
At the tribal court hearing on April 13,2018, Judge Tripp entered an Order of Adjudication
retaining JS and MS in the tribal court case and adopting the terms of the previous January 18,
2018 adjudication which states, “no change of placement warranted at this time.” According to

112

the Miami Tribe of Oklahoma’s Children’s Code, CC§1.9.5, entry of an order of adjudication
occurs if the evidence meets the “proof beyond a reasonable doubt” standard of proof.
Executing their intent, despite Judge Tripp just ordering no change of placement ICW
and GAL on April 13,2018, who were already in Port Huron, Michigan and attended the hearing
by phone, went to the schools of JS and MS and removed them with the assistance of the St. Clair
County Sheriff’s Department (DM, 223-App.l). ICW and GAL did not have the permission of
Elizabeth or a valid court order authorizing the removal of the children. ICW and GAL proceeded
to “place” JS with'D'erelc and MS with maternal grandmother,' illegally removing the children from
their home with Elizabeth.
The following day on April 14,2018, the St. Clair County Sheriffs Department dispatched
the deputy that assisted the Tribe to Elizabeth’s home and rather than consider what Elizabeth was
telling him, he opted to call ICW and follow her directives. In his report, Deputy Cleland claimed
Elizabeth admitted the tribe has custody of the children. Elizabeth did not. Elizabeth would not
say that. Elizabeth would say, “they say they do, but they don’t.” Elizabeth offered Deputy
Cleland court orders, but he would not accept them. Deputy Cleland said he had the paperwork
he needed from Ms. Grant, but would not provide the paperwork to Elizabeth and the paperwork
was not included with his report (COA, VI. 190-195).
On Monday, April 16, 2018, Elizabeth filed an emergency motion for immediate
consideration in tribal court demanding the return of JS and MS. Elizabeth filed a supplemental
brief to her motion on April 17, 2018. The motion was set for hearing 3 weeks later on May 3,
2018. Also, on April 17,2018, Robin Lash filed a motion to withdraw from the case and an order
granted her withdrawal. April 18,2018, Elizabeth filed a motion for a court appointed attorney to

113

assist her in preparation for the May 3, 2018 hearing (DM, 223-App.4-5). This motion was also
set for hearing on May 3, 2018.
A possible motivation for the explicit trauma inflicted on JS, MS, and Elizabeth, was filed
on April 18,2018 at 8:25am in state court. TheFOC filed a Notice of Abatement of Child Support
after being advised that JS and MS were now living with Derek (DM, 200). The Abatement would
be applied retroactive April 13, 2018.

Rather than initiate enforcement proceedings MCR

3.208(B)8 for violation of the parenting time order, the FOC immediately implemented the
abatement rather than waiting the required 21 days. The child support order that the FOC abated
was a modification to a final judgment. The FOC should not have taken any action without a
motion filed in the divorce case giving Elizabeth an opportunity to contest, MCR 3.210(D)(1)9.
This is the process Elizabeth was ordered to follow and the process the FOC required Elizabeth to
follow (DM, 120,160,173). To not require Derek or the Tribe to follow the same procedure
deprives Elizabeth of her constitutionally protected right to equal protection under the law10. The
FOC should have taken immediate action initiating enforcement proceedings against Derek for not
following the custody orders of the court. This issue was beyond granting make-up parenting time.
The FOC was informed that the children were taken from Elizabeth in violation of court order and
placed with Derek in violation of court order. The information provided to the FOC was a clear
indication that withholding the children from Elizabeth was not intended as a temporary action, it

8 MCR 3.208(B) - Enforcement. The friend of the court is responsible for initiating proceedings to enforce an order
or judgment for support, parenting time, or custody. The procedures in this subrule govern contempt proceedings
under the Support and Parenting Time Enforcement Act. MCR 3.606 governs contempt proceedings under MCL
600.1701.
9 MCR 3.210(D)(1) - The court must make findings of fact as provided in MCR 2.517, except that findings of fact
and conclusions of law are required on contested post-judgment motions to modify a final judgment or order
10 Equal Protection Clause of the 14th Amendment requires the governing body state to treat an individual in the same
manner as others in similar conditions and circumstances.

114

was intended as permanent. The FOC should have taken immediate action to initiate enforcement
proceedings to uphold the orders of the court, but they did not.
On April 19, 2018, Elizabeth and her aunt went to the St. Clair County Sheriffs
Department and asked to speak with someone about her children being taken. After waiting,
Deputy Duva took Elizabeth and her aunt to an interview room. Elizabeth informed Deputy Duva
i

that the tribe took the kids without the right, explained they have done this to her son in the past,
and answered all the questions Deputy Duva had for her. Elizabeth told Deputy Duva about how
ICW and GAL insisted she take MS from her'sleepover so they could interview her on February 17,'
2018. Deputy Duva informed Elizabeth that she was in her driveway that night at the request of
ICW and GAL while they came in the house. Elizabeth had no prior knowledge of this. Deputy
Duva indicated that ICW and GAL told her a different story when they came out and released her
to leave prior to Elizabeth coming out of the house to drive to the sleepover, but Deputy Duva did
not divulge what they may have said. Deputy Duva reported that Elizabeth admitted the tribe has
custody of her children. Elizabeth did not. Whenever asked a question like that, Elizabeth
responds with the truth, “they say they do, but they don’t.”
At a hearing held in tribal court on May 3,2018, without any responses filed, Judge Tripp
denied Elizabeth’s motion demanding the return of the children. During the hearing, Judge Tripp
removed ICW Janet Grant from the case and said Elizabeth had to sign the Service Plan (DM, 223App.6-7) if she wanted her children returned to her. With Judge Tripp off his bench and standing
over Elizabeth alongside Ms. Grant, Elizabeth signed the service plan under duress. The service
plan was already signed by both Judge Tripp and Ms. Grant. Judge Tripp told Elizabeth that once

115

she completed a portion of the service plan, she could make application to the court for return of
the children. Elizabeth was not issued an order11.
On May 9, 2018, Elizabeth filed an emergency exparte motion for change in counselor
(ROA, 113). On May 9, 2018, Elizabeth also filed an emergency motion showing completion of
service plan and proofs thereof for return of the children and revoked her signature on the Service
Plan with supporting affidavit in fear it somehow allowed the Tribe to keep her children from her
(DM, 223-App.8-10). Elizabeth filed another motion on May 14, 2018 for Reconsideration and
Objection to ICW’s report (ROA, 114). The motions were set to be heard on May 31, 2018. No
responses were filed to the motions. At the May 31, 2018 hearing, Judge Tripp denied all of
Elizabeth’s motions. Elizabeth was not provided with an order.
In effort to exhaust her recourse in tribal court, on May 14,2018, Elizabeth filed a Notice
of Appeal. In lieu of transcripts that were unavailable due to audio/video failure, on June 4,2018
in the tribal court of appeals, Elizabeth filed the Designation of Record outlining testimony heard
throughout the proceedings (DOR). Judge Tripp, the Tribe, Derek, ICW, and GAL were all
allowed an opportunity to object or amend the Designation of Record if they were not in agreement
of the contents therein, AC § 8(B)12. There were no objections or amendments, therefore, all were
in agreement with the Designation of Record.

11 Once Ms, Sherigan filed an appearance and requested orders, the tribal court clerk provided them.

I2AC § 8(B) - Statement of Proceedings When No Report or Transcript Made: If no report of the evidence or
proceedings at a trial or hearing was made, or if a transcript is unavailable, the appellant may prepare a statement of
the evidence and proceedings. Said statement shall be filed with the Clerk of Court. The appellant shall serve a copy
of the statement on appellee, and the appellee shall have ten (10) days to raise objections and propose amendments to
the statement and file those objections and proposed amendments with the Clerk of Court. The Miami Tribe District
Court shall settle the objections, make any necessary amendments and finally approve the statement for inclusion in
the record of appeal.

116

On July 18, 2018, Elizabeth’s new tribal court attorney, Angela Sherigan, who is a tribal
judge in Michigan and the President/Chair of Michigan Indian Legal Services filed an emergency
motion for return of the children to Elizabeth. Angela admitted the removal of the children from
Elizabeth was illegal, the removal of the children from Elizabeth is a violation of the Miami Tribe
of Oklahoma’s Children’s Code, and a violation of the Indian Child Welfare Act (DM, 223App. 11^24). Ms. Sherigan furthered that the children should be returned to Elizabeth immediately
and without necessity of a hearing (DM, 223-App. 11^25). Ms. Sherigan also filed a motion to
stay counseling between Derek ancl MS. A hearing was hefd’ori the motions July'27,2018. Judge
Tripp entered an order on August 1, 2018 allowing counseling between Derek and MS. To date,
no opinion or order has been entered in regard to the motion to return the children. Unfortunately,
Ms. Sherigan did not respond to Elizabeth’s request to represent her in state court proceedings.
Possibly due to a conflict of interest because Michigan Indian Legal Services limit their services
to only be available to tribal members13.
After counselor Donna Greenhaw arranged for MS to have overnight visitation with Derek,
Ms. Sherigan filed an exparte emergency motion to stay overnight visitation on
September 6, 2018.
On September 11, 2018, without a hearing being held, Judge Tripp entered an order
prohibiting Derek and Elizabeth from having access to the children’s counseling files with Ms.
Greenhaw. The order further stated the children’s counseling files are only to be provided to ICW
and GAL. On September 11, 2018, Ms. Sherigan filed a motion regarding Elizabeth’s parenting
time. On October 10,2018, Andrew Doney filed an appearance as the tribe’s presenting officer.

13 Non-respondent mother is not a tribal member. She is a non-Indian.

117

An order was entered in the tribal court of appeals on August 28, 2018 dismissing the
appeal because appellant’s brief was not timely filed. The court clerk e-mailed the dismissal order
to Ms. Sherigan even though she did not represent Elizabeth in the tribal court of appeals, only in
the tribal district court. An outside source informed Elizabeth of the dismissal order some time
thereafter at which time Ms. Sherigan provided Elizabeth with the dismissal order.

On

December 7, 2018, Elizabeth filed a motion to reinstate the appeal due to not being made aware
by the court clerk that the case file was transferred which begins the briefing timeline according
to the tribe’s appellate code. After consideration of the motion and the Tribe’s response in
opposition of the appeal being reinstated, the Court of Appeals entered an order vacating the
dismissal order and reinstating the original appeal on January 8,2019.
On December 13, 2018, Mr. Doney filed a Motion to Adopt the Counselor’s [Donna
Greenhaw] Recommendations which included custody of the children and Derek moving the
children to Oregon. On behalf of Elizabeth, Ms. Sherigan filed a response in objection on
January 8, 2019 that explicitly stated this is not a custody case, the custody order is in Sanilac
County State Court, and Derek is prohibited from moving the children more than 100 miles without
prior approval of the state court. Mr. Doney filed a motion to continue hearing on motion to adopt
counselor’s recommendations on January 15,2019.
In tribal district court, a hearing was held on January 17,2019. The hearing was scheduled
to address Ms. Sherigan’s motion to stay overnight visitation and motion regarding parenting time.
No responses were filed to said motions. This hearing resulted in a Journal Entry being entered.
The court ordered for the family to attend peacemaking court in Michigan either in the Washtenaw
County Circuit Court or in the Saginaw-Chippewa tribal court. If this service was not available
quickly then the Court would set a parenting time schedule. The family was unable to attend

118

peacemaking.court because in tribal culture, abuse/neglect cases are not eligible for peacemaking
court because you are not supposed to make peace with your abusers. Judge Tripp did not set a
parenting time schedule as ordered to be the alternative. On January 28, 2019 in the tribal court of appeals, Elizabeth filed an emergency Motion
for Declaratory and Injunctive Relief (TROA, 12). The same day, Chief Justice Blaesar ordered
the Court wilt not entertain said motion because the case has pended in district courtfor over two
years (TROA, 13). On February 7,2019 in the Tribal Court of Appeals and in the tribal district
court, Elizabeth’ filed a motion regarding ICWA' violations (TROA, 15).’ No responses were filed
in either court. On February 15,2019 Justice Moore ordered, [t]his Court will not entertain...
The Motion is hereby DENIED. (TROA, 18). To date, the tribal district court has not heard said
motion or issued an order.
On March 7, 2019, the tribe filed a motion in the tribal court of appeals for an extension
of time to file their appellee brief (TROA, 20).

Elizabeth was e-mailed said motion on

March 8,2019 and was also e-mailed on March 8,2019 the tribal court of appeals order granting
the tribe a 20-day extension to file their appellee brief (TROA, 22). Not having an opportunity to
respond to the motion prior to entry of the order, on March 18, 2019, Elizabeth filed a response
to the tribe’s motion for extension of time inclusive of a motion for reconsideration of the denial
orders. The basis of Elizabeth’s motion was that if the Court was willing to grant an extension of
time, maybe now they’d be willing to consider my motions regardless of how long the case pended
1
in tribal district court (TROA, 24). To date, the tribal court of appeals has not entered an order in
response to Elizabeth’s motion for reconsideration.
On April 3, 2019, in tribal district court, Judge Tripp entered an Order requiring Derek to
show cause after determining Derek violated multiple orders of the Court including removal of JS

119

and MS from Elizabeth, withholding JS and MS from Elizabeth, changing the school of JS which
is a state court matter, travelling with JS and MS across state lines, and failing to provide safe,
stable, and appropriate housing and transportation (DM, 201-Ex.D).
Elizabeth was contacted by the state court and informed that the money order she used to
pay on the L-GAL’s attorney fees that the court had been regularly billing her for since 2015 was
returned because it was stale dated. On or about April 3, 2019, Elizabeth paid for a copy of the
NA case file. In the file there was an order stating the respondent was responsible for paying the
L-GAL’s attorney fees (NA1, 32; NA214). As a non-respondent, Elizabeth filed a motion15. In
response to said motion, Judge Teeple entered a fee-waiver on April 11,2019 that stated the reason
for write-off is that debtor is a non-respondent andfiled a motion}6
On April 15,2019, Elizabeth e-mailed the tribal court clerk to clarify what was scheduled
to be heard at the April 18,2019 hearing. The clerk e-mailed the response; Motion to Show Cause,
Order to Show Cause, Motion for Clarification.
Elizabeth included the tribal court order to show cause as an exhibit on April 16, 2019
when she filed an emergency exparte motion in the state court divorce case regarding the illegal
removal of the children and the ICWA violations (DM, 201 -Ex.D). Judge Ross denied said motion
on April 16,2019 (DM, 202). Prior to receiving or having knowledge of the April 16,2019 denial
order, Elizabeth filed an amended emergency exparte motion concerning same on April 18, 2019
(DM, 203).

14 Not listed on Case Register of Actions.
15 Not listed on Case Register of Actions.

16 Not listed on Case Register of Actions.

120

At the April 18,2019 tribal court hearing, Elizabeth was given a cellphone number to call
into rather than the conference phone system. Prior to the hearing the tribal court clerk e-mailed
Elizabeth, “I just spoke to Judge Tripp and he will be late this morning for Court. We are looking
at least a 30 minute delay.” Court was originally scheduled for 11:45 CST/12:45 EST. At 11:54
CST/12:45 EST, Elizabeth e-mailed the clerk, “Will court begin at 12:15 pm your time or have
you heard there is another delay?” The clerk responded at 12:07 CST/1:07 EST, “Your case was
heard at 11:45 PM CST as scheduled.” Elizabeth then received an order indicating Judge Tripp
granted the Tribe’s motion to adopt the counselor’s recommendations by default since Elizabeth’
previously objected [January 8, 2019]. Although Judge Tripp does not specify in his order what
the counselor’s recommendations are, they change custody, allow the children to live with Derek,
and for it to be considered for Derek to move the children to Oregon in summertime. According
to the clerk’s e-mail on April 15, 2019, said motion was not scheduled to be heard.
Judge Ross denied the amended motion on April 22, 2019 (DM, 204). Elizabeth filed a
third motion to Enforce the Terms of the Judgment of Divorce concerning the custody of the
children on April 22,2019 and it was set for hearing on May 1, 2019 (DM, 205).
On April 26, 2019, without a hearing being held, Elizabeth received an e-mail from the
tribal court with an attached motion filed by Curt Lawrence and an attached protection order signed
by Judge Tripp saying Elizabeth was not allowed contact with her children. The documents were
on a false case heading, contained lies, and were entered without the jurisdiction to do so. Derek
attached said documents to his Michigan Court of Appeals response.
In state court on May 1, 2019, Elizabeth argued her motion for Judge Ross to enforce his
jurisdiction regarding custody of the children and order the immediate return of JS and MS. Derek
failed to appear for the hearing and did not file a response.

Judge Ross would not accept

121

Elizabeth’s three exhibits as evidence (transcripts; p.4^|12, p.5fl7, p.7^18). Rather than accept the
March 18, 2015 order as evidence, Judge Ross said, “I will take judicial notice of the NA File in
this case and the documents filed therein.” (transcripts; p.7f23-25). Judicial notice of the NA case
confirms that Judge Ross recognizes the March 18, 2015 order suspending Derek’s parenting time
for sexually abusing MS as a fact in the divorce case. Judge Ross also recognizes as a fact that
mother is a non-respondent and that according to the Assistant Prosecutor in his response, there is
“no such evidence known” that negates the guilt, mitigates the degree of the offense, or reduces
the punishment for the allegations that Derek has repeatedly sexually abused MS (transcripts;
p.7^23-25) (NA1, 14;NA2, 13).
Elizabeth filed a proposed order on the 7-day rule on May 2,2019. Derek did not file any
objections. Fully advised on the premises that the children were living with Derek and being
withheld from Elizabeth, Judge Ross decided the proposed order did not comport to his ruling so
on May 15,2019, Judge Ross ordered Derek and Elizabeth to appear seven weeks after the original
hearing on June 19, 2019 for another hearing and entry ofjudgment.
Oral arguments were held in the tribal court of appeals on May 20,2019 during which the
Tribe admitted Elizabeth’s most compelling argument is that she is a non-respondent (Tribal COA
transcripts, p.6^12-15, p.9^|17-23).
Elizabeth retained attorney, Frederick Lepley, Jr. with a payment of $1500.00 on
May 31, 2019 to represent her in state court after first meeting with Mr. Lepley on May 9, 2019
and providing him with documents to review. Elizabeth gave Mr. Lepley the NA file that was
purchased the month prior without making a copy for herself so on June 4, 2019 Elizabeth
e-mailed Mr. Lepley telling him she would pick up her originals from him later that week.
Elizabeth’s first attempts at picking up the originals were unsuccessful because Mr. Lepley’s

122

secretary said he was not finished with them yet. The secretary said she would make copies and
Elizabeth could pick them up at a later date.
According to the certificate of mailing dated June 12,2019, Mr. Lepley’s appearance was
mailed to Derek. Due to a conflicting court hearing, Mr. Lepley would not represent Elizabeth
during the hearing even though Mr. Lepley accepted the case and Elizabeth’s retainer fully aware
of the June 19, 2019 court hearing.
On June 7, 2019, the tribal court clerk e-mailed Elizabeth to inform that the tribal court
hearing scheduled for'June 13, 2019 was contiriued until July 18, 2019; after Judge Rbfcs’s entry
of Judgment.
Derek and Elizabeth appeared for the hearing and entry of judgment on June 19, 2019
(DM, 211). Derek falsely alleged that he was not served with the motion or notice of hearing
(transcripts; p.4fl 1-15). Judge Ross advised Derek that he had the option to pursue recourse if he
did not receive notice, but it would need to be in writing for him to take action (transcripts; p.5f 17).
Later in the hearing, without prompt Judge Ross advised Derek, [ajgain, I would suggest that if
you do have a motion to make you put it in writing, okay, (transcripts; p.6|17). Derek then
questioned Judge Ross, [d]o you have the protective orders and the no contact orders for Ms.
Shaw? (transcripts; p.6^20). Not confused or unaware of the documents in question, Judge Ross
quickly and sharply responded by saying, [y]ou will have to review the file yourself 1 am not
going to review the file right now to determine what is contained in the file as evidence and what
is not (transcripts, p.6|20-25). Judge Ross did not admit nor deny that he was provided with said
tribal court documents outside the knowledge of Elizabeth and therefore outside the law. Judge
Ross denied Elizabeth’s motion and failed to return the children to her rightful custody claiming
the tribal court had jurisdiction which suspended his orders. It was Elizabeth’s intent to appeal the

123

June 19, 2019 order but Mr. Lepley was continuously unavailable to meet which caused the time
for reconsideration to pass, MCR 2.611(B)17 and the time to file a claim of appeal to expire, MCL
7.204(A)(1)(a). Mr. Lepley obstructed Elizabeth’s appeal causing her to miss her deadline.
On August 5, 2019, Judge Tripp entered an order allowing Derek to move the children
from Michigan to Oregon despite not having the jurisdiction to do so and in violation of the
Judgment of Divorce (DM, 215-Ex.2). Said order was attached as an exhibit to the motion Mr.
Lepley filed in the divorce case to Enforce the Judgment of Divorce concerning change in domicile
(DM, 215). Said motion was heard on September 4, 2019. Derek did not file a response and
failed to appear. From the bench Judge Ross denied the motion but an order has not been entered
making it impossible to file a claim of appeal18.
Six days after the hearing in state court and nearly four months after oral argument, the
tribal court of appeals entered their Opinion on September 10, 2019 upholding the order of the
tribal district court (COA, VI.123-126). Despite the questions posed and arguments made in
Elizabeth’s tribal court of appeals brief (TROA, 14), the support of Elizabeth’s contentions in the
Tribe’s response brief (TROA, 26), Elizabeth’s reply brief (TROA, 28), and the Tribe admitting
Elizabeth’s most compelling argument is that she is a non-respondent (transcripts, p.6^|12-15,
p.9T|17-23), the Tribal Justices opted riot to directly address the jurisdiction of the divorce case,
ICWA, Troxel or the March 18, 2015 order (COA, VI. 123-126), just as they would not entertain
Elizabeth’s previous motions that required a direct determination regarding custody (TROA,
12,13,15,18,24). The Tribal Justices admit that the removal of the children by ICW and GAL was

,7 MCR 2.611(B) - A motion...to alter or amend a judgment must be filed and served within 21 days after entry of
judgment.
18 On the Case Register of Actions, there appears to be an invalid entry dated February 3, 2020 indicating an order
was entered concerning this matter (DM, 234).

124

not ordered by Judge Tripp, but used the same language that they were “placed” (COA, VI. 123126). In Elizabeth’s reply brief she reminded the tribal court of appeals that their decision would
create case law allowing aH Indian children to be taken from their parents without cause and absent
• i

due process (TROA, 28). The tribal court of appeals opted not to publish their opinion. Two of
the three justices failed to authenticate their opinion with a signature or a signature stamp, as
previously done, and instead signed the Opinion via/s/ (COA, VI. 123-126).
In the' NA case, Mr. Lepley filed a motion to rescind the transfer of the NA case to tribal
i

court'(NAI,129; NA2, 25).

On September 23, 2019^ Elizabeth e-mailed Mr. Lepley the

information she found that indicated the Order of Transfer is a void order in thought that it would
be helpful for the upcoming hearing. Mr. Lepley did not respond. For the September 25, 2019
before Judge Teeple, Derek did not file a response and failed to appear. DHHS did not file a
response and failed to appear. The Tribe was represented by counsel, submitted a response brief,
and attended the hearing by phone (NA1, 40; NA2, 33). The Tribe admitted in their brief that the
children were removed from Derek’s custody following a fact-finding hearing and that the
evidence was at least clear and convincing meeting the requirement of “foster care placement”,
After this proceeding was initiated and prior to the transfer ofjurisdiction to the Tribe, the
Court ordered that the biological father of the children, Derek Shaw, be stripped of all contact
with his children based on allegations of sexual abuse. See Order After Pretrial Hearing (Child
Protective Proceedings), No. 15-35887- NA-01-02 (Mar. 17, 2015). As a result, the children were
removedfrom any and all care of Derek Shaw and, pursuant to the Court's order, they could not
be returned to him upon his demand. Id. As a result, this proceeding falls squarely within the
definition of d "foster care placement" under 25 U.S.C. § 1903(l)(i) (DM, 223-App.l7).

During the September 25, 2019 hearing, the Tribe further admitted that Elizabeth is a
non-respondent and the children were placed with her prior to the transfer,
Ijust want to briefly respond to just the due process point. You know that the... the argument backs
Ms. Shaw's due process rights are ... were violated by roping her into the proceeding without

125

adjudicating her is somewhat puzzling on afew levels that the first is that at the time the transfer
occurred the County, had been investigating allegations ofabuse as... as opposing Counsel notes
targeted at that children's Father and not Ms. Shaw. So it's really unclear how this Court, how
this State Court could of violated Ms. Shaw's due process rights, when the children were placed
with her before the transfer occurred (transcripts, p.18^12-23)...that after the transfer occurred
there were allegations and ongoing investigations that ultimately did involve Ms. Shaw
(transcripts, p.l9^[l-3).

The Tribe’s admission provided an opportunity, so Elizabeth wrote Mr. Lepley a note
suggesting he mention the information she e-mailed about the Order of Transfer being a void order
thinking it may be helpful. After looking at the note Mr. Lepley slid it back and ignored it. From
the bench, Judge Teeple denied the motion after admitting he is not an expert on the matter,
(transcripts, p.21f 10). Judge Teeple asked the tribe’s counsel to prepare the order. Elizabeth did
not receive the proposed order. Elizabeth was unaware of the entry of the denial order on
October 23,2019 (NA1,42; NA2, 35). Following the hearing, as agreed upon, Elizabeth e-mailed
Mr. Lepley to discuss options including filing an appeal. Mr. Lepley did not respond. Elizabeth
e-mailed Mr. Lepley inquiring whether or not an order was entered. Mr. Lepley has not responded.
After several attempts, Mr. Lepley continually failed to have any communication with Elizabeth
following the hearing. Mr. Lepley’s obstructed Elizabeth’s margin of time to file a claim of appeal.
Elizabeth filed a motion on January 13, 2020 for Relief from Judgment and Declaratory
Judgment and Motion to Remove Attorney from Case (DM, 223). On January 21, 2020, Mr.
Lepley faxed the court with a response to the motion to remove him from the case (DM, 225). Mr.
Lepley did not provide Elizabeth with his response. The Sanilac County court typically accepts
filings by mail or in person, not by fax.
A hearing was held on January 22, 2020. Derek did not file a response and failed to
appear. Judge Ross entered an order removing Mr. Lepley from the case and indicated he was

126

aware of Mr. Lepley’s faxed response stating he had no objection (transcripts, p.3^14-19).
Elizabeth proceeded with argument of her other motion. The first exhibit Elizabeth offered was
the April 3, 2019 tribal court order to Show Cause (DM, 201-Ex.D). Judge Ross would not admit
•

i t

the exhibit into evidence (transcripts; p.l 1^8-9), however, once Elizabeth reserved her right to
appeal (transcripts; p. 19^10-14), Judge Ross directed Elizabeth to provide him with the exhibit so
he could keep it as part of the record (transcripts; p.l9^|10-14). Judge Ross also kept Elizabeth’s
second exhibit, Ms. Sherigan’s tribal court pleading admitting the removal was a violation of tribal
law and ICWA, as part of the record, but would not admit it as evidence. When Elizabeth asked
to present additional exhibits, Judge Ross denied her request (transcripts; p.l9^fl8-19).

In

response, Elizabeth reserved her right on appeal to offer the documents necessary to provide a
background and full explanation of the case (transcripts; p.20^jl 4-18). Immediately following
Elizabeth reserving her right to appeal, Judge Ross executed MCR 2.119(E)(3) limiting argument
and exhibits (transcripts; p.20^19-24). From the bench, Judge Ross ruled that he was denying all
of the relief requested.
Submitted on the 7-day rule, Judge Ross entered an order denying Elizabeth’s motion (DM,
235). The Case Register of Actions indicates the order was entered on February 4, 2020 yet the
order is file stamped February 3,2020. Elizabeth had filed by mail an objection to the proposed
order (DM, 236), but from the date it was mailed, it took the court nearly a week to receive and
file the motion (transcripts; p.5^2-4). In the same manner, based on the certificate of mailing, it
took Elizabeth a week to receive the signed order in the mail from the Court (transcripts; p.3f 1214) which significantly diminished her appeal timeline. In response to the denial order file stamped
February 3, 2020, Elizabeth filed a timely appeal of right in the Michigan Court of Appeals and
the Sanilac County court on February 24,2020.

127

After reserving her right to appeal at the hearing on January 22, 2020, for her appeal, on
February 19, 2020, Elizabeth purchased a certified copy of the case register of actions in the
divorce case. Elizabeth was unaware of many entries such as hearings and entry of an order five
months after the September 4,2020 hearing (DM, 217,219,220,234). Elizabeth was not provided
with notice of the review hearings and was not provided with the order.
On February 19,2020, Elizabeth filed a motion and brief with supporting appendix (NA1,
NA2)19 for relief from the October 23,2019 judgment and for declaratory judgment. Judge Teeple
reviewed the motion, brief, and appendix without a hearing and issued an order denying
Elizabeth’s motion on February 27, 2020 (NA1, 53; NA2, 46). In response to said order,
Elizabeth filed a timely appeal of right in the Michigan Court of Appeals and the Sanilac County
court on March 19,2020. Elizabeth filed her appellant’s brief on April 7,2020. Phoebe Moore
filed an appearance on April 16, 2020 representing Sanilac County DHHS. The Michigan Court
of Appeals entered an order on April 30,2020 dismissing the appeal for lack of jurisdiction.
Elizabeth filed a motion for reconsideration on May 3, 2020. Phoebe Moore filed a response to
said motion on May 7,2020. The Court of Appeals filed an order denying the motion for
reconsideration and denying the request for an order declaring the Order of Transfer void on
May 12,2020.
In the pending appeal in the divorce case, Elizabeth filed her appellant’s brief and her
motion for immediate consideration of the appeal on March 23,2020, but there was a defect
within Mi-File so it was resubmitted on March 25, 2020. In the pending appeal in the divorce

19 Not listed on Case Register of Actions.

128

case, Elizabeth filed her appellant’s brief and her motion for immediate consideration of the appeal
on March 23,2020, On March 25,2020, Elizabeth received an email from TrueFiling stating,
lam reachingout toyou because, your bundle (ID# 1542655) thatyou submitted into case
352851 on 3/23 is to big for the court to process correctly. After speaking with the court
they have advised to see ifyou can attempt to decrease the size of all these documents or
break them up into smaller sections in order to get the documents in front of the court for
review. Thank you so much.
Elizabeth resubmitted on March 25, 2020. On April 20, 2020 the Court of Appeals Clerk sent a
notice that the case was scheduled to be placed on an upcoming case call session.

On

April 20,2020, Elizabeth filed ah immediate motion for peremptory reversal and a' supporting
brief. The Court of Appeals issued an order on July 16, 2020 directing Derek to file a response
on or before July 30, 2020. Derek filed his response on August 3, 2020. Derek did not provide
Elizabeth with a copy of his filing so the Court of Appeals provided service to Elizabeth in lieu of
defecting Derek’s response for failure to provide service. Elizabeth filed a motion for immediate
consideration requesting leave to reply on August 10,2020. The court of appeals entered an order
on August 12,2020 granting the motion for immediate consideration, granting leave to reply, and
denying the motion for peremptory reversal for failing to persuade the Court of manifest error
without oral argument or formal submission. On August 14,2020, the Michigan Court of Appeals
clerk informed Elizabeth that although Derek’s appellee brief was due on June 29, 2020, they will
continue to accept his brief for filing and notification will be sent when the appeal is placed on the
case call panel, but that will be in October at the earliest.
On September 3, 2020, Elizabeth filed an application and supporting brief for immediate
consideration in the Michigan Supreme Court requesting leave to appeal and other relief. The
Michigan Supreme Court mailed a copy of the order denying this request on October 16, 2020.
The Clerk’s office informed that because my appellant’s brief was not technically filed until after

129

its due date, a motion and order of the Court are necessary for oral argument. The Notice of Case
Call issued on October 30, 2020 scheduled this case to be heard on December 2, 2020 at 11:00
a.m. On November 2, 2020 Elizabeth filed a motion for oral argument in the COA. The COA
granted Elizabeth 10 minutes of oral argument in an order entered on November 12, 2020, but in
an email from the clerk’s office on November 17,2020, Elizabeth was not shown to be designated
for oral argument. After a phone call on November 18,2020, the clerk’s office informed that they
will not email a correction, but I do show to be designated for oral argument on their system and I
can check the website for the update. Elizabeth provided oral argument on December 2,2020 and
the COA issued their decision on December 10,2020 upholding the trial court.
On April 20, 2020 the Court of Appeals Clerk sent a notice that the case was scheduled to
be placed on an upcoming case call session. On April 20,2020, Elizabeth filed an immediate
motion for peremptory reversal and a supporting brief. The Court of Appeals issued an order on
July 16, 2020 directing Derek to file a response on or before July 30, 2020. Derek filed his
response on August 3,2020. Derek did not provide Elizabeth with a copy of his filing so the Court

.1

of Appeals provided service to Elizabeth in lieu of defecting Derek’s response for failure to provide
service. Elizabeth filed a motion for immediate consideration requesting leave to reply on August
10, 2020. The court of appeals entered an order on August 12, 2020 granting the motion for
immediate consideration, granting leave to reply, and denying the motion for peremptory reversal
for failing to persuade the Court of manifest error without oral argument or formal submission.
On August 14, 2020, the Michigan Court of Appeals clerk informed Elizabeth that although
Derek’s appellee brief was due on June 29, 2020, they will continue to accept his brief for filing
and I will be notified when the appeal is placed on the case call panel, but that will be in October
at the earliest. To date, notification has not been received.

130

'i

On September 3,2020, in the Michigan Supreme Court, Elizabeth filed an application for
leave to appeal the Michigan Court of Appeals’ August 12, 2020 order, a motion for immediate
consideration, a motion to expedite proceedings, and a supporting brief. The Michigan Supreme
Court denied me leave to appeal in an unsigned order dated October 16,2020. Although they were
not stayed by motion or order, proceedings in the Michigan Court of Appeals did not resume until
after the Michigan Supreme Court issued their decision. The Court of Appeals’ Clerk’s office
informed that appellant’s brief was not technically received as filed by the Court of Appeals until after
submission1 deadline'even though'it was timely accepted by the Mi-File system. Due to this, Elizabeth
would need to file a motion and receive an order of the Court to be allowed oral argument. The Notice
of Case Call issued on October 30,2020 scheduled this case to be heard on December 2, 2020 at 11:00
a.m. On November 2,2020 Elizabeth filed a motion for oral argument in the COA. The COA granted
Elizabeth 10 minutes of oral argument in an order entered on November 12, 2020, but in an email
from the clerk’s office on November 17, 2020, Elizabeth was not shown to be designated for oral
argument. After a phone call on November 18, 2020, the clerk’s office informed that they will not
email a correction, but the website will reflect the update. Elizabeth provided oral argument on
December 2,2020 and the COA issued their decision on December 10,2020 upholding the trial court.
On January 21, 2021, Elizabeth filed an Application for Leave to Appeal in the Michigan Supreme
Court. No response was filed. On March 30, 2021, the Michigan Supreme Court issued an unsigned
order denying Elizabeth Leave to Appeal and mailed said order to an address in another state.

131

IN THE DISTRICT COURT FOR THE
MIAMI TRIBE OF OKLAHOMA
JUVENILE DIVISION
)
)
)
)
)
)
)
)
)
)
)
)

In the Matter of the Welfare of:
SI
DOB: 06/2.1
And,
DOB: 09/22/flB
Minor Indian Children

Case No. CW-2015-0003

Judge: Charles Tripp

AFFIDAVIT OF MARSHA WETZEL
Affidavit of Marsha Wetzel
1, Marsha Wetzel, swear and affirm:
I. My name is Marsha Wetzel (DOB 09/07/flP). I am the maternal
Grandmother of
and
My address is
My phone number is
2. On Sunday, February 18, 2018, Curt l^awrence contacted me by phone and said he was in
Port Huron.
3. Curt mid me the Judge sent him to Michigan to make an unannounced visit at my
daughter, Elizabeth Shaw’s, home.
4. Curt told me he went to Croswcll Saturday night, February 17,2018, to talk to Mffifcwho
was at a sleepovcr at her friend’s house.
5. Curt told me he talked with

that morning (Sunday, February 18,2018).

6. Curt told me he talked with a counselor in Lapeer, Michigan regarding joint counseling
for
and Derek.
7. Curt asked me if I would be willing to lake MQp to live with me while in joint
counseling with Derek Shaw.

132

8. Curl lold me placement was necessary because Elizabeth does not want the counseling to
happen.
9. i told Curt if the Judge ordered it, I would take
10. Curt asked me if i would take

to live with me.

11.1 told Curt, if the Judge ordered it, I would take
12. Curt told me he had stopped by my house, took pictures, and looked in my windows.
13. Curl told me they were recommending the joint counseling and placement of the kids
with me to the Judge.
14. Curt said they would have to convince the Judge to do this and it would take a couple
weeks, possibly a little longer to do so.

Marsha Wetzel, being first duly sworn, under oath, affirms the affidavit is a complete
representation of facts and that 1 have personal knowledge thereof.
Signature

/?7 ^

Subscribed and sworn to by

fl \Aigf--z£\

before me on the

day

of f&P !iUCt-vvy
Signature
Primed name 0^yWV\icu
Notfliy public, Stale of Michigan, County of St. Clair
My commission expires ^ j

______

133

Concepts in Counseling L.L.C.
608 Fox Street
Lapeer, Ml 48446
(810) 538-0229
Fax: (810) 538-0231

February 18,2017
Miami Tribe of Oklahoma
P.O. Box 1326
Miami, OK 74355
After meeting with Janet Grant, Indian Child Welfare Coordinator and Curt Lawrence^Hsq.
Guardian Ad Litem, the following will be the proceedings for possible reunification between
father Derek Shaw and daughter MflpSMP.
Mm will meet with therapist Donna Gieenhaw LMSW, ACS W weekly for as many visits as
therapist deans necessary to decide on possible reunification.
Mother, Elizabeth Shaw will transport
to Concepts in Counseling L.L.C. and come to the
door where Office Manager, Heather Wagner will meet them. Heather will bring Mflfr to
therapist’s office for visit. At end of session Heather Wagner will take Mgg back to the door to
mom. No contact between mom and therapist at this time.
After as many sessions as needed, therapist will contact Jana Grant, Indian Child Welfare
Coordinator with how this possible reunification will proceed.
Kind regards,
a~

-Jl

ft

t

7

Donna Greenhaw LMSW, ACSW

Judy Church L.M.S.W., A.C.S.W., Donna Greenhaw L.M.S. W., A.C.S.W., Stephanie Kushel M.A., L.P.C.,
Kimberly Owen L.M.S.W., A.C.S.W, Sarah Shelton L.M.S.W., A.C.S.W., CA.A.D.C.

L

134

;

MIAMI TRIBE OF OKLAHOMA
tribal court
IN THE DISTRIC COURT FOR
THE MIAMI TRIBE OF OKLAHOMA
3510 P STREET NW
MIAMI, OKLAHOMA 74354

and

Jl

r

)
)
)
)
)
)
)

IN THE MATTER OF

Alleged Deprived
Minor Indian Children.

APR 1 3 20W

Case No. CSV-2015-0003

ORRF.R OF ADJUDICATION
NOW on this I3sh day of April, 2018, this decision is presented by the undersigned Judge.
present by phone, Ms. Lash is present in
Present are the natural parents, the GAL, and 1CW are
the courtroom.
On the

18th of January, 2018, this matter was adjudicated, however, the order was vacated

at the request of the natural mother. The court
objections.

gave the parties opportunity to explain their

Both the tribe and the natural mother objected. The tribe presented information that

the minor child,

t, had been treated in a manner consistent with being deprived. In the

previous order

was taken out of the case, but, was placed back in the case upon the

vacation of the order. The natural mother objected to Ji

and Mfli no1 being in the case

together.
The findings in the previous order os to Maya ore hereby adopted in this order. The only

change to the original adjudication order is that J
custody of the children to remain with the Miami Tribe.

is also found to be a deprived child. Legal
1CW to have authority to place. M®*to

receive counseling as set up by 1CW. Jackson to do the same. When appropriate there is to be
counseling with Ml

and Dad, and Mom and Jl

as well as family counseling for both

parents and the children. ICW to prepare a full service plan for both parents and a plan for both

135

v-*s

/—N

children. The Court will contact the former court in Michigan to talk with the Judge. It would be
best for all involved to transfer this matter back to the Michigan state court as they would have a
better opportunity to have contact with the parents and child, as well as any counselors, In the
meantime, ICW is to look for a worker from the state to help monitor this case. Disposition is set
for May 3,2018, at 11:00 a.m. CST and 12:00 EST.
IT IS SO ORDERED.

Judge of the District Court

i

!
j

136
!

i

IN THE DISTRICT COURT FOR
THE MI AMI TRIBE OF OKLAHOMA
3510 P STREET NW
MIAMI. OKLAHOMA 74354

MIAMI TRIBE OF OKLAHOMA
TRIBAL COURT

IAN 1.8 2018

cm run matter of
Jl

east

)
)

Mind

\
Alteycu Ocpiived
Minor Indian Children.

Case No. CW-15-003 .

}

5
ORDER OF ADJUDICATION

NOW rot ihh ! 8* day of January. ?i){ jy this decision is presented to the panics i:it

Open

coun by the undersigned judue. Present are the .natural parents and the GAL by phene. ICW is
present in tire courtroom
This decision it rendered and .presented reluctantly.

After the Final hearing

or.

aeiudscatbn. the Court. based upon the convention* and the general appearance of the ,s«».ni<>n
afterwards.. withheld issuing an order. Being adjudicated as a deprived child is a label that can
cany a .sngma for children that can be detrimental to some children, Further, the parents Jr*!
g,vcn 'llie im?****iM dtai tires may be aide to continue to no the nvcessaiy things to heal their
mmor chHdrcn »* thii filter odd circumstance. As parents they should be malting die decisions
m raising their children, as they know the minor children tire best and should through can: and
love do whm is best for them, b about interference IVum tire Croui. However, it became clear
that tire hopes of this Court were only that, hopes.
ib-esem for the hearings were Robin Lush, for the Miami Nation. Ja„ Grant. Indian Child
Wciiare Director. Curt Lawrence, Guardian Ad Lbcm. Eii/.ubeih Shaw. natural mother of the
ua.rred L.mdrer:, Barney Wlmcsman. attorney for r.anrrai mother. Derek Shaw, nntutal
‘atber of -the above named children. ant! Cynthia BurSoon. attorney for the natural father.

137
J

Due to she number and location of witnesses,

die location of the parents and the

complexity of this case, the adjudication hearing was held over a number of sessions. s„0m
leshmony was taken of the following people:

Or. Craig Lemmon, a forensic and Child

Psychiatrist; Heather Winkler. a Certified Medical Assistant; Mr. Neumann. Therapist
and
Licensed Clinical Social Worker; Matthew D. Rosenberg, a Clinical Social Worker; Suzntc
Walker, a Nurse Practitioner, Elizabeth Amtbrisler, a Mental Health Therapist; Kathleen Faller,
a Social Worker and Psychologist; Callie Lankford, former Director of Miami Nation
Child Welfare; Cynthia Willey-King, Licensed Registered

Indian

Social Worker; Dr, Kimbo, a

Psychiatrist; Elizabeth Shaw, the natural mother of the above named child™: Derek Shaw, the
natural father of the above named minor children; and Jan Gram,

current Director of Miami

Nation Indian Child Welfare.
This cose was transferred m from the State of Michigan, where the parents, children.
and
majority of witnesses reside. The
cast began while the parents wens in the midst of a divorce,
custody, and visitation case in Michigan. The natural mother alleges the minor child, M,
disclosed that the natural father touched her in

an inappropriate and sexual maimer. The courts

the divorce/custody matter did not find sufficient information to disallow visitation on the pan
of the father. The natural mother continued with her fight in and to various entities

to prevent
the natural father from being around M*»d„e to these allegations. The na.urai father has, at ail
times, denied any misconduct. No criminal charges have ever been filed.

The state of Michigan

proceeded, with some thought thal the natural mother may be inappropriately using the system to
prevent the natural father from visiting the children,

that is. the natural mother may be falselv

accusing ihc natural father.

138

The petition Hied by the Tribe alleges the child

ren to be deprived. The allegations in the
petition are directed at the natural father. Deprived i
is a stems of the children and not the parents.
By definition, the children can only be deprived if both parents have caused dcpri
vation by act cr
omission. Further, the inherent authority of the Court alio
ws for the Court to do anything proper

‘ !.

•

and just to protect minor children. Still further, if one

or both parents have not created such a
situation, the petition fails and case dismissed, as a
parent or parents is fit to care for the minor
children. Mr. Whitesman argued that the mother’s actions
or omissions were not to be
considered and the children should not be considered deprived as to her.

However, if that were a
correct assertion, the case should be dismissed and the parties
take this up in their
divorce/custody action in Michigan.
To avoid such a lengthy decision, the Court
witnesses presented by the natural mother as follows,

can characterize the testimony of the
Tliey stated that they believed the minor

child and the natural mother that the natural father had molested
Nurse Walker indicated them was moderate blood in Maya’s urine and nothing indicated
an infection. To Ms. Walker the child indicated it hurt

to go 10 the bathroom all the time, that

tod had touched her and hun her by putting his finger inside her. Maya had said the abuse
began that weekend at Dad’s. Ms. Walker then called Child Prot

ective Services, the Emergency

Room and the Sandusky Police Depaitm ent.
Heather Winkler stated that there was moderate blood in Maya’s urine.
Elizabeth Armbrister testified that she had counseled Maya for a period of time every
other week. She said that Maya told her that Dad had “poked”

her and taught her to French kiss.

Ms. Armbrister indicated that she had handled only a handful of children sexual abuse ties ^ '
that she docs not do forensic interviews.

*

139

Kathleen Faller stated that she interviewed j
abou, he,

and Ml
She said Mi
talked
bickering. ^ lhe 10uching ^ ^ ^ ^ ^ ^ ^

going on for a long time, all the way back to the time M
to Ms. Falter that the touching sometimes happens

om and Dad lived together. Mq£$tated

on top of clothing, happens day and night and

is done by Dad with his hands.
Gallic Lankford stated she got involved in th
Stated that allegations had been made
Lankford.

c case after receiving a call from Dad. Dad

against him. Several months later Mom contacted Ms.

Ms. Lankford said

she talked with the attorneys, the Guardian Ad Litem and
Department of Human Services in
Michigan. She also said she reviewed the records of the
matter. She said the records did
no. substantiate the alleged abuse. However, after her review
she felt the State of Michigan was not acting in the minor children’s best interest,
Ms. Lankford
eventually went to a court hearing in

Michigan. Prior to the hearing while in Michigan, Ms.

Lankford said she personally interviewed the

mom, dad, and children, as well as, other collateral
interviews. She also said she spoke with the police, the clinic. Eventually, Ms. Lankford
went
back to Michigan to ask the case be transferred to the Miami T
ribal Court. All parties agreed to
transfer. She testified she had
no concerns about Mom. but there were “red flags” as to Dad.
She believed there to he clear and convincing evidence that Mi

had been sexually abused by
her Dad. She also testified Dad had told her that he believed that Mj
was being abused by the
Mom, because Mom kept telling Maya that .she was abused.
Dr. Kimbo oversaw the evaluation of M»to determine the possibility of sexual abuse
of Ml

by her Dad. According to the Dr. she believed and her colleagues agreed that there was

clear and convincing evidence that Mi

had been so abused by her Dad.

140

The other witnesses tended to State that while they could not say Dad did not abuse
Mm the Interviews, testing, etc. seemed to shew that the likelihood of ab
Dr. Lemmon testified that he did

an evaluation of Mom. He stated there was evidence in

Mom’s past of over interpreting sexual matters.

disorder, a loosening of associations

use was slim to none,

Thought that the Mom may have a thought

or be grossly illogical. Also, said he diagnosed Mom as

having a borderline personality disorder.
Mr. Neumann tested Dad for his level of risk of pedophilia and recidivism,

He testified

that he found a low level of risk and no foundations of pedophilia. All tests, results, arid reports
done by the various parties are part of the Court record.
7 he Court finds the testimony insufficient to say that
Therefore, Ji
Ji

SI

is a deprived child.

is dismissed from this case. The issue of custody and visitation regarding

^reverts to the orderfs) of the Michigan divorce court.
The Court finds that no particular piece of testimony, testing, results,
reports, etc. is

strong enough for the Court to have an a-ha moment The Court finds that the most telling
aspect is M|
The Court met with J
and
I* is dear that Misbelieves something
happened. The testimony of all witnesses is insufficient for this C
-hurt to say the burden of proof
was met to make a finding that Dad perpetrated on the minor child. But the testimony is
sufficient to see that it is possibility. Further, the child believes something happened whether St
did or not. This child has been harmed. Cither by the molestation of her father
or her mother

convincing her that she was molested by her father. Therefore, the Court finds that M|» SI
is a deprived child. Legal custody to remain with the Miami Tribe,
place. No change of placement warranted at this time,
When appropriate there is to be counseling with Mi

ICW to have authority to

to continue to receive counseling,
and Dad. as well as family counseling for

141

.J

both parents and Mi

The no contact order previously entered as to 1CW and the GAL is

Mfed. 1CW to prepare a full sen-ice plan for both parents. The Court will contact the former
court in Michigan to talk with the Judge. It would be best for all involved to transfer this

matter
back to the Michigan state court as they would have a better opportunity to have contact with the
parents and child, as well as any counselors. Review April 5,2018, at 10:00a.m, CST.
IT IS SO ORDERED.
rr
Charles H. Tripp,
judge of the District Court

T

142

08/20/201$ 8:25AM FAX

18105380231*

September20,2016

Concepts In Counseling

@0002/0003

Concepts In Counseling LLC
608 Fox Street, Lapeer, Ml. 48446
Ph. 810-538-0229, fax 810-538-0231

Ms. Jan Grant
Indian Child Welfare Coordinator
Re: Derek Shaw
DOB: 02/28/1971
Dear Ms. Grant,

Goal One: to Improve eoping Mh and promote family safety. Oh). 1: To Identify trauma
triggers end trauma reactions to promote safety within Ms home.

a
cnange In faring arrangements for hU son
Mr. Shaw responded with care to enroll Ms
son In school and gain athletic Information to a Dow
to play football at the school ha
would attend while living with Mr. Shaw.
I had the pleasure of meeting with Oerek and

for a family session. Derek and M

^!^‘b°!!lh°,,-he.feltt°hfllMnewlth •>» Oad he raponded Tv.bwnvwmnearul
EVESYTHiNS, wont Is MDey ma, n»d a different home • Miley is onerttteft^illy^,
^ ^ ol'ter d0* ^ • ^■^■•arid Mr. Shaws reporting of W t«
was going at Dad's house remained consistently positive.

In school and ensuing

1’ !

I

N

143

09/20/2018 8:25AM

FAX

18105380231*

Concepts in Counseling

@0003/0003

JadBMfocontfmied participation In a sport that
enjoys It may be necessary to discuss
what violation Mr. Shaw committed to disrupt
placement with hb father.
may
need to know what violation was committed to cisrupt Hying with Ms father to net confuse
good parental follow up fe. school and sports enrollment and followingthe courts decision with
anything JwdMtejrmght have done to disrupt placement with Ms father. It Is also my
recommendation
need monitoring for reactions to being dislocated from his
father's home, tf Mr. Shaw committed a violation to disrupt placement
•may Med to
know that if Mr. Shaw did not commit a violation to disrupt placement darfficartlon of Mr.
Shaw providing appropriate parenting may help JgMMfeadjust to being removed from hts
fathers home and reduce parental alienation.

Reunification efforts with Ms daughter may Indude phone calls end visits as recommended by
Maya's therapist frmay be benefidat for
therapist to forward information specific to
MaMfctrauroa responses to our office so that coordination of care maybe obtained.
Coordination of care may also be obtained through the Tribe communication that Is managing
this case. It would be helpful if Mr. Shaw could take part in sessions with Mg^to process
trauma response as (greeted by the trauma specialist
working with.

Mr. Shaw wants assistance and support in working on trauma responses from his daughter. He
is unsure what to expect or what she has been told. Encouragement to answer any of Mi
questions, promote feelings of safety, and active listening are being promoted. Seeing trauma
responses from MflApoint of view and not through either parents lens would be very helpful
in promoting safety and reestablishing trust Mr. Shaws progress In reunification, processing
trauma responses and promoting safety with his daughter Is limited wNte he has no contact
with her. It would be helpful to have the children's treatment records fas previously
mentioned} to assist kt promoting healing and safety. Parenting classes for both parents can be
obtained by registering for Parenting the love and Logic Way, next class is Oct U, 2016 to
November IS, 2016, caH 810-667-1544 or go online to register at www.oarentlnegajtneghte.com/dasses.htmi (see attached brochure!. If you have any questions please
contactour office at 810-53S-0229.

Sincerely,
*****J <LA*c*C
Sarah M. Shelton ACSW,CLMSW,CAADC

144
•is::;:..*.,.*

IN the district court
FOR THE
MIAMI TRIBE OF OKLAHOMA
MlAM1TSoURlTAHOMA
IN THU ISTKKEST OF:
.11

S'

)
)
i

< ase .No.:

g m

)

•A
••

FILED A

)

■5

\
'■b.'

I PDATI: TO THE COUVL
(■( ).\u:s NOW die Miami i dbe of Oklahoma !OV Coordinator v. ith an update to the Court
retiardirm tao PW captioned caw. This iCW CoordintHW ,s exercising the "broad numomy m ims cn~
tomake choneo «ith Nonce 10 punter and ch^h',4 the placement oi mmorhtumt emu«
,
,0 reside with Ids biological lather. Derek Shau. eftetiw Augisi 26. 2016.
1,iiW ssheau counseling
Visitation between j _ _ ana hi. motherwili he sei a; e\er> other weekend beginning September it).
and his mother v\iii be on
-0!6 from 6 am until Sunday ai 6 pm Phone visitation between Ji
Ttmsdas nodi hursdav evening and scheduled a; the convenience of all schedules mvohed. I ins ICW
Coordinator is respectfully requesting M>. Shaw to cooperate >•* aUo%vlttS
muc h;s
a; Ins dither■’> home.

C:A! C" 111* : avuenee has beer, eoiwiluni regarding this placement change and is in lui! aureenrem.
Ke.-pecUbily subiiiilied.
I

/
/

■ ■;

'■ ean (irafit. iCW'Coordinator
Y’iarti: Tribe uf Oklahoma

145

MIAMI TRIBE OF OKLAHOMA
TRIBAL COURT
IN THE DISTRICT COURT FOR THE
MIAMI TRIBE OF OKLAHOMA
JUVENILE DIVISON
In the Matter of the Welfare of:
Ji

S
DOB: 06/23/,

And,
DOB: 09/22

Minor Indian Children.

}
)
)
)
)
)
)
)
)
)
)
)
)

JUN 2 8 2017

FILED

Case No. CW-2015-0003

PROTECTIVE ORDER

)
At a session of said Court
Held on the^day of June, 2017
Present: The Honorable Charles Tripp
For the reasons set forth in Non-Respondent’s motion; it is hereby
ORDERED that there shall be no interviewsof the mil >r children
by the Guardian or ICW until further order
Date:

-fa

Judge Charles Tripp

1

P

146

i
JISCdOE:PCS-PTyOAT
TCS-PTH/OFPl
Approved. SCAO

STATE OF MICHIGAN
9dTH mrtiriAi circuit family DIVISION
ORDER AFTERPRETRIALHEARING
24TH JUDICAL CIRCUIT f,4M1LY CV SION ^ pR0TECT|VE PROCEEDINGS), PAGE 1
SANILAC
ORDER
OF

CASENO. 15-35887-NA
PETITION NO.

Court address

?

Court telephone no.

{810)645-3220

60 W. Sanilac Ave.. Sandusky, Ml 48471
M||S|^r09a

SflP(06/23/:

1. in the matter of
nametsl, alias(cs). DOB

P67727

Heather A. Zartg
_ Judge/Referee: C.

2. Dateofhearing: _03/05/2015

Bar no.

;

(Specify for each child il diherenl.)

Removaldate:
THE COURT FINDS that:
A . A petition

has been submitted alleging that the above children) come(s) within the provisions ofWICL712A.2(b}.

5. Thechild(ren)

m is/are

□ is not/are not

subject to the continuing jurisdiction of Srtp_Coun|l£QC_

6, i/j Notice ot hearing was given as required by law.
7. The lawyer-guardian ad litem

71 has ("*; has not

□ Notice of proceedings is to be given as required by law.
'

compliedwiththerequirementsofMCL712A.17ti.

6 / a mere is probable cause to believe the legal/putative father!*) is/are: (tom* each chM.
Derek Shaw - Legal as to J
, ,

<•»*>

, and whether legal or putative.)

and
_____isunknownandcannotbeidentified.

□c

1=lisssiii5=lip
bailable to protect the child(ren). (It mis Pox is chscKsd. confrary 1c ihs welfare and «.»«*» dtfons Mm must be made See,terns
11 and 12.)

given notice of the
Li has U has not
S3 io. The cbiid(ren) is/are Indian as defined in MCR 3.002(12). The petitioner
^Thep^riaPhearhog rm^sfbe^adlourned'pending conclusion of a removal hearing required by MCR 3.967.
D me removal hearing required by MCR 3.967 was conducted in conjunction with this hearing me ,e<,u„ed«n«m,sm
testified as required by law.

A qualified expert, --- ----------------- ----------------------- ---------I j 11. n l

home because:
m

r
T--. C-cr.
(SEE SECOND PAGE)

f...

Do not write below this line - For court use oji$

P§'!£

-K.'

<.OC5

ro
‘

CO

-.1

*3*

^
£Z

5

JC11b(9ft3)

!

MCL 712A.2, MCL 7f2A.rja. MCL 712A.14 MCI 712A 19312). MCI 712A.19M4J. MCI 722.636, MCR 3.CC2. MCR 3 321(C), MCR 3.965
ORDER AFTER PRETRIAL HEARING (CHILD PROTECTIVE PROCEEDINGS) PAGE 1

Q

I

147

I
i
JISCODE:PCS-PT/OAT
TCS-PTH/QfPl

Approved, SC AO

STATE OF MICHIGAN

CASE NO. 15-35887-NA
ORDER AFTER PRETRIAL HEARING
PETITION NO.
COUNTYj (CHILD PROTECTIVE PROCEEDINGS), PAGE 2
I
ORDER
OF

24Ttiju01C!AL CIRCUIT • FAMILY DIVISION'

SANILAC
Court address

Court telephone no.

60 W. Sanilac Ave., Sandusky, Ml 48471 •
In the matter of

S«ft(C6/23.m; M**S|

(810.) 648-3220
'{09/22/J

- 12. L.i a. Consistent with the circumstances, reasonable efforts to prevent or eliminate removal of the child(ren) from the home
were made as determined in a prior order.
OR
.:b. Consislentwiththe circumstances, reasonable efforts were made to preventor eliminate removalof the chiid(ren) from
the home. Those efforts inciude:<Speciiy below.) OR
; :-c. Thechiid(ren)is/are Indian, and.thecourtfinds by clear andconvmcing evidence and the testimony of aqualified expert
witness who has knowledge about the child-rearing practices of the Indian child's tribe, that active efforts
LJ have
L_; have not been made to provide remedial services and rehabilitative programs designed to prevent
the breakupof the Indian family. Theseefforts have proved G unsuccessful, □ successful,
thecontinued
custody of the children) by the parent or Indian custodian Li is _J is not likely to result in serious emotional or
physica’damagetothechildfren), andthechild(ren) ; 'should i i should not beremovedfromthehome.
(Specify below.)
The efforts for 12.b. or 12.C. are: {Specify the efforts from i2.b or i?.c here lithe child is an Indian child, specify active efforts as defined
byMCR 3.002(1 )and MCL 712t3.3|aj.)

!. :d. Reasonable efforts to prevent or eliminate removal of the child(ren) from the home were not made.
13. a. Reasonable efforts are noj required to preventor eliminate the child(ren)‘s removal from the home due to
ithe
f imother
L father
subjectingthechild(ren)tctheaggravatedcircumstance(s)of
--------------------------------------------------------------- as provided in section MCL 722.638(1) and (2), and as evidenced

by
I ithe
_j mother’s M fathers
conviction for murder of another child of the parent,
the
i .j mother's !_j father's
conviction forvoiuniary manslaughter of another child of the parent,
•.the
..; mother's
\...• father's
conviction for aiding or'abetting in the murder or manslaughter of another child of
the parent, attempting to murder the child(ren) or another child of the parent, or conspiring or soliciting to commit the
_ murderofthechildfrenjoranotherchildofthepafent.
— the
L_ mother's
fathers
conviction for felony assault that resulted in serious bodily injury to the child(ren)
_ or another child of the garent
Gthe
Lr: mother's
G father’s
involuntary termination of parental rights to a sibling of the.child(ren).
;the
..imother
. i father
being required to register under the Sex Offender Registration Act.
!

■

b. Reasonable efforts to preserve and reunify the family to make it possible for the child(ren) to safely return home are
U not required because the parent subjected the child or another child of the parent to one of the circumstances stated
above.
OR
i.j still recommended because:

(When item 13 is checked, either complete Item 15 below or schedule s permanency planning hearing within 28 days of this determination.)

(SEE THIRD PAGE)
jciib <e/i3j ORDER AFTER PRETRIAL HEARING (CHILD PROTECTIVE PROCEEDINGS), PAGE 2

148

!

JlS CODE; PCS-P7/OA7
TCS-PTHrQPPl

Approved. SCAO

CASE NO. 15-35887-NA
STATE OF MICHIGAN
24TH JUDICIAL CIRCUIT • FAMILY OIVISION
ORDERAFTER PRETRIALHEARING
PETITION NO.
SANILAC
COUNTY {CHILD PROTECTIVE PROCEEDINGS), PAGE 3
ORDER____ OF_____
Court address

Court telephone no.

60 W. Sanilac Ave., Sandusky, Ml 48471
In the matter of Jl

SflP{06,'23i

(810) 648-3220
i;

(09/22.’.

G 14. Li a. Reasonable efforts shall be made to preserve and reunify the family to make it possible for the child(ren) to safely return
home.
G b. Reasonable efforts shall not be made to preserve and reunify the family because it would be detrimental to the child(ren)'s
health and safety.
D15. Becausereasonabieefforts to prevent or eliminate removal orto reunite thechild(ren) andfamity arenol required, apermanency
planning hearing was conducted. (Use and attach form JC 1S. Order Following Dispositional Review/Permanency Planning Hearing.)

16. Custody of the child(ren) with the parent/guardian/iegal custodian
ij a. presents a substantial risk of harm to the chiid(ren)'s life, physical health, or mental well-being.
'□ No provision of service or other arrangement except removal of the children) is reasonably available to adequately
safeguard the child(ren) from the risk of harm to the chiid(ren)'s life, physical health, or mental well-being.
U Conditions of custody at the placement away from the home and with the individual with whom the child(ren) is/are placed
are adequate tosafeguardthechild(ren):s health and welfare.
: b. does not present a substantial risk of harm tothechild(ren)'s life, physical health, or mental well-being,
GlT. Parenting lime with Derek Shaw

even if supervised, may be harmful to the child(ren)

ITISORDERED:
_
C 18. Notice is to be given to the.legal/putaiive father(s) as required by law.
U The father was not present and must appear at
the next hearing.
H The putative father was present at this hearing and snail establish paternity within 14 days.
19. The child(ren)
□ a-, is/are placed with the Department of Human Services for care and supervision, and
i. the parents), guardian, or legal custodian shall execute ail documents necessary to release confidential information
regarding the child(ren) including medical, mental, and educational reports, and shall also, within 7 days, provide the
Department of Human Services with the name(s) and address(es) of the medicalprovider(s) for the child(ren). Any
medical providerfor the chi!d(ren)shailreieasethemedicalrecordsofthechild(ren)totheDepartmentofHumanServices.
ii. if the child(ren) is/are placed in the home of a relative, a home study shall be performed by the Department of Human
Services and a copy of the home .study submitted to the court not more than 30 days after the placement.
iii. upon request, the Department of Human. Services shall release to the foster parent the information concerning the
child(ren)in accordancewithMCL712A.13a(13):
G The child(ren) shall be taken into protective custody. To effect this order,_________________________________
is authorized to enter the premises located at_______________________________________________________
This authorization to enter the premises and take the children), into protective custody expires_______________ _
□ Enter on LEIN
j/j b. remain home with or is/are releasee tpElizabeth Shaw

NamsL) o; parents), guaidian. or legal custodian

.under the supervision of

the Department of Human Services. bL The following terms and conditions apply to the parent/guardian/legal custodian:
Derek Shaw's parenting time order under file 14-35535-DM (FOC Case) is suspended until further order of the court.

(SEE FOURTH PAGE)
JC 11b (9H3i ORDERAFTER PRETRIAL HEARING (CHILD PROTECTIVE PROCEEDINGS), PAGE 3

149

i

:
JISCODE:PCS-PT/OAT
TCK-PTH/OFPI

Approved. SCAQ

CASE NO. 15-35887-NA
STATE OF MICHIGAN
24TH JUOICIAL CIRCUIT • FAMILY DIVISION
PETITION NO.
ORDERAFTERPREtRIAL HEARING
SANILAC
COUNTY (CHILD PROTECTIVE PROCEEDINGS), PAGE4
ORDER
OF
i
Court telephone ho.

Court address

(610) 648-3220

60 W. Sanilac Ave., Sandusky, Ml 48471
In the matter of
J|
S«rt06/23/|

i; Um

(Q9l22fmm

ITISORDERED: (continued)

U 20. Tnechiidiren) named_________________________________ ]____________ :--------------------- ------------------------------shall have □ a psychological evaluation L i counseling to determine appropriateness and conditions of parenting time,

is
L«t: 21. La. Parenting time of Derek Shaw - Suspended until further Court order.
Q unsupervised. ] supervised until further order of the court.
L'TheOepartmentofHumanServicesfiasdiscretiontoallowunsupervisedorsupervisedparentingtimebyitsdesignee.
is
[jb. Parenting time of__________________________________
U unsupervised, i, i supervised until further order of the court.
L; The Department of Human Services hasdiscretion to ailowunsupervisedor supervised parenting time by its designee.
is
Oc. Parenting time of__________________________________
□ unsupervised, I .isuperviseduntilfurtherorderofthecourt.
[' ’ The Department of Human Services has discretion to allow unsupervised or supervised parenting time by its designee.
Lid.

22 Until further order of the court, placement shall continue pending

™ KV.rrV\ Z.M,

iVfresumption of the pretrial i~

■ ! trial

*

CM ICY. OO Acl> 1

Date and lime
;/>23. Other: {Include orders regarding discovery, scheduling orders, etc.}

Father’s parenting time is suspended until further court order.
Both parents must cooperate with the comprehensive family assessment.
Mother, may not discuss the details of this case with the minor children.

24 Prior orders remain (n effect except as modified by this order.
Recommended by^

'

RefereV'Signaiure

/
Gale

)

A (A
«

Xx • s

/
I

/A

A

//

A' 'I
Judge

0■3m

/

JC 11b (9/I3I ORDER AFTER PRETRIAL HEARING (CHILD PROTECTIVE PROCEEDINGS), PAGE 4

150
r

v.:'..

15-35887-NA
S

REFEREE’S'SUMMARY AND RECOMMENDATION
REGARDING RESPONDENT FATHER’S PARENTING TIME

Present on March 17. 2015 at the preliminary hearing/probable cause hearing were: DHS
■

i

Worker. Rachel Jacobson, Prosecuting Attorney Eric Scott ("Mr, Scott*’), L-GAL Margaret Kelly
("Ms. Kelly”). Non-respondent Mother. Elizabeth Shaw (“Mother”), and Mother’s attorney,

•
!

Barney Whitesman (“Mr. Whitesman”). Kelly Langford, representative of the tribe of Oklahoma

;

appeared in person.
' SUMMARY
:

The parlies placed their appearances on the record. The referee explained that Ms.
!

Benson had pneumonia and had contacted the court to tell them she would be unable to attend
the hearing. Her client, respondent father, Derek Shaw, was not present since his client would
not be available. Since this was Mr. Shaw’s probable cause hearing we could not conduct it in
his attorney's absence. The court concluded that the probable cause portion of the hearing would
be adjourned; however any emergency motions/requests could be presented and would be taken

t

c

under advisement. Mr. Whitesman joined Mr. Scott is his renewed request for supervised or
i

suspended parenting time pending the conclusion of the evaluation initiated by the tribe. Mr.
Whitesman Chen proposed exhibits #3, #4, #5 and #6, which arc as follows:
EX 3: Report of Dr. Taller daied February 24, 2015.
EX 4: Transcript of the November 6, 2014 FOC hearing: Testimony of Dr. Suzette
Walker.
Ex 5: Transcript of the November 6. 2014 FOC hearing: Testimony of Elizabeth
Armbruster.
EX 6: Kathleen May Lawton Coutborn Fallen PhD Curriculum Vitae.

;

i
s

!

151

15-35887-NA

Ms. Kelly argued that the report from Dr. Fallcr should be given little credibility, but
admitted the information was relevant. Mr. Scott did not object, stating that they were material
and relevant. Exhibits #? through #6 were.admitlcd.
Mr. Whilesman argued (hat the visitation should be suspended or supervised at the very
least until the next court hearing, or the conclusion of the investigation. Mr. Whilesman stated
that the reports contained reports by the child to doctors and counselors where she had reported
beine touched bv her father in a sexual manner. Mr. Scott also argued that the visitation should
be suspended or supervised until the investigation is complete to protect the child based on her
allegations against the father. Ms. Kelly had met with the children and their principal and based
on her investigation thus far has concluded that there is no reason to suspend parenting time with
the Father. Ms. Kelly believes that Mother may he coaching the child to make these statements.
Ms. Langford slated that it is the tribe's position that based the report by Dr. Fallen and various
report by M^S^fethal father’s parenting time should be suspended until the completion of
the investigation.
At this time the referee adioumed the probable cause hearing to 1 uesdav, March 24..2015
at 10:00 AM. The referee then took the issue of suspension/supervised parenting.time under
advisement and indicated that she would review the exhibits and provide them to Judge Ross to
review as well. An opinion and order would issue as soon as possible.
RECOMMENDATION
While we declined to go forward with Father's probable cause hearing, it is important to
protect the minor children until the next hearing. We cannot simply ignore the best interests of
the child because Fathers attorney is ill. The court recognizes that Father would object to the

152

1

15'35887-NA

relief being requested. In addition. Father’s attorney was able to and did voice objections at die
last hearing. At the last hearing, there was no information available except the petition as a basis
for suspension of Father's parenting time. At the continuation of the preliminary hearing today
several exhibits were admitted.
In Exhibit #4, Dr. Suzette Walker testified to seeing urinalysis results showing a
‘'moderate to a large amount of blood in the urine." Upon further examination. Dr. Walker
observed Mfl|0vagina and found that it was “swollen and red and very irritated’' and Mflff
again showed Dr. Walker this was where her father put his hand and hulls her.
In Exhibit 05, the child’s therapist, Ms. Arbrusler states that “the actions and things she
has shown my during play therapy and those type of things I don’t believe could have been
guided in the way she has shown me” and that Ms. Armbruster does not believe that

has

been coached.
Based on a review of the report by Dr. Faller and the disclosures made by MJV
Dr. Faller, I have to agree that with Dr. Fuller’s statement that “a six year old child who is in an
unsafe situation should not be expected to make a detailed disclosure in order to be protected.
Indeed, it would be a betrayal if after telling about sexual touching, she is sent back to her
offender.” Dr. Faller strongly recommends that parenting time be suspended until the conclusion
of the comprehensive family assessment.
In this case we have a six year old who is being abused or strongly believes she is being
abused.

has reported ibis to multiple health and mental health professionals. In either case,

having unsupervised contact with the person who she believes is sexually abusing her or who is
in fact sexually abusing her presents an imminent risk of harm for the minor child, both

153

i
;

15-35887-NA

!
physically anc! emotionally. If the court accepts what .M,

i

has been reporting is true, and for

!
;

purposes of this hearing the court is accepting her statements as true, parenting time, even if
supervised, would be harmful to the minor child. Because the way a parent treats one child is
indicative of how you. would treat another of your children, that same risk is also present for
Jl
Once the comprehensive family assessment is completed the. court will reevaluate the
parenting time of Father.
Therefore, my recommendation is that:
1.

That Father’s parenting time be suspended until further court order; and

2. That both parents cooperate so that the comprehensive family assessment can be
completed as soon as possible.

i

March 18. 2015

Or ■]/

n

we
Ref. Heather A. Zang/

V

U-

ill

1P67727
;■J

154

STATE OF MICHIGAN
IN THE 241'1 CIRCUIT COURT FOR THE COUNTY OF SANILAC
FAMILY DIVISION

Court No. 15-35887-XA-01 -02

In the Matter of the Welfare of:
Jj

(DOB 06/23,

ORDER GRANTING

Ami

M

TRANSFER

o

m

(DOB 09/22®*

r:

^

™ D>
'£F=
r*l>
-----

so
<7

■n<~i

C~.>

c:

cu

m

••o

■2S

C-

■«—/ i';;> fj

_o
xr

ORDER OF TRANSFER
This matter comes on for hearing upon the Motion to Transfer filed by the Miami
Tribe of Oklahoma, seeking an order to transfer this case to the MIAMI TRIBE OF
OKLAHOMA DISTRICT COURT, 3510 P Street NW, Miami, Oklahoma 74354.
The court has heard the arguments of counsel and is hilly advised in this matter.
The Court finds that transfer of this case is proper and no good cause exists to deny the
transfer.
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED THAT this case
)s therefore transferred to the MIAMI TRIBE OF OKLAHOMA DISTRICT COURT,
subject to die right of declination by that court.
IT IS FURTHER ORDERED that the child shall remain a ward of this Court,
with legal eusiody residing with the Oklahoma Department of Human Services, with the
tribal Indian Child Welfare Department having authority to place the child. This shall
remain in eileci until tills Court receives notification that the MIAMI TRIBE OF
OKLAHOMA DISTRICT COURT has accepted transfer of jurisdiction over these
children.

Xl

V
X.i //. f-3/2 7 ?

■S/Uv/A
Honoral

uuge Ross

i

R

155

Court of Appeals, State of Michigan
ORDER
Derek Shaw v Elizabeth Shaw

Michael F. Gadola
Presiding Judge

Docket No.

352851

Stephen L. Borrello

LC No.

14-035535-DM

Michael J. Kelly
Judges

The motion for immediate consideration is GRANTED.
The motion for leave to file a reply is GRANTED. The reply received on August 10,2020
is accepted for filing.
The motion for peremptory reversal pursuant to MCR 7.211(C)(4) is DENIED for failure
to persuade the Court of the existence of manifest error requiring reversal and warranting peremptory
relief without argument or formal Submission.

Presiding Judge

A true copy entered and certified by Jerome W. Zimmer Jr.. Chief Clerk, on

August 12,2020,
Date

l

156

S
3

Order

Michigan Supreme Court
Lansing. Michigan
Bridget M. McCormack,

October 16, 2020

dart Jwtr.i.

161945 & (43)

Devid F. Viviatto,
Chief Jwu f; Pro Tern
SlephenJ. Markmar.

Brian K-Zahra
Richard FL Bernstein
Eb2abetli T. Clement
Megan K. Cawnagh*

DEREK SHAW,
Plaintiff-Appellee.

J•■*&:<*

SC: 161945
COA: 352851
Sanilac CC: 14-035535-DM

v
ELIZABETH SHAW,
Defendant-Appel (ant.

On order of the Court, the motion for immediate consideration is GRANTED. The
application for leave to appeal the August 12. 2020 order of the Court of Appeals is
considered, and it is DENIED, because we are not persuaded that the questions presented
should be reviewed by this Court.

a\^s$]
■v£t-vsn$.

f harry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 16. 2020

bl0l3

Clerk

<

T

i

157

Court of Appeals, State of Michigan
ORDER

In re Shaw Minors
Docket No.

353213

LC No.

15-035887-NA

Christopher M. Murray, Chief Judge, acting under MCR 7.203(F)(1), orders:
The claim of appeal is DISMISSED for lack ofjurisdiction because it was not filed within
21 days of the March 24,2015 order transferring jurisdiction of the case to the Miami Tribe of Oklahoma
District Court. MCR 7.204(A)(1)(a). Although appellant claims that the appeal was timely filed from the
Sanilac Circuit Court’s February 27, 2020 order denying appellant’s motion to rescind the transfer,
appellant cannot claim an appeal of right from such an order. See MCR 3.993(A)(6). Dismissal is without
prejudice to the filing of a late appeal under MCR 7.205(G), provided such a filing meets all requirements
under the court rules and is not time-barred.
n
,."'v
■

>

A true copy entered and certified by Jerome W. Zimmer Jr.. Chief Clerk, on
Pi
mj

Apri1 30, 2020
Date

U

!

158
►

Court of Appeals, State of Michigan
ORDER
Stephen L. Borrello
Presiding Judge

In re Shaw Minors

Mark T. Boonstra

Docket No.

353213

LC No.

15-035887-NA

Michael F. Gadola
Judges

The motion for reconsideration of this Court’s order of April 30, 2020 is DENIED. Because this
Court is without jurisdiction to entertain the appeal as of right, the motion for im™ediate consideration
and entry of an order declaring the circuit court’s order of transfer void is also DENIED.

g
/

A

A‘

Piesiding Judge
/

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

May 12, 2020
Date

j

159

V
i

J

lj\ THK DISTRICT COURT FOR 1IU.
MI AMI TR1RK OF OKLAHOMA
.11 VF.NUJC DIVISION

)
)
)
)

in h‘ic Maiwr of:

S

.1

ami
M

<:ascNo.<:\V-2(H5-0()IU

)
)

SI

MIAMI TRIBE OF
district court

I

)
)

minor Indian children
under 18 years of age.

MAR 2 5 2021

OKDKR l l.KMINA I IN<; PARKNTAI. RK-HIS
nr mol .OClCA * MOTHER. KM/AI™ SHAM.

.........
the Miami Tribe of Oklahoma. The nanm. hnhc . Derek *
,,W Ci
Wonda S.ovall. Z*
viriuaHe. Hie biological mo
did not appear and is wnolh m default.

^

all iippc0I«|

........ cc of,his he

lip.,,, reviewing die files mid records in Ibis loimer.
and awancm of counsel, .he Coon FINDS as follows:

-

hearing -.he testimony ol the panics

I to, ,hc minor children .mined above whose dales ol hinh am indicated above arc members
"the Tribe"}. Jackson Shm1.
.1- ,he Miami Tribe of Oklahoma (referred lo herein as
:•') and Maya Shaw’s eiirollmciu mimhei is 41 II .
enrollment number is 41
rolled member of the Miami Tribe o',
- he natural mother. Idi/abeth Sh:»w. is w*l :m en
lied member ol the Miami I iib«. o.
Oklahoma. The natural lather. Derek Shaw, is an enro
Ukiahomu with die enroilmem number of OJbM-

‘i h.

u divorce and custody action Filed in the District Court *s
Thai ihe ease originates Iroin
follows: In die Mattered .UtcKSoa
Sanilac Comity. Michigan. The respecliec eases are as

W
vn

mmmm

160

Sha/.v. Case No. i 5-.'5SS7-N A-ii i -02 and in the Mailer of Maya Shaw. Case No. i >.oSS
NA-OM32. Sanilac County District Conn. Slate ot Michigan.
riwlMarch 24. 2015. ihc Miami Tribe cl'Oklahoma lilac a I'diuon lo Acccpr Trailer
of lurbdiemm ami on the .same dale, .he Miami Tribe oiOkhthoma O.s.nel Coon enu.ee
»n Order Aeeepliup Iranslbr and Awarding Temporal; Ousumyro ihc lube.

4.

ih-u xb\< Court jus jurisdiction in 'ins proceeding pursuant to tiie Miami Tribe ol
Oklahoma Children s Code Seen.... I.ZUhl in lhai H* proceed,i^ anolivs .
are e,.roiled members of ihc Miami Tribe ,T Oklahoma and resale
"
Tribe or Oklahoma lerrilorial jurisdieinm and tins C mm is me moM appropna e i

r>.

hearing litis matter.
2015. the Tribe filed a Petition to adjudicate die minor children deprived
Thai on .tunc t}
'Hie basis for die Pclition stemmed from allegations ot sexuai
as to ti’.v biological lather.
,o Muva Shaw made hv the biological mother, l-.li/ahcih Shaw . which ultimately
abuse to
■ iciermined lo be iiihrieaied by ihc muund mother. The biological laiher was cmlereo
were..
u. have no contact with the children and mother was ordered to complete a psychological
evaluation.

6.

7.

Tl-r a mulihiide of events and filings occurred with regard m these minor chddien up w
the time of Order of Adjudication Hied on April IT 2»!8. udituheatmg both chduren
dcpri%

S.

:b m both the miiurai father and natural mother.

I he father signed his plan .
That each parent was eiven u i'amib services t ?e:u:v.e:v. c
Ihc natural mother it:;:! art ayrrurrui-.c tar H sei"- ices treatment plan
and co: >te.:vc.
reen successful. Throughout
.
bu- she failed to comprlv with me ;*t:tn ana the Nan has not
he natural mother has beer. ucdwiy noneooperalive. She has actively
this extcnsA e case
mrfuiph.- actions attempting tollman
resisted eo-parct'ung and co-coanw: e am: ;vj' it.e
;
the
children.
The father has complied with the
r.uvur;;: tuthe
die reunification *
nachcr
for
the
most
part has been non-complinm.
'.V
tite
process of land:;- reumtica'
dmdicaied
abused
and
neglected by the natural
re
‘nnc Court finds that ’ate s r«::-e.
•>’, • -d-.at the conduct or condition of die natural
mother arid tits' nature! mot'nc; t> .a.os
mother is unlikel; to change a itntn a svimmuhio time.
children were uinmnich reunified with their father and moved with him to
Oregon" in August ot 2019 and rent: ,in with their father. The children have appropriate
placement with their father amt are happy and well adjusted.
Thai the minor

10.

ramount consideration of the health safety and weliareof the minor children,
The Court in pa
fold* be' Oiid a reasonable doubt that termination of the natural mol her s parental rights
would be in the best intc.vstsofthe mi.mr children and further finds that die nlv s . etnas:
Terminate Parental Kights of biological Mother. Kh/aoeth Shaw. should be gianwe..

WmmSsS:

i

n IS THEREFOREORDERED, AOJUIK; ED and DEGREED,by liic Coun that tlic
parental rights,ol'the biological mother, K'Hzobesh Shaw, are by thesepresents icniiimticd..

IT IS SO ORDERED.
•'fJoNOKAnr^^ JACK BRUT

\

Date

162

STATE OF MICHIGAN
IN THE 24th ( IRU IT COl K1 FOR THE COIN l Y OF SANILAC
FAMILY DIVISION

A.

DI-IREK JOSEPH SHAW.
Plaintiff.

Cm* No: 14-35535-DM
Hon: Gregory S. Ross

v>.

ELIZABETH ANN SHAW.
Defendant.
JOHN S. PATERSON PI8693
Attorney fur Plaintiff
35 S. Elk, Bov 311
Sandusky, MI 484")
K10-64K-2414

ELIZABETH SHAW
In Pro Per
O
15 Truman St.. Apt 204 ^
Crowell. MI 48422 —.<>•
810-712-161?

r«>

3gC

ORDER

3D

!*n

Ai a session of court held the City of Sandusky.
Michigan, or. >v;:__ca;- ot (ptewtor r. 2014.

r; k'
V-

1
g

r {S‘r-

*> ms
O

-T»C

yjJ

PRESENT: THE HONORABLE MIC HAEL P. HIGGINS
ihis m.r.ier h.r- *i;*i tmme before tie Cc-ur. or. Deienditnr.s Motion ‘.or Custody. n: me
.•‘.hove captioned matter and .he Court being tuiiy advised in the premises:
I I IS HEREBY .ORDERED thill the minor amid. MpSI
S'- anv r-erson without a court Order

* shall not be interviewed

FURTHERMORE. IT IS HEREBY ORDERED that the matter is referred to me
Oountv Friend of the Court for an eMuer.'daiy hearing on the issue of custody and
i.'.:siod-i;ii time
H RTHERMORE.1T IS HEREBY ORDERED that PialmitV shall have supervise
on alternate Sundavs irom 12:00 p.n. until 6:00 p.m.
y
^
visitation with M
o
***/•*+•
*+S'~tX4?r
She
&*<**-}
f'T™*
,
zr+ n P-K> V<J**c-*1 40/

?%jft•€*+**•*

'Tlut"(/'rr
Date

///£&//<£

Michael P/JKaims.'tlRCUJT JUpGH

, •

a

W39- \*.U ds^tOtJ*. <•&

Approved ife h hss'fot*
■ A'.
A---- v. v-ceze*'
?‘:-ere cf toe Vz.*

-GREGORY S. *068 (P31377)
(MMreountAeoi

’■* / Vc.f: ir
?

\ . ...

163

Corumpm irs Counsel mg IS ■ C.
60S Fox Street
L>vpo-e-,rs Mi 48446
(Ht-O) 5384)229 Fax W1C) 5384)231

October 16. 2018
to return home to Ms. Shaw for
Requirements for Ms. Shaw for M
fift> percent of time/custody
Ms «haw will cease and desist all Petitions to tne court regarding the return ai her ctoidrcn w
her home and her daughter to not see her father. Ms. Shaw will withdraw all petitions awmtmg a
court hearing Ms. Shaw will not petition the court anymore aoout past allegations ofsex.ua.
t«kc dauchtev. hteto any forensic evaluations or physical or menial health appointments^
reuarding abuse issues, except to Donne Grecntav LMSW, ACSW at Concepts m Counseling
‘LUC.
Si
■and
Ms. Shaw will agree lo have 50/50 custody with the father.ot the c*mctren» .
Ms. Shaw aarees to allow son.
84V10 -*ve *u1i Vtac W11*1 'l,1'
Commixed therapv will be utilized to help J*M»wilh reunification with ms motner witn the
-oai of
havirm cwerrbefM visits with his mother. The arrangements ol this to oe
detained as ihmpvproceeds. Visits with each parent for MjrwW be: Monday pick up aft*
school, at school, and returned to school the following Monday morning. For Mflf each parent
can also have visits for three hours on Wednesday in which they do not have the cmld m ilteir
home, Any half davs or days off, Grandmother Marsha. Wetzell has agreed to be avadaote. i r
needed-

furthermore. Ms. Shaw agrees to not do any actions that would estrange the children bom their
father. She wilt not verbalize or behave in any way that would discredit, cause disrespect to, or
diminish the quality of the ehlldrerf s relationship with their father..
Ms. Shaw will continue therapy with Donna Crrec-nhav.- LMSW. ACSW and agrees to wont or.
her own issues as well as family issues. She- agrees to have individual sessions as wen as family
sessions, and ro-pareming sessions between her aad Mr. Shatv.

KHzaherh Shaw

Date

Donna Grecnhaw LMSW. ACSW

Date

D^^(™h^wLM5V^.A.C.S.W..S‘^n^K.uCCM.A.LPCKimL^Owens 13LS.W. A.C.S.W..
Sg^ii Sk^liou LMS.W, ACS.W. CAADC, Michelle Wisdom lMs.M - ^S- v/.

Y

164

IN THE DJSTICT COURT FOR THE
MIAMI TRIBE OF OKLAHOMA
JUVENILE DIVISION

)
)
)
)
)
)
)
)
)
)
)

In the Matter of the W elfare of:

Si

,J]

DOB: 06/23/i
and,

DOB: 09/22/
Minor Indian Children.

Case No.: CW-2015-0003

MIAMI TRIBE OF OKLAHOMA
TRIBAL COURT

JUN 0 9 2015

PETITION TO ADJUDICATE MINOR CHILDREN DEPRIVED
'"-V

as

TO BIOLOGICAL FATHER DEREK SHAW

COMES NOW Robin Lash. Attorney General, as Presenting Officer for the Miami Tribe
of Oklahoma, and mme> this Honorable Court to enter an Order adjudicating the above minor
children deprived as to biological father. Derek Shaw. Pursuant to the Miami Tribe of Oklahoma
Children's Code ^ 1.2.1. this Court has jurisdiction of the above minor children.
In support of this Motion the Miami Tribe of Oklahoma would show as follows:
1. The above minor children are under the age of eighteen (1M years of age.
2. The minors are enrolled or eligible for enrollment with the Miami Tribe of Oklahoma.
3. Elizabeth Shaw, the biological mother, is a non-Indian.
4. Derek Shaw, the biological father, is an enrolled member of the Miami Tribe.
5. The above named children arc subject to the jurisdiction of this Court within the meaning of
the Indian Child Welfare Act. 25 U.S.C.19! 1(b).

Z

165

* The basis of this matter arises from ailerons and
^
childrens’ biological father. Derek Shaw, sexually abused to daughter. V*
filed With me Sanilac County District C ourt, State of Michigan,
On March 24.2015, the tribe
a Motion to Transfer the state eased to the Miami Tnbe of Oklahoma District Court.
approval by the Sanilac County District
On March 24. 2015. the Motion to Transfer was
an Order to Transfer this ease to this
Court . state of Michigan. Honorable Judge Ross; and
mered. subject to the right of declination ot
C-S.C .1
)■
Court was e
. by and through Presenting Officer. Robin
<). On March 24. 2015. the Miami Tribe of Oklahoma
Lash, filed a Petition to Accept Transfer of Jurisdiction m this Court.
10 On March 24. 2015

.

o*.- f

was

•

signed by the Honorable Judge Charles Tripp, Miami
Judge.
.. n
7 7()15 Miami Tribe ICW worker CalHe Lankford, filed with this Court an
‘ Application'for Minors in Need of Care reciting the lengthily history of this case including
specific allegations and information as to sexual abuse referenced above. The al egattons ot
sexual abuse are incorporated herein through the Application for M.nors m Need ot Care.
Initial Hearing took place in this Honorable Court with both Mr. and
12. On April 16. 2015 an
Mrs. Shaw appearing by phone.
n At the Inina! Hearing the Tribe asked for an extension of time to make a determination
whether or not to flic a Petition to Determine the Minors Deprived, pursuant to Section 1.17.1
of the MTOK Children’s Code.
14. Pursuant to Section I.e(a) of the Miami Tribe of Oklahoma Children's Code the definition
for “Deprived Child" means a Child "whose Parents). Guardian^!. or Custodmn(s) has
subjected his'her child to abase or whose Parentis). Guardian) si. or Custodians) has enabled
or allows another to subject flic child to child abuse without taking lawful means to stop such
child abuse or prevent it from recurring/’
15. The Tribe requested the extension of time to consider whether to file a Petition to Determine
Minor Children Deprived following review comments and or findings of the Family
Assessment Clinic in Ann Arbor. Michigan, relating to the parties.

166

ssmcnt Clinic reports were«'hc
April
16lh
that
the
Family
Asse
16. ICW advised the Court
leted and submitted to the 1 ribv on May 9.2015.
comp
Tribe seven (7) days following recetpt
an Order granting the
,
This
Honorable
Court
entered
M whether to file* Petition to
17
to make a determination as
of the Assessment Reports
Motion to Dismiss the case.
Determine the Children Deprived, or tile a

in

On hml ml«.*■*gyggSSjSw wU**»

19, On June 8. 20 i 5. upon returning to work. Ms.
reports.

US1, reviewed the Famfly Assessment Clinic

consensus that minor.
■>0 The Fnmilv Assessment Clinic findings include a medical team
; likely sexually abused by her father. Derek Shan.
l was
SI
to Adjudicate the Minor Children
21. The Tribe reached the determination not to file a Petition
information or findings of
Deprived as to biological mother. Elizabeth Shaw as there is no
abuse or neglect related to Ms. Shaw.
,2 The Tribe reached the determination to file this Petition to Adjudicate the Minor Children
Deprived as to biological father Derek Shaw based on information detailed™ the Appl.car.on
foAlinors in Need of Care, filed with this Honorable Court, and based on findings at
ree ommendations of the Family Assessment Cuni*-.
22. The Tribe should maintain custocv o: the above minors with Miami Tribe Indian Child
Welfare (ICVV) having authority to place.
WHEREFORE, premises considered, the Miami Tnbe of Oklahoma prays for an
Adjudicatory Hearing on the Petition to Determine the Minor Children Deprived: and tor any and
all other relief this Court may deem jus: and proper.

Robi^tash 0BA?018$>
Presenting Officer
Miami Tribe of Oklahoma

167

IN THE DISTICT COURT FOR THE
MIAMI TRIBE OF OKLAHOMA

In The Matter of:
J
M

Si

DOB 06/23)
DOB 09/22.

A Minor Indian Child(ren).

)
)
)
)
)
)

Case No.:___rW-2{H5-O03
______
HONORABLE CHARLES TRIPP

MIAMI TRIBE OF OKLAHOMA
TRIBAL COURT

APR 0 7 2015
APPLICATION

for minor/si in need of care

COMES NOW, the Miami Tribe of Oklahoma by and through Callic Lankford,
MSW, Child Welfare Director, and moves this Court to Enter an Order dec‘^’
above minor Indian Child(ren) to be Minoris) in Need of Cot wuh legal cJody
child(ren) placed with the Miami Tribe of Oklahoma with the l^ian Child V,dfere
Office having authority to place the chfld(«n), with biological mother, Elizabeth Shaw,
15 Truman Street, Apartment 204, Croswelt, Michigan, 48422.
In support of this Motion, the Miami Tribe of Oklahoma would show the
following'
1
The Miami Tribe of Oklahoma is a Federally Recognized Indian Tribe
oreanized under a Constitution and Bylaws adopted by its members and approved by the
United States Secretary of the Interior pursuant to the Oklahoma Indian Welfare Act of
1936, 25 U.S.C. 301, et seq. and exercises governmental authority over us people and its
lands.
2.
Pursuant to Article VI, Section 1 of the Constitution of the Miami Tribe of
Oklahoma, the Miami Tribe of Oklahoma is governed by a Tribal Council, also known as
the Tribal Business Committee. The Tribal Business Committee exercises the inherent
tribal sovereign authority to protect the Miami Tribe of Oklahoma’s territory and its
members.
3.
Article 111, Section 1(e) of the Miami Tribe of Oklahoma’s Const itution
governs enrollment any child bom of a marriage between a member of the Miami Tribe
of Oklahoma and any other person if such child is permitted to membership by the
General Council of the Miami Tribe of Oklahoma.
}, the
(DOB 09/22/
4SNrtDOB 06/23and Mq^Si
above named children are Indian Children within the meaning of the Indian Child
Welfare Act, 25 U.S.C. 1903(4).
5.
The Miami Tribe of Oklahoma is the above named child(ren)’s Tribe
within the .meaning of the Indian Child Welfare Act, 25 U.S.C. 1903(5). The Minor
Children are the biological children of Elizabeth Shaw and Derek Shaw.

168

Derek Shaw is an enrolled member of the Miami Tribe of Oklahoma.
The above named child(ren) is subject to the jurisdiction of this Court
within the meaning of the Indian Child Welfare Act, 2r> U.S.C. 1911(b).
6.
?.

8.

The above named children's biological father, Derek Shaw, is alleged to

have Sexually Abused his -daughter,
...............
..
7.
On February- 19, 2014, the Miami Tribe ot Oklahoma s Indian Child
Welfare Office opened a case and began an investigation to determine it the best
interest(s) of the Minor(s) required further action be taken.
8
On March 17, 2015, upon conclusion ofthe Indian Child Welfare Office s
preliminary investigation, the Indian Child Welfare Office filed an Entry of Appearance
Li Motion to Intervene in the 24th Circuit Court for the County of Sanilac based on th.
following

Abuse made by thc ^ ^ed in wrUag

and through play therapy findings documented m therapy note
“S
& Educational Services between the dates of January M, 2014 mid September 16, 2014.
•>>
I ettcr from the Minors) therapist, dated July 2,2014, submitted to the
Sanilac Countv Friend ofthe Court, State of Michigan, stating It is my professional
opinion that until there is IOWA certainty this has not and will not happen to
if
there is visitation mth Mm™**** Sm'*f*h*r' Derek Shaw, thevisitaaon
should bes p

£xamijiatioil Reports dated January 30, 2014, September U,

2014. and October 1,2014 documenting the Minor(s) Sexual Abuse disclosure anu
irregular medical exam findings.
...
n
4)
Sanilac Countv Department of Human Services Investigative Reports
dated January 15, 2014, March 14, 2014, and June 3, 2014 documentmg reports
unsubstantiated
,,
Police Department Reports dated June 6, 2014, September 3, 2014,
5)
September 11, 2014, and January 22, 2015 documenting Divorce/Custody disagreements
between Derek Shaw and Elizabeth Shaw, disclosures of Sexual Abuse, and the
interference of Court Ordered Visitation between the Mtnorfs) and the biological father
bv the biological mother, Elizabeth Shaw.
_
51
The conducting of multiple Forensic Interviews by the Children s ^
Advocacy Center; without transcripts provided to the Indian Child Welfare Office tor
review of findings
6)
Submission of a letter, by and through thc Indian Child Welfare Office,
dated October 15,2014, to the Sanilac County District Court, State of Michigan,
biological mother, biological father, the Minorfs) therapist, Sanilac County Department
of Human Sendees, biological father's counsel, and the Miami Tribe ot Oklahoma
District Court requesting cooperation in resolving the matter, and further requesting
Minors) visits with the biological father be supervised or suspended until the Indian
Child Welfare Office received the results ofthe most recent forensic interview and
received recommendation from the Minorfs) therapist regarding the Mmor(s) mental and
emotional well-being prior to visitations resuming.
7)
Submission of a subsequent letter, by and through the Indian Child
Welfare Office, dated March 3,2015, to the Sanilac County District Court, State of

169

Mieliigan, biological mother, biological father, the Minor(s) therapist, Sanilac County
Department of Human Services, biological father s counsel, and the Miami Tribe of
Oklahoma District Court outlining concerns for the Minorus) well-being based on the
events, and lack thereof of events, which occurred between February 2014 to March
2015. Additionally, the Indian Child Welfare Office included, in writing, support of the
Sanilac County Department of Human Serv ices filing a Petition for a Child Protective
Proceeding; further requesting the Sanilac County District Court, State of Michigan,
Order a Suspension of Parenting Time for the biological father.
8)
Financial assistance provided by the Indian Child Welfare Office to the
Family Assessment Clinic in Ann Arbor. Michigan to provide contractual services for the
family in the form of Psychosocial Assessments and Psychological Evaluations for each
of the following: the biological mother, the biological father, and the Minors). Services
Agreement signed by the Sanilac County Department of Human Services, Family
Assessment, and the Miami Tribe of Oklahoma on January 26, 2015,
.9)
Preliminary Interview Findings submitted by the Family Assessment
Clinic, dated February 24, 2015, making the following recommendation(s): The Family
Assessment Clinic strongly recommends that visitations with the father be suspended
until we can complete our comprehensive family assessment. This, after all, is the reason
for the referral Wefeel there is considerable merit to the disclosures that MfcV
during her second interview. A six year old child who is in an unsafe situation should not
be expected to make a detailed disclosure in order to be protected. Indeed, it would be a
hetraval if after telling about sexual touching, she is sent back to her offender.
10)’ Petition (Child Protective Proceedings) filed by the Sanilac County
Department of Human Services, approved by the Sanilac County Prosecutor, on March 3,
2015 in the Sanilac County District Court Family Division, State of Michigan, including
the following as provisions of MCI, 712A.2(b)(l)-(5):
a.
An action within the jurisdiction of the family division of circuit
court involving the family or fami ly members of the minor has
been previously filed in Sanilac County Circuit Court, Case
Number J4-35535-DM, was assigned to Judge Gregory S. Ross,
and remains pending.
is a'are member(s) of or eligible for
and MflfeS
b.
membership in the Miami Tribe of Oklahoma Indian tribe.
Removal is requested below and attached are details describing the
active efforts made to provide remedial services and rehabilitative
programs designed to prevent the breakup of the Indian family and
documentation and attempts to identify the child’s tribe.
c.
The parent or other person legally responsible for the care and
maintenance of the child(ren), when able to do so, neglected or
refused to provide proper or necessary support, education, medical,
surgical, or other care necessary' for the child(ren)’s health or
morals, or hc'she has subjected the chlld(ren) to a substantial risk
of harm to his or her mental well-being, or he/she has abandoned
the child(ren) without proper custody or guardianship.
d.
The home environment, by reason of neglect, cruelty, drunkenness,
criminality, or depravity on the part of the parent, guardian.

170

nonparent adult, or other custodian, is an unfit place for the
e.

f

g-

The reasons) why it is contrary to the welfare of the child(ren) for
the child(ren) to remain in the home are:
MU has disclosed allegations that herfather, Derek has sexually
abused her.
The reasonable effortfs) made to prevent the removal of the
child(ren) include:
Extensive case management with DHS and the Miami Tribe of
Oklahoma, threeforensic interviews conducted at Child Advocacy
Centers and two conducted with CPS workers during preview
CPS investigations, coordination with law enforcement, individua,
counseling for the child(ren), a family assessment at the Family
Assessment Center in Ann Arbor through the bnhersity of
Michigan, as well as funding to assist with the cost of the
assessm ents and gas to assist with the transportation to the
assessments
The specific allegations are:
... On February 20. 20/5.
M*****11* interviewed at
A.
the Family Assessment Clinic in Ann Arbor by Dr. Kathleen Falter.
B During the interview, Maya disclosed that herfather. Derek,
has touched her bottom, "on top " of her clothing, but then stated
"sometimes on top'4 of her clothing. She reported “I can feel it
and "it hurls As to what he touches with, she said ‘ his hands
.disclosed'that this has happened “more than once She
c Mm
reporled
.. “he does it lots and lots oftimes". She reported "he stdl
D. MMtb reported “her dad acts like everything is ok and is acting
like nothing happened. He tells everyone that her mom is lying
and she is lying, but he is lying .
t, are all
E Derek Shaw and his two children,
and J{
members of the Miami Tribe of Oklahoma. Derek’s roll number is

h

1 request the court to authorize this petition and take jurisdiction
over the childfren). Further, I request the court to issue an order
removing the chitd(ren).
13)
Ex Parte Order to Take Children) into Protective Custody denied on
March 3, 2015 in the Sanilac County District Court Family Division, State of Michigan,
by the Honorable Judge Ross. Pre-Trial set for March 5,2015.
12)
Pre-Trial hearing held on March 5, 2015 set for Probable Cause hearing on
March 17. 2015 in the Sanilac County District Court Family Division, State of Michigan
The Indian Child Welfare Office’s request for Suspension of Parenting Time, in regard to
the biological father, until such time the Family Assessment Clinic provided a final report
.
was denied by the Honorable Judge Ross.
13)
Probable Cause hearing held on March 17, 2015 adjourned until March
24,2015 in the Sanilac Courtly District Court Family Division, State of Michigan. The

171

in regard to the
was Ordo-ed b>T^ee”“”r^j“^" Office conducted collateral interviews in
person, with the Sanilac County Department of Human Stav.ce*
„■* durin«
appointed to this matter, biological mother's counsel, and the Minorfs,) s therapist dunn„
the dates ofMarch 16 and March 17, 2015. Face to
XTtfarch 17 >015
biological mother, biological father, and the above named child ren) on March , .0 5.
& 15)
The Indian Child Welfare Office conducted a collateral interview, via
phone, with biological mother’s mother on March 23, 2015.
25
filed a Motion * Transfer in the
San'^^^^t^Mare^OOlT^Motion to Transfer was ^
County District Court, State of Michig^“ lo'of 25
Transfer this case to this Court was
U.S.C.1911(b).
17)
On March 24. 2015, the Miami Tribe of Oklahoma, by and through
Transfer of Jurisdiction in this
Presenting Officer, Robin Lash, filed a Petition to Accept
Court. 18)
On March 24, 2015, the Order Accepting Transfer and Award of
Temporary Custody was signed by the Honorable Judge Charles Tripp, Miami Tnbe ot
Oklahoma District Court Judge.

an
and all other relief this Court may deem just and proper.

MMJM
Cufie Lankford, MSW

/
dm Welfare Services Director
Muuni Tribe ofOklahoma

verification

State of Oklahoma
County of Ottawa

)
)
)

Caliie Lankford, of lawful age and first being du!y sworn upon oath, depose and
states that she has read the above and foregoing APPLICATION FORMINOR(S) IN

172

'“*v

\

NEED ;OF CARE and that the facis and things coma ied therein are ti
the best of her knowledge and belie*.
/

id correct to

dJarflx-k

37callie I.ahkford/

Subscribed and sworn to before me-this

day of April, 2015.

MU/'Yl

{ J/LLLz

Court Clerk

!
/ //
V

*

Mv Commission Expires:
.

OfflCULSEAL.

h KARtSSA CANTWELL

Iff f^ARYPUBUC OKLAHOMA
¥
OTTAWA COUNTY
COMM. NO..14010332 EXP. IMWOtt

:

173

CERTIFICATE OF SERVICE
day of April. 2015, a hue and correct copy
The undersigned hereby certifies that on the
ed to the following-.
of the above and foregoing insmtment was sent by U.S Mail, postage prepar

1. Derek Shaw
134 Gsige Sweet
Croswell, MI 48422
2. Baraev R.Whitesraan
Attorney for Elizabeth Shaw
1121 S, Grand Traverse
Flint, Ml 48502
(810)239-1430 Office
(810)240-0339 Cell
<*rf<»tarYwhitesrnant&aol .coin
3. Robin Lash. Esq.
General Counsel
Miami Tribe of Oklahoma
202 S. Eight Tribes Trail
Miami, OK 74354
918-541-1357 Office
918-542-2117 Fax
rIash’Simiamination.CQiTi

Karissa Cantwell, Court Clerk

174

s

MIAMI TRIBE OF OKLAHOMA
tribal court

IN THE DISTRICT COURT FOR THE
MIAMI TRIBE OF OKLAHOMA
JUVENILE DIVISION
3510 P ST. NW
MIAMI, OK 74354
In the Matter of the Welfare of:
SOfe (DOB 06/23/**

MAR 2 4 20!5
/

Case No.: CW-2015-0003
PETITION TO ACCEPT TRANSFER
OF J URISDICTION

And
Sj0) (DOB 09/22,
PETITION TO ACCEPT TRANSFER OF JURISDICTION
COMES NOW, the Miami Tribe of Oklahoma by and through Robin Lash. Attorney, and
requests this honorable Court accept jurisdiction of child custody proceedings which were ordered
transferred to this Court on the 24th day of March , 2015. by the Circuit Court of Sinilac County,
State of Michigan, and which causes are therein entitled and numbered as follows: In The Matter
Of: 4
S[
A Minor Indian Child, Case No. IS-35887-NA-0J-02; In The Matter Of:
Minor Indian Child, Case No. Court No.l5-35887-NA-0!-02.
In support of this petition, The Miami Tribe of Oklahoma would show the following:
1. That the children, Ji
and 'M|are Indian children within the
meaning of the Indian Child Welfare Act, 25 US.C. 1903(4).
2. That the Miami Tribe of Oklahoma is the children’s Tribe within the meaning of the
Indian Child Welfare Act, 25 U.S.C.1903(5).
3. That the Miami Tribe of Oklahoma desires to exercise jurisdiction over these matters
and have these causes heard in the Juvenile Court Division of the Miami Tribe of Oklahoma.
Wherefore, the Miami Tribe of Oklahoma request this Court accept transfer of
jurisdiction of the above reference causes, or, in the alternative, that a hearing be set for
consideration of these matters.

J

/*7

Robjn'LdSh, Attorney
0$A # 19859

O

r^i

Miami Tribe of Oklahoma
•v*"sn

Ot/
r-rr.

n

C’r

<0<~3

cr

:-’5s

rrj
Q

■ i

i

:

175

i

MIAMI TRIBE OF OKLAHOMA
TRIBAL COURT
A
IN THE DISTRICT COURT FOR THE
MIAMI TRIBE OF OKLAHOMA
JUVENILE DIVISION
351 OP ST. N\V
MIAMI, OK 74354
In the Matter of the Welfare of:

FIL

Case No.: CW-2015-0003

S^p(DOB 06/23-

Ji

MAR 2 h 2015

PETITION TO ACCEPT
TRANSFER
OF JURISDICTION

And

o

pn

M®Sgfe(DOB 09/22/®*

o r-j'
r •.

ORDER ACCEPTING TRANSFER AND

r-x

5

> nO

r".
o

- - c;

zo
This matter comes for hearing on the Petition to Accept Transfer of: In the Matter oJ&

-<

AVVARD OF TEMPORARY CUSTODY

CT-

r..

5^*, Case No. I5-35887-NA-0I-02, Sinilac County District Court, State of

Jt

Michigan.; and,/a the Matter of

Case No. I5-35887-NA-01-02, Sinilac County

District Court, State of Michigan.
The Court has considered this matter and is fully advised in the above matters. The
Court therefore finds the following:
I,

That on March 24,2015, the Miain i Tribe of Oklahoma, by and through Attorney

Robin Lash, filed a Petition to Accept Transfer of jurisdiction from the Sinilac County District
Court. State of Michigan, in the above reference matters.
2.

The minor children, J|

SI

and

are members, or are eligible

for membership, with the Miami Tribe of Oklahoma and are subject to the jurisdiction of this
Court.
3.

I'his matter is properly before the Court. The best interest of the children and

the Tribe are served by this Court accepting the transfer ofjurisdiction in these cases.

i

176

4.

The Sinilac County District Court. State of Michigan, has entered an Order

transferring this case to this Court, subject to the right of declination of 25 U.S.C. § 1911(b)
(See attached).
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED this Court accept the
transfer ofjurisdiction tendered by the Siniiac County District Court, State of Michigan In the
Matter of

Case No. J5-35887-NA-0J-02, Sinilac County District Court,

State of Michigan.; and, In the Matter of

-$££ Case No. 15-35887-NA-01-02, Sinilac

County District Court, State of Michigan.
IT IS FUTHER ORDERED that legal custody of the children is transferred to the Miami
Tribe of Oklahoma, and that the children are now made wards of this Court. Custody of the
children is placed with the Miami Tribe of Oklahoma with the MTOK Indian Child Welfare
Department having authority to place the children, with biological mother, Elizabeth Shaw.
IT IS FURTHER ORDERED that the Indian Child Welfare Department has the
authority to consent to any necessary or appropriate emergency, medical, dental, or health care
needed for the interests of the children during the pendency of this case.
IT IS FURTHER ORDERED that the Miami Tribe of Oklahoma Clerk of Court order
and file a full and complete record of the proceedings held in the Sinilac County District Court.
The Court Clerk of this Court is ordered to serve a certified copy of this Order on all
parties in the proceeding and the Court Clerk of the Sinilac County District Court. Stale of
Michigan.
SO ORDERED this 24,h day of March, 2015.
/

judg:

SKlES TRIPP'

^

"V

177

APPROVED AS TO FORM*"?
/

-k^bin Kash,dBA fy&$9z
Miami Tribe of Oklahoma
202 S. Eight Tribes Trail
Miami. Oklahoma 74354
(918)541-1357
Facsimile: (9.18)542-2117

l.

■;\

o
m

PP.
m--

c:~]
CD
cz
»
m

A
33

o ui

«— ^r~

• si
C

3C
fs:
G

:

c:.

y :z- ar.

-<

178

j
i

i

V

r

■>!

